<html>
<title> - ENBRIDGE PIPELINE OIL SPILL IN MARSHALL, MICHIGAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
           ENBRIDGE PIPELINE OIL SPILL IN MARSHALL, MICHIGAN

=======================================================================

                               (111-134)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 15, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
58-236                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

BarlondSmith, Michelle, Resident, Battle Creek, Michigan.........    22
Buchsbaum, Andy, Director, National Wildlife Federation Great 
  Lakes Regional Center, accompanied by Beth Wallace, Great Lakes 
  Oil Spill Response Coordinator.................................    22
Connolly, Susan, Resident, Marshall, Michigan....................    22
Daniel, Patrick D., President and Chief Executive Officer, 
  Enbridge, Inc..................................................    74
Hersman, Hon. Deborah, Chairman, National Transportation Safety 
  Board..........................................................    45
Jackson, Hon. Lisa P., Administrator, U.S. Environmental 
  Protection Agency, accompanied by Susan Hedman, Administrator 
  for EPA's Region 5.............................................    45
Lee, James Alan, Resident, Marshall, Michigan....................    22
Masten, Scott, Senior Scientist, National Toxicology Program, 
  National Institute of Environmental Health Sciences, National 
  Institutes of Health...........................................    45
Miller, Debra, Small Business Owner and Resident, Ceresco, 
  Michigan.......................................................    22
Porcari, Hon. John D., Deputy Secretary, U.S. Department of 
  Transportation.................................................    45
Scott, Kelli D., Administrator and Controller, Calhoun County, 
  Michigan.......................................................    53
Thorpe, Darla and Denise Green, Residents, Ceresco, Michigan.....    22

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    90
Cohen, Hon. Steve, of Tennessee..................................    94
Cummings, Hon. Elijah E., of Maryland............................    95
Garamendi, Hon. John, of California..............................   110
Johnson, Hon. Eddie Bernice, of Texas............................   111
Mitchell, Hon. Harry E., of Arizona..............................   115
Pelosi, Hon. Nancy, of California................................   116
Richardson, Hon. Laura, of California............................   117
Shauer, Hon. Mark H., of Michigan................................   120

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

BarlondSmith, Michelle...........................................   126
Buchsbaum, Andy..................................................   132
Connolly, Susan..................................................   146
Daniel, Patrick D................................................   194
Hersman, Hon. Deborah............................................   201
Jackson, Hon. Lisa P.............................................   206
Lee, James Alan..................................................   212
Masten, Scott....................................................   223
Miller, Debra....................................................   227
Porcari, Hon. John D.............................................   247
Scott, Kelli D...................................................   254
Thorpe, Darla and Denise Green...................................   260

                       SUBMISSIONS FOR THE RECORD

Cummings, Hon. Elijah E., a Representative in Congress from the 
  State of Maryland, CNN transcript..............................   102
Garamendi, Hon. John, a Representative in Congress from the State 
  of California, letter to Chairman Oberstar and Ranking Member 
  Mica...........................................................    17
Shauer, Hon. Mark H., a Representative in Congress from the State 
  of Michigan:
      Letter from Hon. Glen Thompson to Hon. Cynthia L. 
        Quarterman, Administrator, Pipeline and Hazardous 
        Materials Safety Administration, U.S. Department of 
        Transportation...........................................    65
      Letter from Hon. Judy Biggert to Hon. Ray LaHood, 
        Secretary, U.S. Department of Transportation.............    67

                        ADDITIONS TO THE RECORD

City of Battle Creek, Michigan, Susan Baldwin, Mayor, and Kenneth 
  Tsuchiyama, City Manager, written testimony....................   264
Sierra Club, Rita Chapman, Clean Water Program Director, Sierra 
  Club Michigan Chapter, and Elizabeth Irvin, Sierra Club 
  National Office, written testimony.............................   271
U.S. Fish and Wildlife Service, Department of the Interior, 
  written testimony..............................................   276

[GRAPHIC] [TIFF OMITTED] T8236.001

[GRAPHIC] [TIFF OMITTED] T8236.002

[GRAPHIC] [TIFF OMITTED] T8236.003

[GRAPHIC] [TIFF OMITTED] T8236.004

[GRAPHIC] [TIFF OMITTED] T8236.005

[GRAPHIC] [TIFF OMITTED] T8236.006

[GRAPHIC] [TIFF OMITTED] T8236.007

[GRAPHIC] [TIFF OMITTED] T8236.008

[GRAPHIC] [TIFF OMITTED] T8236.009

[GRAPHIC] [TIFF OMITTED] T8236.010

[GRAPHIC] [TIFF OMITTED] T8236.011

[GRAPHIC] [TIFF OMITTED] T8236.012

[GRAPHIC] [TIFF OMITTED] T8236.013

[GRAPHIC] [TIFF OMITTED] T8236.014

[GRAPHIC] [TIFF OMITTED] T8236.015

[GRAPHIC] [TIFF OMITTED] T8236.016

[GRAPHIC] [TIFF OMITTED] T8236.017

[GRAPHIC] [TIFF OMITTED] T8236.018

[GRAPHIC] [TIFF OMITTED] T8236.019

[GRAPHIC] [TIFF OMITTED] T8236.020



           ENBRIDGE PIPELINE OIL SPILL IN MARSHALL, MICHIGAN

                              ----------                              


                     Wednesday, September 15, 2010

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 10:15 a.m., in room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order.
    The Chair will advise Members and witnesses they are 
allowed to wear sunglasses. This newly reconditioned lighting 
system here, it is--I was watching it being installed during 
the recess, and it's energy efficient lighting. I didn't know 
it was going to be blinding.
    Mr. Miller, our Committee manager, what did you do with 
this lighting? Did you goose up the electricity on it?
    Yes, it is. I know that. I thought they repainted the room 
it was so bright.
    A little obiter dicta aside, the Committee meets in very 
serious, even somber session this morning. We have had a long 
record of concern over the safety of the Nation's pipeline 
system. When I Chaired the Investigations and Oversight 
Subcommittee several years ago, one of our first actions was to 
inquire into a serious pipeline break in Minnesota on the 
northern fringe of the Twin Cities. I recall very vividly as we 
prepared for reauthorization of the pipeline safety program 
just prior to the Highway Subcommittee consideration of that 
legislation there was the massive rupture on the Williams' 
pipeline in Mounds View, Minnesota, northern fringe of the Twin 
Cities.
    Our Subcommittee on Investigations and Oversight inquiry 
into that failure, with the very detailed report of the 
National Transportation Safety Board, showed that corrosion was 
the culprit, that cathodic protection had failed on that 
pipeline. Not only had the cathodic protection failed, but 
there were no shutoff valves in the vicinity of the pipeline 
rupture.
    The pipeline had been laid some time before intensive 
population growth had spread to Mounds View. Notwithstanding, 
the pipeline company continued to treat that segment as a rural 
pipeline with widely spaced shutoff valves and no technology to 
detect a drop in pipeline pressure. And what happened was that 
there was a 7-1/2 foot long crack in the pipeline.
    Liquid gasoline leaked into the soil and spread throughout 
an entire city block. Vapors from the liquid gasoline worked 
their way up through the soil. At 2:00 a.m., a car driving 
along that street with a loose tail pipe, the tail pipe struck 
the pavement, sparked, and the gasoline exploded into a block-
long fireball that melted and buckled the pavement, melted 
mailboxes along the street and one of the homes. A mother and 
her daughter came out the front door to see what was going on; 
and the fireball roared up the front lawn and engulfed the 
mother and daughter, severely burned, died a couple of days 
later.
    In the aftermath, we found that, notwithstanding the 
explosion and the fire, the gas leak continued to flow for an 
hour and a half until the manually operated gate was shut off. 
I have talked about that incident in every hearing we have had 
over the ensuing years on pipeline safety.
    All of us know where we were and what we were doing at a 
certain moment our life when some major tragedy occurred. When 
Franklin Roosevelt died I can tell you exactly where I was, 
whose living room, what time of day. We all know where we were 
on September 11th. Congressman Schauer, I am sure, will never 
forget where he was when he learned of the Enbridge spill in 
Marshall, Michigan. Nor will our colleague, Congressman Rick 
Larsen, ever blot out the memory of the Bellingham River gas 
line spill that claimed the lives of two young lads who had 
just graduated from high school, were celebrating their 
graduation by going on a fishing trip on this river and this 
wall of gasoline on fire roared down the river and consumed 
them.
    Two months ago, the Subcommittee on Railroads, Pipelines 
and Hazmat had a hearing on the integrity management of 
hazardous pipelines. During the hearing, I questioned Mr. 
Richard Adams, the Enbridge vice president of U.S. operations 
for liquid pipelines, about the importance of identifying and 
responding immediately to pipeline rupture.
    His comment, ``Our response time from our control center 
can be almost instantaneous, and our large leaks are typically 
detected by our control center personnel. They have enough 
experience and training that with usually a leak of any size 
they can view that there is a change in the operating system, 
and there are provisions that if there is uncertainty they have 
to shut down within a period of time.''
    This is after 20 plus years of experience of pipeline 
failures. We did not know at the time of their testimony that 
Enbridge had requested a 2-1/2 year extension from DOT's 
Pipeline and Hazmat Office to--an extension of time to repair 
the 329 defects on that line that they had known about for 2 
years.
    Ten days later, the pipeline burst. Ten days later after 
the hearing in this Committee. It does not appear at this point 
that any of those 329 defects were present at milepost 608 
where the rupture occurred. Records show that prior inspections 
in 2005, 2007, 2009 identified at that location a defect, but 
the defect in their judgment had not yet reached the repair 
criteria that PHMSA, the hazardous materials agency, had 
established in Federal regulation.
    That is not good enough. The Federal regulations are a 
minimum standard that you must meet.
    In aviation, the opening paragraph of the FAA act of 1958 
says, safety in aviation shall be maintained at the highest 
possible level. The purpose of that language was to encourage a 
culture of safety in the corporate boardrooms, and that is what 
is required here and that that level of safety should go beyond 
those minimum standards.
    We will hear later in the testimony from the National 
Transportation Safety Board. We don't yet know the exact cause 
of the incident. We do know that the spill likely occurred 
sometime before Enbridge reported to the National Response 
Center. We know that, contrary to Enbridge's claims at our 
hearing, the control center didn't even realize that a massive 
rupture had occurred on the pipeline until a utility worker 
from an unrelated company called Enbridge to report oil was 
spilling into a creek.
    We know that Enbridge personnel at the control center 
experienced an abrupt pressure drop on the line and they had 
multiple volume balance alarms over the course of several hours 
before sending a technician to the pump station three-quarters 
of a mile from the rupture. We know that Enbridge reported that 
the technician did not see any problems or smell any odors at 
the pump station.
    We also know that numerous residents in the immediate 
vicinity of the pump station and others who were living some 9 
miles away reported that they smelled strong odors the day 
before.
    We also know that Enbridge knew about hundreds of defects 
in the line. We know that PHMSA was made aware of them, and we 
know that PHMSA failed to do anything to address Enbridge's 
inaction.
    That is not a culture of safety. That is not a culture of 
safety in the head office of PHMSA, nor at Enbridge.
    This corporation has been urging residents in the aftermath 
of this tragedy, under duress, to sign liability releases for 
reimbursement of hotel and food expenses resulting from their 
evacuation, signing liability releases for air purifiers that 
are being distributed which, according to information our 
investigative staff have gathered, do not address the health 
impacts of inhaling benzene or volatile organic compounds.
    This corporation is not practicing a corporate culture of 
safety. Nor does this company properly assume responsibility 
when its personnel lead injured persons to believe they must 
sign away their lifelong medical records to Enbridge if they 
want medical care. Enbridge should not have the right--or have 
the power or the force to intimidate people into signing a 
document that the company can then use against them in later 
legal proceedings; and, at the same time, they claim that this 
is a Federal requirement under the Health Insurance Portability 
and Accountability Act, HIPAA, when they are not covered by 
HIPAA.
    This sounds very much like Transocean on the mobile 
drilling unit in the Gulf coming back to their employees and 
asking and demanding that they sign a document saying they 
didn't see the accident, hear the accident, they weren't part 
of it, and they did not suffer severe injury in order to be 
covered--signing away their rights.
    We went through this months ago in this Committee room with 
BP and Transocean and the mobile drilling unit. I am not going 
to tolerate this.
    And Enbridge is also resisting our request for view of 
those documents. So we will deal with that separately.
    You would think Enbridge would have learned a lesson from 
BP. You would think they would have learned from the history of 
pipeline failures in this country. When they occur, they are 
either a disaster to the environment or to residents near the 
pipeline. Neither is acceptable and that conduct by 
corporations is not acceptable, nor is it acceptable of PHMSA.
    With that, I will yield now to our distinguished Ranking 
Member, Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman; and I thank all the 
witnesses for coming out today. I look forward to hearing from 
everybody.
    Of course, the ruptured pipeline which occurred in July--
late July in Marshall, Michigan, is certainly a tragedy; and, 
as the Chairman stated, this Committee takes it very seriously. 
We hope to get a better understanding of what happened, and I 
don't think we are going to get a full understanding until the 
NTSB has done its full investigation of the situation.
    So today we are pleased that we are going to hear from the 
residents about the spill and the problems that they 
experienced from the EPA administrator and the environmental 
damage caused by this bill, the Department of Transportation, 
of course, the NTSB talking about the events leading up to the 
rupture and what can be done to prevent these types of things 
from occurring in the future. But, again, we still have to wait 
until their final report, which I don't know when to anticipate 
that will be out so we can get the facts and really determine 
what really happened on that day and why it failed.
    And our final witness of the day is going to be Pat Daniel, 
who is the President and CEO of Enbridge, the owners and 
operators of the pipeline; and he is going to talk about what 
they have done in the cleanup, which I understand is moving 
forward well, it is going well, as well as can be expected and 
what they are doing to help the residents cope with the spill.
    It is my understanding that Enbridge has done some things 
that aren't required of them, offering to buy people's homes 
because they don't want to see the values go down. So they are 
trying to do those things. My understanding is they have bought 
four or five homes now and may be buying several more. But they 
are doing some things that are positive and not at this point 
required by law.
    So it is a serious matter for this Committee. It is a 
serious matter for the agencies of the government. They are 
looking into it, and I get the sense that Enbridge takes this 
very serious and are going to step up and do what they need to 
do.
    Again, we really need to wait to find out the facts from 
the NTSB and their final analysis of this.
    It has been a rough month for pipeline safety. First, we 
had this spill, and then there was another that occurred in 
Illinois. Six thousand barrels spilled, got onto the roadway 
and a retention pond in Illinois. And then on Thursday the 
massive explosion in California, in San Bruno, California, 
which killed several people and destroyed many, many homes and 
a lot of property out there.
    A lot of us take for granted how oil and gas are 
transported around the country and how natural gas makes it 
into our homes. But pipelines are an essential part of our 
transportation system; and they are still, even in spite of 
these tragedies that have occurred, still the safest and most 
efficient way that we deliver these products to consumers. But 
we need to make sure that we are doing everything we can to 
make it even safer.
    These recent events have captured the public's attention 
and brought pipeline safety to the forefront, as it should 
have. I only wish that the government, PHMSA, the 
administration, DOT, would have looked at these things and had 
a sense of urgency before these events occurred.
    The administrator, Cynthia Quarterman, has been before this 
Committee four times in the last 5 months; and each time she 
has appeared I have asked her when she expects the 
administration to transmit a pipeline safety reauthorization 
proposal and each time she has been unable to provide that 
answer to me. Then today, 15 days before the program expires--
it expires on September 30th--we have a proposal. I would like 
to tell you it is a good proposal, but I cannot because 
literally we got an e-mail to us at 10:00. It is still warm 
coming off the press. So we haven't had an opportunity to look 
at this. And, again, it is 15 days before the program expires.
    Congress is expected to recess on October 7th, and rumor 
has it maybe even October 1st. So I don't see there is any way 
we can go through a proposal and pass a proposal that is going 
to make sense, that is going to be thoughtful, that is going to 
look at the facts, especially when you have the situation here 
at the NTSB, no final report. So it boggles my mind.
    It is stunning to me that the White House, the 
administration, was unable to come up with a proposal until, 
again, 15 days, 30 days after a tragedy occurs. Again, the 
President, when we had the highway reauthorization bill was 
ready to expire, it was 9 months into the President's term; and 
everybody said it is only 9 months. Well, now it is 20 months 
into the separation, and they are still playing catch-up. The 
honeymoon is over. If the administration expects to be taken 
seriously on transportation issues across the board, they need 
to start stepping up to the plate. I am very disappointed in 
that.
    Again, Mr. Chairman, thanks for holding this hearing; and I 
yield back.
    Mr. Oberstar. Thank you, Mr. Shuster.
    I join in your frustration, but mine is tripled because we 
had the same experience trying to get a pipeline safety bill 
recommendation from the Reagan administration in the late 
1980's and in 2006 we had similar problem getting one from the 
Bush administration.
    There is something endemic in this agency that it does 
not--it is not responsive, and it is bipartisan nonresponsive, 
and we will not tolerate one or the other party delay. It has 
nothing to do with party. It has everything to do with lives, 
safety, protection of the environment and the confidence that 
the public should have that pipelines running particularly 
through urban areas are well managed, well maintained.
    I have not yet had the opportunity to review the 
administration's proposal. I shall. But I do think that there 
is urgency, and I think we should begin the fashioning of a 
bill in Committee so that we can deal with this matter in due 
course. And we will consult closely, of course, and participate 
in partnership with the Republican Members of the Committee. 
Because safety knows no party.
    I will now ask Mr. Schauer to make whatever opening 
comments he may have. Thank you for your vigilance over this 
issue and also Mrs. Miller, also from Michigan. Both Members 
are deeply affected and directly affected and have been 
extraordinarily responsive to the concerns of the people of 
Michigan, to their constituents; and I thank you both for your 
contributions and for your vigilance.
    Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman and Ranking Member 
Shuster. Representative Miller and I have many things in 
common, one of which is this pipeline runs through our 
district.
    On Monday, July 26, at approximately 1:30 p.m., I was 
boarding a flight from Detroit to Washington for votes here in 
the House of Representatives that evening. It was almost that 
exact time that a company few in Calhoun County, Michigan, had 
ever heard of, Enbridge Energy Partners, reported an oil spill 
to the National Response Center into Talmadge Creek just south 
of the city of Marshall.
    Starting about 9:30 the night before, on Sunday, July 25th, 
residents in the Talmadge Creek area began calling 911 
complaining of a gas odor. As we will learn here today, this 
was just after a shift change in the Enbridge control room in 
Edmonton, Alberta, in Canada, the same control room that 
experienced 13 hours of alarms telling them that something was 
going wrong on Line 6B in Enbridge's Lakehead pipeline.
    On Tuesday, after a brief meeting with the President in 
which he committed all necessary resources to deal with this 
largest oil spill ever in the Midwest, I flew home to see for 
myself. Jill Slaght of my staff, who is here today, a Marshall 
resident, was on the ground; and my team and I have been 
working with our sleeves rolled up with affected people ever 
since.
    I saw the unimaginable there at home that day. I live in 
Battle Creek. I got off the highway, drove through Marshall, 
stopped, smelled, saw. My community lost its innocence that 
night and in subsequent days. One million gallons of heavy 
crude oil poured into the Talmadge Creek and then into the 
Kalamazoo River, a tributary to Lake Michigan.
    I never would have imagined that just after holding 
hearings on the BP Deep Water Explosion spill to strengthen the 
Oil Pollution Act, my community would be dealing with the same 
images, images of oil-coated geese in a river literally flowing 
black with oil.
    The ironies are too many to cite. Just 10 days before, as 
Chairman Oberstar stated, an executive of Enbridge testified 
before this very Committee on its integrity management system 
and stated its control room could detect the smallest of leaks. 
As we learned, it failed.
    Also on that day, July 15, 2010, Enbridge requested, as the 
Chairman noted, to the Pipelines and Hazardous Materials Safety 
Administration, or PHMSA, that it be allowed to continue to 
operate Line 6B at reduced pressure for another 2-1/2 years 
while it considered repairs to identify defects in its 
pipeline. This is on top of the year--one year--that Enbridge 
had already been operating at reduced pressures while it 
considered what to do about known defects in its pipeline.
    As a result of inline inspections since 2007, Enbridge knew 
of 390 defects but only saw fit to repair 61 of them, leaving 
329 unrepaired defects in Line 6B.
    The section of pipeline that ruptured south of Marshall 
wasn't even one of these. I learned from documentation provided 
by Enbridge to PHMSA about 2 weeks ago that the section of 
pipeline that tore--it literally tore--had a defect, but the 
defect didn't rise to PHMSA's threshold requiring repair. But 
isn't it Enbridge's responsibility to make sure that its 
pipeline is safe and that people won't be injured and the 
environment wouldn't be impacted? Enbridge has a lot of 
experience in this area, with 163 pipeline spills since 2002, 
83 of them on the Lakehead system.
    Mr. Chairman, thank you for holding this hearing today. It 
is important to the people of Michigan where 283 miles of this 
pipeline lies. This hearing is ultimately about people, people 
whose lives have been changed, for some permanently and 
irrevocably.
    We hold this hearing for Mitchell Price who couldn't be 
here today but wrote to me about his property, his 30 acres of 
property along the Kalamazoo River that has been spoiled. And 
it's for Bobby and Berita Lewis who feel violated and whose 
lives have been turned upside down.
    This is also a hearing about safety, as you noted, Mr. 
Chairman. Our current laws and regulations are not working as 
we have seen from this spill and others. The Enbridge pipeline 
spill is just one example of the need for further corporate 
responsibility and public oversight. There were three other 
incidents just in the past week, two from Enbridge lines. 
Public health was compromised by Enbridge's spill, with over 60 
homes being evacuated. Area medical centers have reported over 
120 visits related to illnesses from the oil spill. Over 1,000 
oiled wildlife have been collected thus far; and the spill area 
is still today under advisories for drinking water, recreation, 
and fish consumption.
    We do not yet know what the long-term impacts of the spill 
will be on the health, safety, environment, and economy, 
economy of these communities in my district. According to the 
National Institute of Health, there has never been a study of 
what effects are of the high exposure levels of benzene and 
related odors like the levels we saw in this spill to children 
and infants. The testing has only been done in adults.
    Additionally, I am very concerned before this pipeline is 
restarted that it can operate safely, given the recent releases 
in Illinois and New York and the over 80 release incidents, 
spills reported by Enbridge since 2002 in the Lakehead system. 
I do not think it can.
    Mr. Chairman, every inch of this pipeline must be inspected 
and every defect fixed before 8 million gallons per day of 
heavy crude oil is allowed to flow through it again.
    From the very beginning, there have been questions 
surrounding when this rupture and oil spill occurred. Again, 
Enbridge stated in testimony before this very Committee on July 
15th about their response time and ability to detect the 
smallest of leaks. I am concerned about Enbridge's statement to 
the Committee about their equipment and personnel being able to 
detect leaks almost instantaneously, especially after this 
spill. Enbridge's control room in Alberta started experiencing 
alarms before the spill was reported to Federal officials at 
5:58 p.m. On July 25th on this 6B line.
    Additionally, reports of odors started coming in, as we 
know, that evening about 9:30 in Marshal; and it wasn't until 
11:18 a.m., Mr. Chairman, on Monday, July 26th, that an 
employee of another utility company, Consumers Energy, called 
Enbridge, telling them that was oil spilling into the Talmadge 
Creek. The leak was confirmed by Enbridge personnel at 11:45 
a.m.; and they reported the spill to the National Response 
Center at 1:33 p.m., nearly 2 hours after they confirmed 
discovery.
    Over 13 hours of alarms in their control center in Alberta 
and they still were unable to discover and report the leak near 
Talmadge Creek in my district. Current regulation requires 
pipeline operators to report incidents immediately upon 
discovery of a release.
    In 2002, PHMSA determined that ``immediately'' to be 
defined as between 1 and 2 hours of discovery, or the earliest 
practicable moment. Enbridge documentation indicates that 
reporting must be provided within 2 hours of discovery.
    I introduced a Corporate Liability and Emergency Accident 
Notification Act, the CLEAN Act, to clarify the term 
immediately and the reporting requirements of a spill incident 
to the National Response Center to be no more than 1 hour after 
the discovery of an incident. My bill will also increase the 
current fines if a spill is not reported immediately after a 
release has been confirmed. In an accident like this, with real 
people and the environment at risk, every second counts.
    Mr. Chairman, under current regulation--you noted this 
yourself, and I will come to a conclusion momentarily--under 
current regulation, railroad employees can lose their license 
to operate a train for exceeding the speed limit by 10 miles 
per hour, failing to make a break test, or occupying a main 
track without permission. Truck drivers can lose their 
commercial drivers license for speeding, making an erratic lane 
change, following another vehicle too closely, or even 
bottoming out the undercarriage of a highway vehicle grade 
crossing.
    These are serious offenses. Don't get me wrong. But a 
company that has the longest petroleum pipeline in the world 
can spill 1 million gallons of heavy crude oil, devastating a 
local community and sensitive environmental areas and they 
don't have to fix all of the defects in their pipeline? That 
concerns me to no end.
    My concerns do not only extend to Enbridge's pipeline 
safety practices but also the company's practices with the 
spill claims process and labor practices at the oil spill 
cleanup site. I have heard from citizens, and you will hear 
from some today, Mr. Chairman, who have been asked to sign 
waivers releasing Enbridge from any other liability in exchange 
for something as small as an air purifier that, by the way, 
offers no protection from benzene. Enbridge also has citizens 
sign waivers releasing all of their medical history to the 
company in return for medical treatment.
    This is outrageous and a clear HIPAA violation. People 
should not have to sign away their rights to receive medical 
treatment or be reimbursed for a legitimate claim.
    I have also heard numerous concerns from community members 
whose businesses have been negatively impacted by the spill. 
Some citizens reported banks redlining people from buying their 
homes because it is in the vicinity of the oil spill, and 
numerous citizens are still concerned with the short and long-
term health impacts from the spill.
    Additionally, there have been news reports of labor and 
worker safety issues with one of Enbridge's contractors, 
Hallmark Industrial, LLC. One newspaper article, Mr. Chairman, 
reported Hallmark Industrial using illegal undocumented workers 
to help work on the spill cleanup site. This same article 
reports there were unsafe working conditions and workers who 
were not qualified with the proper certifications working on 
the oil spill cleanup. Now, this goes beyond media reports.
    Illegal workers--and I am wrapping up. Thank you for your 
leniency. But illegal workers bussed by an Enbridge 
subcontractor from Texas were actually arrested upon return to 
Texas. This is wrong and illegal. There are many qualified 
workers in my district who would love to have the opportunity 
to clean up this oil.
    Mr. Chairman, today we will hear from citizens--and I am 
concluding--in my district on how the spill has impacted their 
daily lives and how, up until they were on this list to testify 
here today, Enbridge denied some or all of their claims for 
compensation. Enbridge has offered most of the witnesses here 
settlements over the last 72 hours.
    So, Mr. Chairman, perhaps we should hold three more 
additional hearings so that other citizens from my district 
impacted by this spill that have had their claims denied will 
too be able to get the damage reimbursement they deserve from 
Enbridge. The citizens in my district deserve to be treated 
fairly by this company and to be reimbursed for all damages 
that have already occurred and will continue to be occurred in 
the future. They deserve to have Enbridge held accountable for 
this oil spill and the safety of this pipeline.
    Thank you, Mr. Chairman, for holding this important hearing 
and allowing the citizens of my district to be able to voice 
their concerns. I would like to thank all of the people from my 
district for taking the time out of their busy schedules to 
come and testify before our Committee.
    Thank you.
    Mr. Oberstar. The Chair recognizes the gentlewoman from 
Michigan, Mrs. Miller.
    Mrs. Miller of Michigan. Thank you, very much, Mr. 
Chairman.
    If I could ask the staff while I am making my opening 
comments--I see Jimmy Miller there putting up the slide that I 
asked for. Nope. Wrong slide. I am looking for the slide on the 
St. Clair River.
    As they put that up, I will tell you why I want to have the 
slide. Because a picture is worth 1,000 words certainly.
    Mr. Chairman and the Ranking Member as well, I am so 
appreciative of having this hearing, of you holding this 
hearing. As you know, one of my principal advocacies is 
protecting our magnificent Great Lakes. I know you share that 
passion as well and certainly my colleague from Michigan.
    And I welcome all of the Michiganians who are here today as 
well. It is not often that we have a Committee hearing when we 
have so many Michiganians testifying. And I just welcome you 
here, because I know you all share the same passion.
    We are from the Great Lakes State. We love our Great Lakes, 
as all the States do in the basin.
    OK, we have a slide up here.
    Now, what we are doing today is what Congress needs to be 
doing and that is exercising our responsibilities from an 
oversight standpoint. And my colleague from Marshall has 
articulated very well the situation that has occurred in his 
congressional district with a portion of this pipeline owned 
and operated by Enbridge company, which is a Canadian company, 
looking through--but, you know, it has, for instance, a former 
Democratic governor from Michigan. Jim Blanchard is on their 
board of directors. It is an international company.
    But, you know, as I watched with horror, as everybody else 
did in Michigan, I think around the Nation, what was happening 
in Battle Creek and Marshall, Michigan, there, just wondering 
if this oil, God forbid, were to get into the Great Lakes' 
system, what that would actually mean. And, of course, any oil 
spill is terrible. However, if an oil spill occurs over land, 
there are dynamics there. If an oil spill were to occur in the 
freshwater drinking supply for literally millions and millions 
of people, you would have another situation beyond 
catastrophic. And as we all talk about with the Great Lakes, 
which is fully one-fifth of the freshwater drinking supply of 
the entire plant, 20 percent of the freshwater drinking supply 
of the entire world, that is why we have this passion about 
water quality and clean water.
    And I have watched this bill, as I say, in Marshall; and 
now since in the interim we have seen another Enbridge spill, 
unfortunately, in Illinois. Then we just read about one just 
outside of Buffalo in New York. And I have been trying to 
really track looking at the wiring schematics and the wiring 
diagram of where the pipeline emanates and where it is going to 
and how it impacts my district, how it impacts my State, et 
cetera. And as we exercise our oversight being made sure that 
we are asking the right questions of not only the company but 
the regulators certainly.
    I think the entire Nation has been sensitized, obviously, 
to spills and what they mean in the short term and the long 
term when we all watched--the entire world watched what 
happened with the Deepwater explosion, which I know sometimes I 
tell my staff I feel like I am watching a person bleed to death 
and I don't know how to stop it, and I think many people had 
that kind of a reaction as we watched this terrible thing 
happen.
    I just mention that because I am not suggesting that 
happened in this case, but we certainly have found that there 
was some cozy relationship between the regulators and the 
companies, and Congress needs to make sure that that never, 
never, never happens.
    Now, this portion of this Enbridge pipeline which emanates 
in Sarnia, Canada--and, Mr. Chairman, I always laugh. As a 
Member from Michigan, we always have the map of our State on 
the end of our arms. So I am always holding up--but this is my 
district here, from about this knuckle to the tip of the thumb. 
So this is the St. Clair river. You are seeing a small portion 
of the St. Clair River, Sarnia, on the Canadian side, our 
wonderful Canadian neighbors. But this pipeline is coming from 
Sarnia. It is going across the St. Clair River here.
    The St. Clair River, obviously, is part of the Great Lakes 
system. That water is running--it is a very--it is probably the 
fastest, maybe outside of the St. Mary's River--but it is 
probably the fastest current in the Great Lakes basin. It is 
running about 6 or 7 knots, and it runs much faster along the 
U.S. side there.
    So you can imagine if you just spilled a cup of water--
excuse me--a cup of oil and how quickly that sheen would move 
when you have that kind of current. Think about an oil break 
there.
    I am not trying to be an alarmist. On the other hand, I am 
trying to do what I was elected to do, which is oversight for a 
company that may have a problem here. So as we look at the list 
of anomalies, as they call them in the industry, the anomalies, 
we found that there was a dent, which is indicated on these 
overheads here. There is a dent about 300 feet off the U.S. 
side that Enbridge apparently found in 2009, and the regulators 
are aware of this as well.
    I just mention this if you can--again, I am not trying to 
be an alarmist. But anyone can understand, God forbid, what 
would happen if we had any kind of an incident then. So we have 
to have absolutely zero tolerance.
    I did--this dent actually--and I have met--I would also say 
that myself and my staff met just last week. We had a long 
meeting with Enbridge in my district office in Michigan. We 
talked about this. I don't want to go too long in my opening 
statement here. I will ask some other questions when I get an 
opportunity to ask questions.
    They indicated to me that they use very sophisticated 
testing equipment through their entire system to understand 
where the anomalies are and prioritize what they all are. But 
they found this dent in 2009, August of 2009. It is about 40 
years after the pipeline was installed. Although they told me 
that they think that this dent may have been there since 1969. 
That is when the pipeline was installed. So if they had this 
dent since 1969 but they only discovered it in 2009, it leads 
to a question about the sophistication of the technology that 
they are utilizing to inspect their entire pipeline. I would 
raise that.
    Also, this dent in the pipeline meets the Federal 
regulatory requirements which would require a repair within 60 
days. I just lay that out there. I will be pursuing this a bit 
more.
    But they were supposed to fix this dent within 60 days. 
Keep in mind, they found it in August of 2009. I mention that.
    I would just say this, Mr. Chairman, because I appreciated 
your comments about the agency. Some of the problems that the 
agency does not respond, it is endemic, and it has been that 
way, and certainly Representative Schauer mentioned the same 
thing. I had sent a letter on August the 3rd to Cynthia 
Quarterman, who is the administrator of the Pipelines and 
Hazardous Material Safety Administration, PHMSA, as we call it. 
I have asked a lot of questions because I didn't want to come 
to this hearing and blind-side anybody, either the regulators 
or the company. I have been asking these questions very openly, 
putting them in written form. So I am not just blind-siding 
them at a congressional hearing. So they have plenty of time to 
give us the answer.
    And I was looking forward to questioning her today, 
although I know she sent her deputy and not herself. And I am 
not making any allegations here. I am just reading from a CBS 
News report that says the official who runs the Federal agency 
that oversees pipeline safety recused herself from a Federal 
investigation into the cause of a massive Michigan oil spill 
because she once represented the company in question when she 
was an attorney at a Washington, D.C., law firm.
    The Pipeline and Hazardous Material Safety Administration 
and the Department of Transportation is led by Cynthia 
Quarterman. She represented Enbridge Energy Partners, the U.S. 
Subsidiary of the Canadian Energy giant responsible for the 
800,000 gallon spill. Now, I don't know. I am not suggesting 
there is a conflict of interest, but, unfortunately, she could 
not come. The administrator--the regulator could not come to 
talk to us because she represented the company in charge. So I 
will pursue that a bit more.
    And I will just close with this, Mr. Chairman. I appreciate 
your leniency with my time as well.
    One of the other problems that I think has been articulated 
very well by Representative Schauer--and I have the same 
concern--is the coordination and communication between the 
company and the first responders in the area. And I have found 
that in my own area, this district is St. Clair County. I have 
talked to the emergency management director there. I talked to 
the fire chief, the police chief of Marysville. That is the 
city that this pipeline comes into. And we just don't think 
that there is much--there is certainly--the largest room is the 
room for improvement. We think there is lots of room to improve 
communication between the company and the first responders in 
preparing their emergency response--again, God forbid that 
there is ever any kind of an incident again anywhere and 
whether it is in my district or anywhere in Michigan or 
anywhere in this pipeline.
    So we are actually going to be having an informational 
hearing with our first responders in about 3 weeks, and we are 
also inviting all of our Canadian counterparts. Because you 
know one thing about the water in that river. The water doesn't 
know if it is in Michigan or Canada. It does not know. And 
people are drinking the water. So we include everybody on that.
    But I look forward to hearing from the witnesses; and, 
again, I appreciate your leniency and giving me the time on 
this very, very important issue. Thank you, Mr. Chairman.
    Mr. Oberstar. Certainly, those of our colleagues on the 
Committee who are directly affected should be able to expand on 
their views on an issue of this kind; and I welcome the full 
statements by both Mrs. Miller and Mr. Schauer.
    Point of clarification on Ms. Quarterman, the administrator 
of PHMSA. There is a requirement in the Obama administration 
for all executive level personnel to recuse themselves for a 
period of 2 years from any investigation or any action or 
rulemaking affecting an organization with which they had an 
affiliation prior to their appointment. So for 2 years she must 
recuse herself, and that is why we have not her deputy but the 
deputy secretary of the Department of Transportation testifying 
this morning.
    Other Members wish to be--Ms. Brown, Chair of our Railroad 
Subcommittee and PHMSA and who has held numerous hearings on 
the subject of hazmat.
    Ms. Brown of Florida. Thank you, Mr. Chairman. I am not 
going to take my full time because I want to hear from the 
witnesses, but I want to thank you very much for your timely, 
timely hearing.
    Sadly, much like BP and the spill in the Gulf, both 
Enbridge and Pacific Gas and Electric have a history of safety 
violations and planning resource following the accident is 
totally unacceptable. It also appears that BP and Enbridge have 
pressured local residents to waive their rights to seek damages 
caused by this accident.
    In my opinion, these incidents have made it clear that 
self-regulation is not working in the pipeline industry. Our 
Railroad and Pipeline Subcommittee has held a series of 
hearings concerning pipeline safety and have found significant 
problems with reporting and inspection, as well as an unhealthy 
relationship between the pipeline industry and the agencies 
that regulate them.
    Moreover, much like the sewer and water infrastructure in 
this country, much of the pipeline infrastructure is reaching 
the end of this useful life. Let me repeat that. The industry--
the pipeline infrastructure is reaching the end of its useful 
life. There was a report this morning on CNN that I want to 
recommend to us take a look at that talked about how the 
infrastructure of the life that our forefathers had put in 
place is ending and we need to come up with resources as to how 
we are going to replace the infrastructure.
    And this is just one example. We have had several all over 
the country. We have got to come up with how we are going to 
have the resources that we need to change this infrastructure; 
and with the high unemployment and the need for jobs, this is 
an adequate time to have training and put American people back 
to work in rebuilding our infrastructure. And we do know--I 
have to put a plug in--for every billion dollars that we invest 
in transportation, it generates 44,000 permanent jobs.
    I am looking forward to the testimony, Mr. Chairman; and 
thank you again for your leadership in this area and also for 
the Members. Because as soon as it happened they contacted us 
and wanted us to--we got involved in making sure that they had 
the resources that they need to keep us informed.
    Thank you, and I yield back the balance of my time.
    Mr. Oberstar. Thank you for your vigilance and your 
passion.
    Now, Mr. Ehlers, another Member of our Committee from the 
State of Michigan and our resident scientist.
    Mr. Ehlers. Thank, Mr. Chairman.
    And I would just say I have been there long enough to be 
called a Michigander instead of a Michiganian. It is a fine 
distinction which we argue about a lot in Michigan.
    I do want to just--I will try not to repeat any comments 
made by my colleagues from Michigan that are more directly 
involved in this because of their geographical location. 
However, I have a 50-year record of being concerned about the 
environment; and this is just a stab in the heart to see that 
this happened in our beautiful State of Michigan.
    But, Mr. Chairman, I would like to broaden this a bit as 
the Chair of the Subcommittee. Just the basic factor here with 
many of the problems we are dealing with is that we are facing 
an infrastructure crisis in this country; and I know you agree 
with that, Mr. Chairman, because we have had private 
discussions on this. But you have personally experienced it 
when the bridge collapsed in Minneapolis in your State, and 
this is happening again and again.
    And it doesn't matter whether it is a bridge or a pipeline 
or it is a drilling anything from the Gulf of Mexico. We are 
not taking care of our infrastructure. We are getting sloppy, 
and we are taking things for granted.
    And I hate to take the route of fining these companies an 
immense amount of money. If that is the only way to get their 
attention, that may have to be the thing we do, or have them 
face bankruptcy by lawsuits filed by citizens. Now, that is not 
a very productive way to address it.
    I think that this Committee has to lead the way in this 
Congress in bringing the attention of the country to the 
infrastructure problems we face. And it is not just pipeline. 
It is sewers. It is sewerage treatment plants. We are so 
dependent on all these things in our everyday life. They tend 
to have been built in the middle of--after the middle of the 
previous century. And so they were all relatively new, built 
about the same time; and we just assumed they would keep on 
going forever, no matter whether it is sewerage or oil. And 
that is simply not true. You have to have maintenance.
    And as--I forget the name of the famous longshoreman from 
San Francisco. He used to write books. But he commented once, 
you can judge the quality of the Nation by the attention it 
pays to its infrastructure. Because if you are paying attention 
to your infrastructure, you are worried about what your kids 
are going to inherit, you are worried about the citizens of the 
country having all the amenities they need and not having to 
worry about all of the side effects, whether environmental or 
fire or whatever.
    So I think we have to start waving the flag here, Mr. 
Chairman, and take the lead in this Committee on making the 
Congress and the country aware of the importance of 
infrastructure and maintenance of infrastructure and then we 
will stop having to have hearings like this or like the Gulf of 
Mexico hearings. We can very comfortably enjoy the amenities of 
modern life in the United States with the confidence that they 
are well built and they are well maintained and we simply won't 
have these kinds of crises.
    So thank you very much for the leadership you have shown 
since you became Chairman, and I urge you to continue that.
    As you know, I am fading off into the sunset January 3. But 
I know I can depend on you, and I see Andy Buchsbaum, a long-
time friend of mine from Michigan, a fellow environmentalist, 
between the environmental community and this Committee, we 
should be able to get this Nation squared away on its 
infrastructure.
    Thank you very much.
    Mr. Oberstar. Thank you very much for those wonderfully 
thoughtful comments. We shall miss your presence on this 
Committee and your contribution and your deeply felt and well-
researched insights.
    Eric Hoffer is the philosopher longshoreman from San 
Francisco who you quoted quite well. The second part of his 
quote is, show me failing sewer, failing streets, failing water 
systems, and I will show you a government that is failing.
    Mr. Ehlers. Absolutely.
    Mr. Oberstar. And we are indeed failing.
    Mr. Ehlers. I knew I could depend on your infallible memory 
to remember the name of the author. But it is also not just 
infrastructure, but he also included in that social networks, 
for example, Social Security, et cetera.
    Thank you.
    Mr. Oberstar. Thank you. Thank you very, very much.
    Our newly successful representative of the District of 
Columbia, congratulations on your crowning yesterday, 
overwhelming vote, the Chair of our Subcommittee on Economic 
Development and other matters.
    Ms. Norton. Thank you very much, Mr. Chairman, for your 
congratulations and especially for this hearing.
    I simply want to say a word about an issue that you have 
stressed ever since I have been on this Committee, and that is 
essentially that infrastructure does not have eternal life, 
but, because you cannot see it, it may appear that way. So we 
appear to get serious about the infrastructure that you cannot 
see only in the wake of catastrophe.
    We get more serious about roads because we bumble across 
them. But it is very scary to believe that it takes a major 
disaster to make us look beneath the streets, beneath the water 
where the infrastructure can--as we have learned recently--
destroy the environment or destroy us.
    Mr. Chairman, I am particularly concerned about the natural 
gas explosion in San Bruno. What bothers me about that is not 
simply that there was an explosion, but it appears that people 
were building these lines below the homes where people live. 
Now, I don't know if developments sprang up after the natural 
gas lines were laid, but the notion of being in your house and 
having it blown up because you are sitting on top of a natural 
gas line or some other line is truly frightening. Bad enough to 
have something explode in front of your house. So I hope that 
in discussion and as our materials indicate we are looking at 
Enbridge as emblematic of an aging infrastructure and what it 
can mean if we don't pay attention. And I must say that San 
Bruno rears its head as an unusually dangerous example, and 
that is why I am particularly appreciative of the opportunity 
to hear these witnesses and to question them.
    Thank you very much, Mr. Chairman.
    Mr. Oberstar. I don't think other Members of the 
Committee--Mr. Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you for this hearing; 
and for Representative Schauer and the people in your district, 
the tragedy that occurred there is of great significance.
    Our representative from Washington, D.C., spoke about the 
San Bruno situation. At least four people died, perhaps more; 
50 homes destroyed.
    A very serious problem in my own district to the east of 
the San Francisco Bay. What was considered to be the riskiest 
pipeline in California travels through Livermore. It turned out 
it was not the riskiest. It turned out to be the second 
riskiest pipeline, the first in San Bruno.
    Mr. Chairman, I have a letter to you and to the Ranking 
Member requesting a field hearing which I hope we can take in 
the near future to California to discuss the situation there.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8236.021
    
    [GRAPHIC] [TIFF OMITTED] T8236.022
    
    [GRAPHIC] [TIFF OMITTED] T8236.023
    
    [GRAPHIC] [TIFF OMITTED] T8236.024
    
    I look forward to the full discussion about the 
recommendations that Secretary LaHood has brought to us on 
legislation. Perhaps it will solve some of the problems. But, 
specifically, we need to sort out the relationship, the role of 
the Federal Government in this--the relationship with the State 
governments and the utilities and urbanization over and around 
existing pipelines. These things need to be sorted out. We need 
have the appropriate regulations in place.
    I look forward to working with you and the Committee to 
achieve a greater degree of safety and, ultimately, the 
responsibility of the owners of the pipelines and how they are 
held accountable, which I understand is to be addressed by the 
recommendations made by the Secretary.
    Thank you for the hearing. I look forward to the witnesses.
    Mr. Oberstar. Thank you, Mr. Garamendi.
    Ms. Johnson, welcome back from your neck surgery. We all 
hold you deep in our prayers, and it looks like you're 
overcoming this thing.
    Ms. Johnson of Texas. Thank you, Mr. Chairman. I just will 
not give up.
    I am going to ask unanimous consent to put my statement in 
the record so that we can get to the witnesses.
    Mr. Oberstar. Without objection, so ordered.
    Ms. Johnson of Texas. Thank you.
    Mr. Oberstar. At the same time, we will include by 
unanimous consent the statement of Speaker of the House Nancy 
Pelosi on the pipeline spill that is the subject of this 
hearing and also to comment on the Pacific gas and electric 
explosion in San Bruno.
    Without objection, so ordered.
    Mr. Oberstar. I just observed that the Enbridge pipeline 
extends well over 1,000 miles through northwestern Minnesota 
through into my district in northeastern Minnesota and 
connecting into northwestern Wisconsin. We are holding Enbridge 
accountable and watching very closely how they respond to this 
tragedy.
    Mr. Shuster observed there are some bright spots in the 
pipeline sector. The Koch pipeline in 2006 that failed in 
Little Falls and had a rupture spewed oil 75 feet into the air 
right alongside U.S. Highway 10. A motorist driving along 
realized that there are no oil fields in Minnesota and called 
the county sheriff.
    The sheriff called the pipeline company, but they had 
already taken action from their headquarters to shut off the 
flow and had people on scene that evening. Now, that's an 
appropriate response, and they did everything that was required 
and more.
    There are some bright spots where there is a corporate 
culture of safety, but where there is a failure it is our 
responsibility to intercede.
    We also had a benzene tank car derailment in Duluth several 
years ago. Unfortunately, local first responders didn't know 
what the content of that car was except that there was this 
noxious cloud spreading over Duluth and Superior, Wisconsin. 
Thirty thousand people were evacuated from their homes. Only 
later in the day did the railroad company identify the material 
as benzene so that the first responders would know what type of 
equipment to wear and what type of action to take to contain 
the spill.
    These are very serious matters that have human as well as 
environmental consequences. So that's the context in which this 
hearing takes place.
    Now we will ask the first panel of witnesses to rise, and 
in the spirit and the tradition of our hearings on oversight 
all be sworn in.
    Do you solemnly swear the testimony you will provide to the 
Committee today and all subsequent communications on this 
hearing that you will tell the truth and nothing but the truth, 
so help you God?
    Thank you.
    We will now begin with Ms. Debra Miller, a small business 
owner and resident from Ceresco, Michigan.

 TESTIMONY OF DEBRA MILLER, SMALL BUSINESS OWNER AND RESIDENT, 
    CERESCO, MICHIGAN; SUSAN CONNOLLY, RESIDENT, MARSHALL, 
   MICHIGAN; MICHELLE BARLONDSMITH, RESIDENT, BATTLE CREEK, 
 MICHIGAN; JAMES ALAN LEE, RESIDENT, MARSHALL, MICHIGAN; DARLA 
THORPE AND DENISE GREEN, RESIDENTS, CERESCO, MICHIGAN; AND ANDY 
 BUCHSBAUM, DIRECTOR, NATIONAL WILDLIFE FEDERATION GREAT LAKES 
 REGIONAL CENTER, ACCOMPANIED BY BETH WALLACE, GREAT LAKES OIL 
                   SPILL RESPONSE COORDINATOR

    Ms. Miller. Thank you and good morning.
    I would first like to thank the Committee on Transportation 
and Infrastructure, its support staff, Mr. Chairman, and 
especially Mark Schauer and his staff for the opportunity to 
share our true stories on the impact from the Enbridge pipeline 
oil spill.
    My husband Ken and I have two properties in the small, 
quaint village of Ceresco, Michigan. Our home is located 300 
feet below the Ceresco dam, with approximately 680 feet of 
river frontage. And our property, the other property, is our 
business, a carpet store located immediately at the top of the 
dam, with approximately 200 feet of river frontage.
    For 31 years, we have raised our daughters living on the 
Kalamazoo River, something that my husband had done. He lived 
in our same house as a teenager for 21 years. We have had the 
pleasure of being able to walk out on our back deck and look 
out over the Kalamazoo River at the dam and watch the fish swim 
just under the surface of the river. This is at work. We are 
blessed.
    Up there is a picture of the Ceresco dam. On the left, is a 
picture that was taken from my home property looking towards 
the dam. If you look in the far left corner up there, that is 
where my business is. You can see what it looked like on Monday 
or--excuse me--Tuesday--Monday, July 26th. The river was black. 
On Monday, July 26th, approximately 100 million gallons--excuse 
me--1 million gallons of heavy crude oil spilled into our 
beloved Kalamazoo River, changing our lives forever.
    Over the next few days, the Ceresco dam would become one of 
the key cleanup spots for the spill, referred to by some as 
Ground Zero 2--and I say that respectfully--resulting in 
helicopters flying overhead as many times as 50 passes a day, 
the beep-beep of large trucks backing up, the influx of 100 
plus workers to our neighborhood, workers who Pat Daniel 
Enbridge CEO admitted were brought in without any background 
checks and placed on our properties for cleanup.
    Contractors, agencies, and their workers' vehicles parked 
where they could find an open space; and the roar of fan boats 
on our river with 427 Chevy block engines with open headers is 
what we listened to for weeks. We still do.
    We have been living with all of this in addition to the 
undescribable smell of the heavy raw crude oil. It has 
permeated our homes, our business, and even our vehicles. Those 
of us living within 200 feet of the river remain under a water 
ban, having to use bottled water for cooking and drinking.
    We have been assured by our local health department that 
while the smell is intense it is only a nuisance and not a 
health concern. This nuisance has caused burning eyes, throats, 
and resulting in headaches almost every day. I have had a cough 
since week one, and the headaches continue as well. As a cancer 
patient currently taking oral chemo, how can the health 
department assure me that breathing that benzene will not cause 
my cancer to return? I would argue it can't.
    Our property has been utilized at will by Enbridge and its 
contractors for parking and staging, and by sheer logistics we 
have not had easy access to our home property. Many discussions 
with our local sheriff's department, they were the ones who 
would not grant us access to our home, and we ended up having 
Enbridge speak to them, and it was quite the ordeal.
    Our business property was impacted when Enbridge moved in a 
vacuum truck a few days after the spill and then a day later 
moved in supply trucks and assembly line workers emptied the 
trucks and effectively blocked our customers from accessing our 
store, effectively closing our business.
    I had several conversations with many Enbridge 
representatives, including Terri Larson, to help facilitateThe 
first two Ceresco community meetings. I am a block captain for 
our Neighborhood Watch. So Enbridge had my contact information 
and chose not to call me in relationship to access to either of 
my properties.
    After 3 weeks of business interruption, I decided that I 
needed to go to our community center to get someone to talk to 
us about our closed business. Arriving at the community center, 
I was told after an hour that Enbridge was not discussing 
anything with businesses. Their priority was residential. Oh, 
and by the way, my house did qualify for the Home Buy-Out 
Program. I was shocked, to say the least. They had blocked my 
business for 3 weeks, small businesses in Michigan are hurting. 
They closed me at this point for 3 weeks, and they were not 
prepared to talk to me, and I was not a priority.
    We would meet twice more with Enbridge. And I will be 
honest to say the last meeting was held on Friday, August 22nd, 
and my husband and I walked out of that meeting. Contrary to 
Enbridge's promise from the CEO, we did need to retain a 
lawyer. We had only wanted some information like when we might 
be able to get back into our business, and had they given me 
anything but that our business wasn't a priority I might have 
not been so frustrated.
    I will tell you that on the following morning--no, excuse 
me, that's not true. Two hours after I got home from the 
meeting, I did get a call from Steve Wuori, and he asked me--he 
is vice president--asked me if I would be willing to come back 
in and talk to him. And I told him that I needed a breather. I 
was going to take a day and do volunteer work with the American 
Cancer Society. I needed that break.
    On Monday morning, I did call a lawyer; and our lawyer has 
been able to have Enbridge hear us. We currently have an 
agreement on the table. As of my flight yesterday, I do not 
have a signed agreement from Enbridge, but the agreement is for 
limited access and limited business interruption. And they have 
agreed to purchase my property for a time frame if I decide to 
sell to them.
    It does not guarantee a fair price if I ask them to sell 
it. Nor does it compensate me for any inconvenience, pain, or 
suffering. And we have nothing pending on the house property.
    Again, I would like to thank the Committee for the 
opportunity to share how this spill has impacted us. I only 
hope that others truly impacted by this bill will not have to 
attain a lawyer to be heard. I hope this hearing will be the 
lightning rod that allows Enbridge to realize some of the 
methods, strategies, and programs they used in this bill were 
made in haste and were often ineffective and unsettling. I hope 
when Enbridge returns from this hearing and meets with other 
individuals with legitimate claims they will be forthright, 
compassionate, and fair.
    I know that may not be good for the stockholders or their 
bottom line, but as one who is greatly impacted my bottom line 
is this: I was an innocent bystander. I was not responsible for 
the spill. I did not choose to breath that foul air. I did not 
choose to lose a summer to the home of vacuum trucks, fan 
boats, and helicopters and strangers on my river bank, not to 
be able to utilize our pool in our backyard for lack of 
privacy. I did not choose to close my business, and I certainly 
did not choose to watch the geese struggle while covered in 
oil. Enbridge made that decision for me.
    May your community service efforts and gifts benefit those 
who were impacted or at least the greater communities impacted 
rather than the individuals who made you feel good. I sincerely 
hope this spill will ensure that you will be more responsible 
with the maintenance of all of your pipelines, even if it means 
replacing them all. I pray they will remain closed until that 
can be determined how safely to restart them.
    Whether or not Enbridge Energy was negligent in its actions 
on Sunday, July 25th, is not for me to say. I look to those in 
the know to help us with that. How Enbridge Energy responded to 
the victims of this crisis was determined by Enbridge Energy. I 
pray that the legacy you leave behind in Michigan when you go 
back to Alberta is one of good will.
    Thank you.
    Mr. Oberstar. Thank you for your very heartfelt statement 
and your very personal experiences and those of your family.
    I sympathize very much with you on chemotherapy. I lost my 
wife to breast cancer for eight and a half years, and I know 
the struggles that you go through and the challenges of 
chemotherapy. Breathing benzene is not one of the recommended 
treatments.
    Ms. Connolly.
    Ms. Connolly. Thank you.
    Thank you, Mr. Chairman and Members, for this opportunity. 
I come to you today as a concerned parent and on behalf of the 
children of a day care center that's located just 6/10ths of a 
mile from Talmadge Creek in the Kalamazoo River.
    On July 26th, at 7:30 a.m., my husband and I dropped off 
our children at day care. Our home is about 2, 2-1/2 miles 
north of Talmadge Creek. Going just two blocks south from our 
home I could smell a strong odor in the air. When we arrived at 
the center, the odor was even stronger. It was hard to breath, 
and that's why I'm before you today.
    I would like to start with health symptoms, my own personal 
experiences. The first night of this spill that evening my son 
vomited.
    And the week following my daughter had a rash, which pretty 
much all the children at the day care center that have had 
rashes their explanation is that it's just eczema, that they 
don't relate it to the spill. My husband and I as we've gone to 
the day care we've experienced migraines, eye irritation, sore 
throat, nausea, and cough. At our home on Saturday, July 31st, 
we had our dog out in the yard. When he came in that evening, 
he had continuous vomiting and diarrhea. There are also nights 
at our home that we cannot run our air or open our windows due 
to the smell. So you can just imagine the strength of the odor 
at a day care that's even closer to where our home is located.
    The first week of the spill an oil-covered goose landed on 
the property at the center. Of other children at the center 
there have been reported cases of vomiting, upset stomach, 
shortness of breath, lethargy, headaches, rash, irritation with 
the eyes, sore throat, and cough.
    Shortly after this spill, we had a parent meeting with the 
EPA and other representatives. There were some statements that 
were made was no benzene or VOCs have been detected at the 
center. Toxicologists stated that there was positive benzene 
readings at the school. We were told, oh, that's just a 
misread, that apparently the machines or one of the machines 
was not calibrated before coming to the center and all it was 
doing was reading the data from the last location where it took 
the reading. They also stated that certain VOCs identified were 
just cleaning chemicals used to sanitize the machines or were 
chemicals used by the center.
    I had a personal conversation with a toxicologist from 
CTEH. A few of those comments were where VOCs or benzene have 
been detected you would have to be exposed to those for high 
levels for almost a year. There was no comment or statement in 
reference to short-term exposure related to children.
    I was also told that the center would just have to get its 
own toxicologist to do tests because they were just to the 
point where they just don't want to deal with it anymore. I 
explained that the center could not afford its own 
toxicologist. That person chuckled and said, oh, I know; I know 
how much Enbridge is paying me every day.
    I was told that if I or anyone from the center would be 
coming to D.C. To testify, this toxicologist said to me, well, 
what do you have to say? You're not a toxicologist. You have no 
experience or expertise in this. There is nothing you can 
validate. Why would they even bother having you come?
    Well, my response is, I know I'm not a toxicologist, but 
I'm a parent, and I see the children and the staff of this 
center who have been affected by this spill.
    I've heard from someone else who has also indicated that 
the Calhoun County Health Department, one person in that health 
department stated, there's no reason for anyone to come and 
testify from the day care because their claims are not 
legitimate.
    As of today, four parents have withdrawn six children due 
to their concern of their short-term health effects of their 
children, concern of the smell, air quality, and potential 
long-term effects. An employee who has been with the center 
since it opened, helped them build it from the ground up, she's 
left the center because she has been sick since the day of the 
spill.
    EPA and CTEH stated that tests were taken as of July 28th, 
when in fact the first test at the center was not performed 
until August 1, one week after the spill.
    And on that time, I'll just add a quick note. The benzene 
came up at 4.5, one week after. I know the cut-off is six, and 
they make a big deal about how the numbers are cut off. But one 
week later, 4.5, children have been smelling this.
    EPA, CTEH and the Department of Health had stated to us 
that no benzene or VOC detections were noted. Again, I'm not a 
toxicologist, but I've been going through the paperwork. There 
have been detections of both. While they've been at lower 
levels, I don't understand how you can refer to accepted levels 
for an adult as that for a child or an infant who is 
unquestionably at a greater risk of harm from exposure to 
contaminants in the air.
    Just before coming here, we had received a letter from the 
Department of Community Health, and a few of the comments 
within that letter stated that chemicals monitored could come 
from other sources than the spill. The response would be then 
why were the children and staff sick just after the spill? They 
had none of these problems before.
    They then implicated that the staff who were stating 
symptoms, they stated that they were influenced by their own 
discussions, overstated reporting, publicity, and potential 
legal issues. To me, that is absurd, and it's just insulting.
    When the people were there questioning the staff they made 
no calls to any parent to speak to them about what their 
children were going through. They only spoke to staff, and that 
was it. It ended. They also indicate that they cannot determine 
the days following the spill how the air has affected short-
term effects.
    So, in conclusion, it's been almost 7 weeks since the 
spill; and the following questions remain: Should the day care 
center have had more attention brought to it and should it have 
been closed or evacuated during at least the first few weeks? I 
question what are the known short- and long-term risks of 
infants and children exposed to low levels of these chemicals? 
Who will be held accountable if our children develop leukemia 
or other permanent health problems?
    The argument made by Enbridge is they say you cannot prove 
that the spill may be the cause. Well, my response as a parent 
is you can't prove that it's not.
    The Department of Transportation has been aware of 
Enbridge's violations for at least 8 years. Shouldn't this 
tragedy also be directed to the Department of Transportation 
for them allowing them to continue their operation of the 
pipeline? I also hope that there will be long-term health 
studies to those affected by the spill.
    I would like to thank you for your time, and on behalf of 
my family and everyone at the child care center I hope our 
questions can be answered.
    Thank you.
    Mr. Oberstar. Thank you very much for that also very 
heartfelt testimony.
    On the issue of levels of benzene, you make a very good 
point, that there are significant differences between a 
standard for adults and a standard for children whose systems 
are not fully developed and have not evolved the capability to 
cope with those particulates and volatiles in the air that an 
adult system can. Nonetheless, the EPA has established a level 
of 15 parts per billion of benzene in the atmosphere as the 
level that was present in various places in the region of the 
spill. Their standard is 6 parts per billion. But that's a 
standard that, as I understand, is set for adults. There is a 
very significant difference between what adults can tolerate 
and what children can tolerate. And if your dog was sick, dogs 
have the ability to--their sense of smell is 400 times that of 
humans, so that dog was the precursor to human exposure.
    Ms. BarlondSmith.
    Ms. BarlondSmith. Mr. Chairman, Members of the Committee, 
thank you for the opportunity to speak to you regarding the 
Enbridge oil spill and its devastating effects on me and my 
neighbors.
    My name is Michelle BarlondSmith. I reside at Baker Mobile 
Home Estates in Battle Creek, Michigan. It's a community of 
about 70 homes, mobile homes. We are approximately six miles 
down river or 13.5 by canoe.
    The park we live in is a former campground turned into a 
mobile home park. The park is surrounded on three sides by the 
river. I've lived there for 3 years and am 200 feet from the 
river.
    I first noticed the smell of the oil Sunday evening when my 
husband and I returned home. The smell was so strong I thought 
we had a gas leak and walked around my home and two other homes 
looking for a leak. We determined it was not natural gas and 
could not figure out where it was coming from.
    On Monday, I took my 83-year-old mother to the dentist. 
When we returned home, I was informed by a neighbor of the 
spill. It was late.
    In the evening, 2 hours later, we see ambulances, fire 
trucks, and police outside our park. They say two men have 
fallen into the river, and one is missing. Several of our 
neighbors and us grab flashlights, stand on the bridge and 
shine them into the water. We are looking for the missing 
person.
    At 1:00 a.m., it was discovered that the missing man had 
made his way out of the river and made it to a neighbor's home. 
My husband and I returned home with headaches.
    The next day I went down to the river to take my first 
photos of the devastation. It shocked me. And I then went to 
Bridge Park. Bridge Park is where my husband and I take our two 
dogs to walk a couple of times a week and we do quite a bit of 
photography there. We were escorted out of the park by the 
police very politely, and they told us we could take photos 
from the bridge above.
    On the way home, my husband said to me, we're in trouble. 
We need to get evacuated out of the park. We take more photos. 
I upload to iReport on CNN. He's a news junkie. So I did.
    I received a call from one of their reporters asking, what 
oil spill?
    I said, we have a million gallon oil spill in our river 
running past our home.
    Well, we're not aware of it, why?
    And I told them straight out, do you believe an oil company 
wants you to know that they've spilled a million gallons into a 
river? They just started testing the air in the park, 
everything is normal, we should be fine, but I see my neighbors 
and I getting more ill day by day.
    Today, my husband and I stayed home. We went out in the 
afternoon to pick up some groceries. On the way back, I stop at 
the mill pond down river. Yep, there's booms and guys working.
    When we return home, I watch the neighbors return. And 
after going to the bridge to take my evening photo, I run into 
the guy who had surgery 2 days ago. I ask how he is. He said 
he's more worried about his wife. She's been transferred to 
Bronson Hospital from Battle Creek. Then two of the neighbors 
come up and tell me that their children, a 3-and 8-year old, 
have been to Battle Creek Hospital and have been diagnosed with 
hydrocarbon poisoning.
    The health department comes in. We start going to meetings 
put on by several of the different organizations. August 5th, 
Enbridge employees had finally started coming to the park to 
talk about residents. I meet with one gentleman, Daryl. He 
apologizes and asks what we want.
    We told him we want a hotel in another city that will allow 
us to take our dogs, a gas card for coming back and checking on 
our home.
    No problem. You book the hotel. I'll put it on a corporate 
credit card.
    He asked what we wanted long-term. We told him we want out 
of the park because we don't want to be there for 3 years of 
cleanup.
    We call him with the hotel confirmation number and info. He 
calls back and tells us, sorry, the credit card is not working. 
I'll bring you a check.
    He comes back at 3:30, gives us a check, but says, sorry, 
it's not going to be able to be cashed today. You can do it 
tomorrow.
    The next day, we wait until 12 noon to try and cash it. 
Nope, it doesn't clear. Go back in 2 hours, it doesn't clear. I 
asked the clerk if she's had similar problems. Yes.
    I then tell one of the ladies who has been trying to help 
us get residents out of the hotel. She calls me and tells me 
Enbridge will be in the park later. Sure enough, in pulls 
Enbridge and the police across the area. My husband starts 
taking photos. They tell me to go downtown and cash the check.
    I go in. I attempt to cash the check. A gentleman appears 
and asks me to step into the hallway. He apologizes and says, 
sorry, we can't cash it. Can we wait another day?
    I glance at the clock. The hotel is holding the reservation 
until 6:00 p.m. It's 5:45. He tells me it will be inputted into 
the system, and we should be able to cash it after 10:00 a.m. 
We leave. The man we spoke to was the vice president of finance 
for Enbridge, Mike Maki.
    I call the hotel. We're on a first-name basis. They rebook 
me for the hotel tomorrow. I tell her, what's another day of 
fumes, headaches, nausea, et cetera? I'm too exhausted to drive 
anyways.
    We end up being put into a hotel in Jackson, Michigan, 
which is 45 minutes away, for approximately a week. We're then 
asked to leave for 4 days because of the hotel's fault. We 
return home. We get sick.
    We're re-evacuated for another week, and then we're 
returned home, and we've been there since, 3 weeks. We're 
getting sicker by the day.
    Those were my previous entries into the CNN iReports. But I 
come from the airline industry. We are regulated by the DOT, 
the FAA, et cetera. So here are some of the questions presented 
by my fellow residents:
    Why are we allowing the ones who caused the disaster to 
decide medical emergency procedures? Why are they controlling 
the State, the county, the township, and medical procedures? 
Why are they controlling agencies like DNR, reporting 
procedures, 800 numbers? Why are they controlling the cleanup? 
Why is there no standard procedure on medical testing for 
residents when there is one for their employees? Why no 
standards on evacuations?
    Require these companies to set up escrow accounts for 
disasters and contribute yearly or quarterly. Kellogg's and 
Post Cereal had to be shut down for hours. Businesses and 
farmers need to be advised and reimbursed by these companies. 
They've been told they are behind us homeowners in restitution. 
Please require quicker reporting and not just on oil, on other 
chemicals.
    Why was there no declaration of Federal disaster? A spill 
of major magnitude should automatically constitute a Federal 
disaster area. We need stiffer regulations, enforcement of the 
regulations, higher fines for failure to follow regulations.
    This company has known about these faults of this pipeline 
and done nothing for a minimum of 3 years. Freeze their assets, 
shut down the pipeline until it's brought up to date. If this 
pipeline had broken in Detroit, you would be cleaning up two of 
the Great Lakes, affecting millions, not just a 30-mile stretch 
of river.
    This is not a Democrat versus Republic issue. This is an 
issue of protecting your constituents' lives, health, and way 
of life. Ours has been destroyed. Our health hangs in the 
balance. And if the scientists are correct and this will affect 
our DNA and future generations of DNA, you are protecting the 
future generations of Americans.
    You need to do more research on tar sands and 
transportation of this along with the effects on the 
environment, animals, and humans that should be funded by the 
oil companies or petroleum companies; and they need to be 
conducted by a third-party research team.
    In conclusion, you are elected representatives and are 
placed here to make changes, write new laws, and protect this 
country. We are asking you to do that.
    Oil companies must not be allowed to dictate their own 
rules and regulations. As they have clearly shown, they have no 
intention of protecting the environment, animals, or human 
lives in their pursuit of the almighty dollar. Therefore, you 
as our representatives must step in and regulate and enforce 
those regulations to protect us, the humans.
    Thank you for the opportunity to speak to you.
    Mr. Oberstar. Thank you for, again, your very heartfelt 
testimony, for your very specific recommendations.
    I assure you that the Committee is pursuing these matters 
and has done for more than 25 years. We have not had as much 
success in moving stronger regulations through the Congress and 
through the executive branch as we would like, or as I would 
like, but we're at a place where I think we can do much better 
than we have done in years past.
    We've passed a very strong oil spill response legislation 
through this Committee through the House. It's languishing over 
in the Senate because of procedural holds. But that legislation 
is patterned for raising the standards of accountability and 
oversight and action that on-land pipeline companies must 
undertake. So I assure you we are proceeding in this Committee 
on those issues.
    Mr. Lee.
    Mr. Lee. Thank you, Mr. Chairman, Congressman Mark Schauer. 
Thank you for your dedication. We have talked about this oil 
spill in length, and I want to thank you for your dedication. 
It is our area, it is our community, and I'm right there. I'm 
not going away.
    I also want to thank Jason Leopold from truth-out.org. I 
have had numerous conversations with this gentleman, and he has 
the utmost care and respect in our neighborhood, even though 
he's not from there, and has given me the power to move on and 
be here today.
    My story, even though in my written testimony started much 
earlier, early on in this oil spill, it's going to start with 
my wife being in the hospital. I say wife now, because as of 
September 1st, when we were in the hospital, we exchanged vows. 
As of October--or August 10th, my wife went to the doctors. The 
symptoms were showing neurological--Bell's Palsy, headaches, 
nauseous, lethargic.
    I am just going to give you the main points and not go into 
much detail of their readings as far as what points per 
million, what points per billion. I'm going to talk about she's 
sick. That is why I'm here. It is my number one goal, to make 
sure my wife gets the treatment and the respect from a company 
that spilled over 1 million gallons of oil in our creek.
    I don't live within 200 feet of this river. I don't live in 
the Red Zone. I live 708 feet in Squaw Creek neighborhood and 
250 yards, according to my range finder that I hunt with in a 
bean field behind our house.
    My wife was crying in bed the day after we got married, 
September 2nd. She didn't have any answers from the doctors. 
She didn't have any answers from her husband, married the night 
before, because we don't know if I can make decisions for her 
legally if something was to happen. I was sitting there in a 
helpless rage watching my wife scared out of her wits, scared 
of her life, scared of her future, scared about her kids, what 
they're going to go through.
    I remember the meeting August 26th with Mark Schauer--
Congressman Mark Schauer, excuse me--and saw the desire and the 
fight that he had against this company. I immediately grabbed 
our laptop and I wrote to Mr. Schauer, explaining to him the 
situation that we are going through.
    On August 10th, that first appointment that my wife had, we 
called Enbridge, their 800 number, and said--my wife said, I am 
going to get a CAT scan by recommendation from my doctor 
because I think it's from this oil spill. They said, thank you, 
Mrs. Walters. We will go ahead and put that in our files. They 
asked for no claim, and they said nothing of the sort that they 
were going to help.
    Now I'm going to fast forward to--or, actually, I'm not 
going to fast forward. I'm going to go back to that August 26th 
meeting that Mark Schauer held and the information that we 
received.
    I was enraged by the numbers: 80 oil spills in 8 years. I 
am finance manager at a car dealership. I do numbers. That's 10 
a year. That's almost one a month.
    And in my written testimony I wrote before the Chicago 
incident that 16 percent of defects fixed is going to result, 
in my opinion, in another state of emergency oil spill. I'm 
sorry. Two hundred feet set by our small little local agency 
Calhoun County department, they should have no business setting 
this in. We need higher government agencies stepping in and 
making a difference in an oil spill that is causing people and 
animals to get sick.
    I'm asking you with respect, Mr. Chairman and the 
Committee, please, make a difference. Make this company 
accountable for what they are doing. Because they don't care 
about $2.4 million as far as a fine. I didn't know--I knew of, 
and I talked about in my testimony, the $2.4 million fine in 
the State of Minnesota. The fact that--and I did not know 
this--that it was a mother and her young daughter that opened 
up the door to find out what was going on, that those were the 
two deaths, I almost came to tears. It's appalling that it was 
$2.4 million. I wrote in it should have been $240 million, and 
I don't think that's enough.
    They need to be held liable, zero tolerance. Do not let 
this oil line start, either 6A, 6B, or any other one they have 
that they have defects on. Zero tolerance, please, and make 
them fix the defects and make sure that they are being 
inspected. Because you're looking at a small window of all the 
community that is in Marshall, Battle Creek, Ceresco, and on 
down line Kalamazoo. Make a difference. Make them accountable.
    I'm not going away. My voice is not going away. And I'm 
here to tell you I want changes. And I respect you guys. You 
are our leaders. You guys are the ones that make the decisions. 
Please help the smaller people be safe. Because I no longer 
feel safe in my own neighborhood.
    And in closing--I know I'm way over, but I needed to get 
this out. In light of our hearing, Enbridge did come, and my 
wife did not have insurance, and they were asking for big 
deposits, hotel rooms, to get her treatment that she's going to 
need neurologically that cannot be done in Marshall. As of 
Monday, I don't know if it's coincidentally 2 days before our 
hearing, but Enbridge has agreed to possibly assist and help in 
either getting her a referral or some of the damages. I thank 
them for that, because I needed the money to even show up here 
today because I was out of pocket about $1,800 in the past 
month.
    My wife is a dean's list on-line student going for hospital 
administration and ethics, and that's what it's about, a 
company and ethics. And I love you, honey.
    Upon my flight home, she is meeting me in Detroit and we 
are going to the Cleveland Clinic. I did get her added on to my 
health insurance as of Monday, and they will not do pre-
existing.
    So I do thank Enbridge for trying to assist in that 
situation. But you are a month late. And, Mr. Daniel, you were 
there at that meeting August 26th when you first found out 
about my wife. And I didn't get a phone call. I did not get a 
letter. I didn't get anything. Sir, I'm not going away.
    Thank you.
    Mr. Oberstar. Thank you very much for, again, a very 
compelling and deeply felt testimony.
    Our next witnesses are Darla Thorpe and Denise Green. 
You're now recognized.
    Ms. Thorpe. Good morning. I would like to say thank you, 
Mr. Chairman, and Committee, Mark Schauer, for giving us the 
opportunity to be here.
    I would like to start by reading a clip out of an interview 
a year ago that was done on the village of Ceresco from the 
Battle Creek Inquirer. I'm just going to read the ending.
    Heather Brown Rocco couldn't let me leave until we saw her 
favorite view in Ceresco. Paying no attention to the no 
trespassing signs, she undid the latch on a gate into the dam's 
old power station. On a freshly cut lawn next to the old brick 
building, the Kalamazoo River stretched out before us, a 
tranquil, expansive water winding from Marshall. A pair of 
swans swam in the distance far out past the fiery leaves and 
crumbling railroad bridge. We walked out onto the dam and 
peered over the side. The brownish-green water, which had 
momentarily been held captive, rushed out with a spray and 
continued down its journey, much as it had done for more than a 
century.
    Questions we now ask: Where are the swans now and will they 
ever be back?
    I am one of two trustees, Denise is the other, of our 
parents' trust; and it is my responsibility to get the estate 
settled. This alone has been a difficult process, as some of 
you probably might know.
    The stress of the sale of our parents' home now as the oil 
spill has happened has risen to a much higher level. Enbridge 
last week called me and said that they had reviewed our claim 
after I received a phone message 2 days prior saying that we 
were outside the 200 feet zone. But they said that they would 
purchase our parents' home because of settling the estate. And 
that we sincerely appreciate.
    I understand since I've left to come here to Washington 
yesterday I've received three phone calls from Enbridge, 
including one from their lawyer. Our question--a new question 
has arisen. What are they going to purchase it for? We want 
only what it would have sold for if the spill had not happened 
at all. Because this is our childhood home and my family 
members still live there, we would like to know how Enbridge is 
going to, quote, unquote, make this right with the people, the 
people who live still in the Ceresco community?
    Thank you.
    Ms. Green. Good afternoon and thank you, Mr. Chairman and 
Committee Members.
    I am the sixth generation in my family that has lived in 
Ceresco. I am also raising my daughters, which are the seventh 
generation. I find it disheartening to now have my children 
being raised with the possible water contamination, vapor 
intrusion, possible cancer and, property devaluation from the 
oil spill. Until now, my family never had to worry about any of 
these things. How safe are we?
    We were told if we wanted to get away from the benzene-
filled air that we could go to the McKinley Plaza Hotel. Some 
people did. When I asked my husband about going there, he 
replied, I don't know what they are thinking. We wouldn't be 
any safer there than we are at our home. The Kalamazoo River 
runs right by the hotel. How much thought did Enbridge take 
picking this hotel?
    We were told if we felt the need for medical attention to 
go, Enbridge would take care of it. I took my two daughters and 
myself. They said our symptoms were from the ingestion of the 
benzene and there really isn't anything they could do for that. 
They cannot take the benzene out of our bodies.
    We have been told all along that the air is at a safe 
level. We question why our air purifier reads bad air three or 
more times a day. The only way--my 12-year old asks me 
frequently, am I going to get cancer?
    Mr. Oberstar. Just take your time and be composed.
    Ms. Green. The only way I can answer that is, I don't know. 
The only thing we can do is pray that everything will be OK.
    Again, I want to thank you for your time.
    Mr. Oberstar. It's very difficult to relate these 
experiences. It's one thing to say it to yourselves and write 
it down. It's quite something else to express it in public. I 
can see all of the witnesses are overcome by their tragic 
experiences.
    And now, Mr. Buchsbaum, you're next.
    Mr. Buchsbaum. Mr. Chairman, Members of the Committee, 
thank you. It's good to see you again. I wish it was under 
different circumstances. We're just passing the tissues back 
and forth down here.
    Thank you for the opportunity to testify before you today. 
I'm Andy Buchsbaum, Director of the Great Lakes Office of the 
National Wildlife Federation located in Ann Arbor, Michigan. 
Accompanying me is Beth Wallace, who is our Great Lakes Oil 
Spill Response Coordinator, a position we didn't think we would 
need a couple months ago. Beth's family lives in Marshall, 
Michigan.
    Ms. Wallace. Battle Creek.
    Mr. Buchsbaum. Battle Creek.
    First, let me say that our hearts go out to the people in 
Marshall and the people who live alongside the Kalamazoo River, 
people like those testifying here today who have lost their 
river and in some cases their homes and their health and their 
businesses.
    Our office is about 70 miles from Marshall, so we were able 
to get down there as soon as we heard about the oil spill; and 
within about 48 hours we had staff down there that were trying 
to help. What we saw were proud people in one of the 
communities trying to cope with the devastation of the Enbridge 
oil spill. You've heard it: Oil in their backyards, fumes in 
their lungs, debris, booms, trucks in their neighborhoods.
    Our written testimony describes in detail what we saw 
there, and you've heard it firsthand here, so I'm not going to 
repeat it right now. We're going to restrict our testimony to 
the impacts this bill has had on wildlife and recommendations 
for what we need to do to address those impacts to make sure 
this kind of thing doesn't happen again.
    Beth is going to handle the wildlife impacts, and then I'll 
return to talk about the recommendations. Beth.
    Ms. Wallace. Mr. Chairman, Members of the Committee, thanks 
for the opportunity to testify today.
    Like most of the people sitting next to me, I am from 
Calhoun County. I was born and raised in Athens, Michigan, 
which is 10 minutes from Battle Creek. My parents and siblings 
still reside there, along with my extended family and friends. 
This area is my home. Sorry.
    When I heard about the spill I was on my way to work at the 
National Wildlife Federation. When NPR reported the latest 
information, I couldn't believe my ears. I immediately called 
my mother who works downtown Battle Creek for her descriptions 
of what had happened that made me sick. In the afternoon a 
couple of my co-workers and myself made the trip to Marshall 
and Battle Creek, trying to get a grasp on why it happened. As 
you will read in the testimony, it's completely devastating; 
and that devastation continues to this day.
    Three days ago, I was searching for information regarding 
the oil spill in Illinois when I came across the heading from 
the Globe and Mail: Enbridge Suffers Another Pipeline Breach. 
Enbridge suffers. I would like everyone to remember that 
Enbridge is not suffering. These residents are suffering, and 
the wildlife is suffering.
    As Andy mentioned, I would like to take this opportunity to 
provide my voice for wildlife. Because of delays in reporting, 
the continued lack of organization, little transparency, and 
letting Enbridge call the shots, we do not know the full 
magnitude this disaster has had on wildlife and our river. We 
do know the number of deaths of fish, birds, and other animals 
that Enbridge has reported to agencies is much lower than is 
occurring.
    Ms. Wallace. In our first visit to the Marshall site, we 
personally came across a very distressed oiled muskrat, along 
with many oiled geese. We attempted calling the number located 
on the newly posted signs which went to a woman who gave us a 
new number. That number went straight to voicemail. We now know 
that the animals in that instance were not rescued as the 
animal rescue facility was not up and running until weeks 
later. So they were left, died and suffering. Because of rain 
and heavy flooding in the days prior to the spill, the oil has 
completely coated the banks and the wetlands along the river 
where most of the wildlife resides.
    The Unified Command has said publicly in their cleanup plan 
that they are considering leaving this tarry oil in sensitive 
shorelines and wetlands because of the difficulties in cleaning 
it up. This is not good enough. The shorelines and wetlands are 
the lifelines for wildlife. Many of the species residing in the 
region consume food along the shorelines and those wetlands. 
They are at risk of being oiled and being exposed to toxic 
effects of oil for as long as it remains.
    Enbridge needs to be held accountable for every drop of oil 
that is spilled and all of the damage they have caused and will 
continue to cause until this oil is completely removed.
    Mr. Buchsbaum. Thanks, Beth. Just a few words about 
recommendations. The bottom line is that most of these 
pipelines, as you have heard, are getting old, getting to the 
point where they need to be better maintained and possibly 
replaced. As long as we rely on them to transport hazardous 
liquids like this heavy crude, there are going to be increasing 
numbers that spill.
    You have heard that in the last week there have been two 
additional Enbridge spills. That is actually about average for 
Enbridge. In 2008 alone, Enbridge nationally had a total of 93 
spills. That averages about two a week.
    The only real solution is for our Nation to wean itself 
from addiction to dirty fuels. We need to stop subsidizing 
dirty fuels like the oil that is flowing through those pipes 
and we need to embrace, promote, and fund clean energy sources. 
But until that happens, we need to take action on pipelines.
    Our written testimony provides detailed recommendations for 
those actions. Just a few highlights here. First, we need to 
require much more effective and frequent monitoring, 
maintenance, and reporting on existing pipelines. Our 
regulations today require maintenance, inline maintenance, 
inline monitoring of these pipelines only once every 5 years 
and that is only for the most used pipelines, only for certain 
areas. We recommend inline monitoring at least once a year for 
all pipelines. And it sounds expensive, but look at the 
alternative with these crumbling and aging pipelines. If we 
don't do that, the cost of the cleanups are going to far exceed 
that. And, of course, the damage to the community and the 
damage to the people, you can't put a price on that.
    Second, we need to require companies to fix the weaknesses 
they find in the pipelines. You said it yourselves, we heard it 
today that Enbridge did monitor Pipeline 6B. It found 
weaknesses, decided not to repair them because they--it said 
that they didn't meet the Federal threshold. Well, the Federal 
thresholds need to be a lot lower and Enbridge needs to go and 
the other pipeline companies need to go above and beyond.
    Third, if the spill occurs, there is a government--there is 
a Unified Command unit. That command unit needs to maintain 
control of the cleanup, the wildlife cleanup, and recovery. In 
this case, as all too often, that control was ceded, it was 
delegated to Enbridge. Enbridge wound up calling the shots it 
never should have called. Enbridge certainly has to pay for all 
of the damage it does and pay for all the response actions, but 
it should not be the one delegated all the responsibility to do 
all the work or much of the work, which it has been in this 
situation.
    Fourth, Congress should pass the CLEAN Act, H.R. 6008, 
Congressman Schauer's bill. That is going to be very important 
for deterring future actions.
    And finally--and you probably haven't heard this one yet, 
but I think it is very important. We need a new kind of trust 
fund to help the Kalamazoo River and the wildlife in the 
Kalamazoo River and natural resources damage after the normal 
oil trust pipeline fund has been paid out. One thing we know is 
it is going to take years if not decades for the harm that is 
coming from this to be fully played out, and that is going to 
be far after the trust funds that are currently existent in 
law, far after those moneys are spent.
    There is a model for this in Michigan. It is called the 
Great Lakes Fishery Trust. It was financed by Consumers Energy 
to pay for damages to fish because of the dam. It is now 20 
years old and it has been instrumental in helping fish in Lake 
Michigan recover from the damages from that dam. That is a good 
model here, and I would be happy to provide details later if 
you would like.
    Again, thank you for the opportunity to testify about this, 
and we would be happy to answer questions.
    Mr. Oberstar. Thank you very much for your testimony as 
well. To all of the members of the panel, my first observation 
is while you have been speaking to Members of the Committee, 
you have also been speaking to the Deputy Secretary of 
Transportation sitting right behind you, to the Chair of the 
National Transportation Safety Board, who have been paying very 
careful attention and, I observe, making notes on the testimony 
given by all of you at the witness table.
    The second point I would like to make is that Enbridge in 
this situation is subject to the provisions of the Oil Spill 
Liability Act of 1990, OPA '90 as it is known. I was on the 
Merchant Marine and Fisheries Committee at the time when we 
wrote that legislation to deal with oil spills principally from 
vessels, and we have updated that act. My first term in 
Congress was right after the Torrey Canyon disaster in the 
English Channel, and we wrote legislation then to require over 
a period of time double hull vessels. And then came the Amoco 
Cadiz, a similar oil spill from a vessel. And then came the 
Exxon Valdez, in the aftermath of which we enacted OPA '90.
    The provisions of OPA '90 are very broad and very 
compelling. First, it establishes an Oil Spill Liability Trust 
Fund, from which funds, some $18 million, have been drawn down 
by the U.S. Environmental Protection Agency to cover costs from 
the spill, and the Federal Government will then pursue Enbridge 
to compensate the fund for all of the drawdowns from the 
liability trust fund.
    Second, the provisions in OPA '90 where there is a spill 
for which the--and the operative language is facility, in this 
case the facilities and on-land pipeline that spilled into a 
navigable water of the United States. And that then makes 
Enbridge liable for natural resource damage restoration, as 
well as damage to persons and property, with no limit on 
liability, no limit on liability.
    I want you to keep that in mind in the context of this 
hearing. I will now yield to Mr. Schauer for 5 minutes.
    Mr. Schauer. Thank you, Mr. Chairman. First, thank you all 
for testifying. I know it was very difficult for you to share 
your stories. I want everyone here to know that I didn't know 
any of you until you came to a public meeting a couple of weeks 
ago, until you began contacting my office to tell your story 
and ask for help. And I appreciate you coming.
    I wonder if we could put up a slide or two. First, I will 
start out with a quick question. My time is limited, so you 
don't all have to answer. If you have something you want to say 
about a particular question. First, how far do you live from 
the river or how far do your children go to daycare and what is 
that? What does that distance--what has that meant with regard 
to how you have been treated by Enbridge Energy Company? Some 
of you have mentioned this 200 feet. If you could quickly 
respond.
    Ms. Connolly.
    Ms. Connolly. Our child's daycare is right where Talmadge 
Creek and the Kalamazoo River meet. From there, our daycare is 
about six-tenths of a mile, which is much further than that 200 
feet.
    Mr. Schauer. About 3,000 feet.
    Ms. Connolly. So pretty much we have been told none of this 
is legitimate. The claims are just--they are just totally 
ignoring it. We have been told these are not legitimate claims.
    Mr. Schauer. So a legitimate claim is one within 200 feet 
of the river?
    Ms. Connolly. Right. But we are talking about children, 
infants. I understand that they just questioned staff. Speak to 
the parents, talk to the parents who have had children having 
health reactions to this. So don't dismiss us just because we 
are out of the yellow zone.
    Mr. Schauer. I heard the CEO of BP use that term, they will 
pay all legitimate claims. Patrick Daniel, who we will hear 
from today, at that public meeting said we will pay all 
legitimate claims. So 200 feet is something we will explore 
here.
    Could we put up a slide picture of something that may look 
familiar to you. I don't know if you can see that. Do you know 
what that is? Does it look familiar? It is an air purifier. I 
think they were purchased from Wal-Mart I was told by the 
company to distribute. Did any of you receive one of these or 
offered one of these?
    OK. Some of you. Well, I hate to be the bearer of bad news, 
they actually don't do anything for hydrocarbon inhalation. It 
might help with dust mites and animal dander, but that is about 
it. Were you led to believe that this would be helpful to you?
    Go ahead.
    Ms. BarlondSmith. I received one and many of the neighbors 
in the neighborhood received the magical air purifier. I very 
quickly realized that it was not going to do anything except 
assist with the dust and air mites. Many of my neighbors, 
however, believed that this would keep them from becoming ill 
and they signed waivers.
    Mr. Schauer. Has it done that?
    Ms. BarlondSmith. No. I have neighbors that have been 
hospitalized three and four times. I have had neighbors that 
have left that are living with relatives because they can't 
return.
    Mr. Schauer. But they were given an air purifier. Ms. 
Connolly, what about the child care center?
    Ms. Connolly. I believe it was out of the daycare's cost, 
which they have not been reimbursed. But they were advised by 
the Calhoun County Health Department and I believe also CTEH, 
they said you can put these humidifiers or whatever they are 
called in each classroom and that would help with the smells 
that were coming inside the center. They also had indicated 
that they put some fancy air filter on the HVAC unit because 
the unit at the daycare is up on top of the roof and it draws 
the air. It faces right where this spilled and it draws the air 
from that location. So the air that they are pulling into the 
school, it is pulling it right from the spill. So they have put 
in some fancy filter saying it is from NASA and it will break 
down any chemicals that are coming into the school and that is 
how we are going to fix it. We will put purifiers in the rooms 
and we will put this fancy filter in your HVAC unit.
    Mr. Schauer. I want to go to the next slide. It is 
something called a full--it is a release, full and final 
settlement--I don't know if this is one we are going to put up 
there. No, that is not the right one. It is the liability 
waiver that the company is using and this one is redacted. But 
what it says, it is to a local resident, it was dated August 
17th. Payment amount $40 plus air purifier. No. That is not the 
right one either. But was anyone--did anyone that you know sign 
one of these release forms signing away all of your legal 
rights in exchange for an air purifier?
    Ms. BarlondSmith. I did a small survey. I did not survey 
every single person in the park. But out of about 30 homes, I 
found 20 that have signed the waivers giving full legal 
responsibility away from Enbridge for air purifiers and air 
conditioners.
    Mr. Schauer. Anyone else know anyone who was presented this 
form and signed this liability form?
    Ms. BarlondSmith. I did not sign that liability form. I 
signed the medical liability form.
    Mr. Schauer. I wonder if we could put that medical 
liability form up. We just had it up a minute ago. I guess not.
    Yes?
    Ms. Thorpe. When we first went down to the--we called the 
800 number and they told us to go down to the claims office, or 
whatever, and that was when they only had one in Battle Creek 
at the time. They were getting one in Marshall. But we were 
told we had to go to Battle Creek. So we went down there and we 
told the guy who took our information, made out the claim, and 
he flipped over the paper and he wanted me to sign that form 
and I said that I am not signing, I refuse to sign that. Well, 
why not? And I said because I am not going to. I refused to. 
That is something that--and just left it at that. I never did 
hear from them, from that portion from the claim.
    Mr. Schauer. Chairman Oberstar and I have asked the Justice 
Department to look into the company's use of this form. The 
form on the screen now is a form that if signed by someone who 
is sick that is screened by the company and determined that 
they are in need of medical attention caused by this spill, 
they are asked to sign this form. I am going to ask any of you 
if you have done that or know anyone--I don't know if you know, 
but that gives the company access to all of your medical 
record, all past medical records.
    Ms. BarlondSmith.
    Ms. BarlondSmith. I wanted to go see the doctor. I do not 
have health insurance. My husband and I did go to the ER in 
Jackson when we were evacuated there and diagnosed with 
chemical inhalation. This form is what was required and they 
would not send you to a doctor until you signed it, period. It 
was not a suggestion. It was not a side request.
    Mr. Schauer. So you signed that form?
    Ms. BarlondSmith. I did sign that form.
    Mr. Schauer. Are you comfortable with this company having 
access to all of your medical records, past medical records?
    Ms. BarlondSmith. To be very frank with you, one of the 
side effects that you have with this is you do not think 
clearly. People are dizzy. Your brain cells don't work. Some of 
us have started stuttering, shaking and stuff like that. I read 
over it twice very quickly. I gave it to my husband. He glanced 
at it because he was going to go to the doctor also.
    Mr. Schauer. He is not an attorney, I take it, or a health 
care provider?
    Ms. BarlondSmith. Unfortunately, he is not an attorney and 
I wish he was. But I signed it because I was told if you wanted 
to see the doctor, you must sign this. Later, after I did get 
an attorney because they don't want to deal with us, I found 
out how evasive this form is. So they can go back and check 20, 
30, 40 years.
    Mr. Schauer. Well, fortunately, the Secretary of Health and 
Human Services, who Chairman Oberstar and I wrote to, has 
determined it is a violation of something called HIPAA and it 
is a violation of your medical privacy.
    A final comment and then a quick question. First to the 
National Wildlife Federation, thank you. I went to the animal 
rehabilitation center and saw, as I described in my opening 
statement, animals, geese, fully coated, black. There is a 
photo within our packets that Members of the Committee and the 
public have. I have never seen anything like it. Again, it is 
what we were seeing on television from the Gulf.
    Final question. Ms. BarlondSmith, is there still oil where 
you live?
    Ms. BarlondSmith. Yes, sir. There is--I live in Battle 
Creek where two bridges adjoin, crossing the Kalamazoo. Behind 
the mobile home park is a wetland area. The oil and the water 
was literally to the backdoors of some of the residents' homes. 
They came in, they attempted to clean it, or so they say. They 
took a lot of stuff away. You can still find oil, pure crude 
oil in spots. They have covered up some areas with sand. There 
has been areas that are still completely covered. You can see 
the leaves, the grass; it is not cleaned up and they claim that 
it is cleaned up. We are frustrated because now they are saying 
that further back in one of the wetland areas or marsh areas 
that they are going to allow that to stand and it will just 
dissolve magically over the next three----
    Mr. Schauer. Anyone else see oil near their property?
    Ms. Miller. Yeah. Again, we have our property--our business 
property is immediately above the dam. As I testified earlier, 
it was one of the major cleanup sites. We had a number of 
workers below, down at the river banks. Our trees are now 
covered with oil, maybe 6, 7 foot--6 foot high. I took pictures 
on Sunday. And the back of our pole barn is covered. I am 
assuming from that it was the garbage bags that they filled 
with all the brush. But if you go down to the river at the dam 
on the top, there is an alcove back there and you can call it 
muck, your can call it whatever. If it is not oil, I really 
don't know what it is. I didn't get close because I do have 
some health concerns. I didn't trust the Calhoun County Health 
Department's judgment that I am safe to be down there. So I 
took pictures from a distance.
    At our home immediately below the dam, we had a tree fall 
into the river this spring. It is a large tree. And equally I 
went down there Saturday with my grandson in the rain and there 
is--in between the branches, down in there, there is all--they 
haven't done anything. We live there. We live there and I can 
tell you the only thing we have seen them do on our property at 
home was to take the big hoses and they washed it down. What 
appeared to be just river water running through those hoses, I 
don't know technically what it was. But we have not had workers 
where they have cleaned the banks like they have in other 
areas. So our property as far as I am concerned at home hasn't 
been touched.
    Mr. Schauer. Just finally--sorry, Mr. Chairman--before the 
accident, did you all know that you lived so close to a 
Canadian pipeline that was pumping 8 million gallons of heavy 
crude oil through your neighborhood? Anyone?
    Ms. Connolly. I would say no and actually I am someone who 
comes from the East Coast. I have only lived in Michigan for 8 
years. I am from a suburb of Philly. We left that area because 
we loved Marshall and its beauty and its nature and to have a 
better life to start a family. I think we would be safer if we 
were still in the suburb of Philly instead of living right in 
this town where my children are spending 10 hours a day in a 
daycare where they can still smell it. So it is just ironic we 
come to move somewhere and we had no clue. I don't even know if 
the city knew, if the first responders knew. I think that 
should be put in the legislation as well, is that any town that 
has a pipeline running through it, everyone needs to know. So--
--
    Mr. Schauer. Thank you.
    Mr. Oberstar. The gentleman's time has expired. The Chair 
now recognizes Mrs. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. I guess I 
would just make a comment first of all to Enbridge. You know, 
as we have watched what has happened with the Gulf spill, all 
of us have seen all of these ads on TV with folks who say, 
well, I live in the Gulf, born and raised here, this has 
interacted me personally and I am here to talk about what BP is 
doing to clean up, et cetera. And they show the face of a sort 
of average looking American with their name--this is who they 
are and they are talking very heartfelt about what has happened 
in their area in the Gulf. And I was reading an article in one 
of the Detroit papers the other day about apparently Enbridge 
is doing a poll to determine who might be a good spokesperson 
for them and who people might like to see on TV. Apparently 
they are going to be doing some advertising as a public 
relations thing. And they mentioned would you like to hear from 
a former Democratic Governor, Jim Blanchard, a former Governor 
of Michigan, because he is on the board of directors of 
Enbridge, or who would you like to hear from.
    My only suggestion to Enbridge is I don't know if any of 
you would be interested in doing such a thing, but if they want 
to hear from the people, if they want to hear somebody who has 
been impacted, that has no interest, financial interest or any 
other interest in their company other than being able to be an 
advocate for what Enbridge could do to mitigate damage that has 
been done, I would just suggest to Enbridge, very respectfully, 
they don't have to look much further than our first panel of 
testimony here today. It was very difficult for all of us to 
listen, particularly about the daycare. Every one of you was 
very difficult to listen to that kind of a thing.
    So I would suggest that. And I would just also mention 
again, our job here is oversight. That is the Congress' job. 
Everybody has a role to play just as you are playing today. And 
our role is to listen to testimony and to--whether or not we 
develop legislation, change some of the legislation our Nation 
has in regards to pipeline safety, et cetera, as well as 
talking to the regulators, suggesting that they promulgate 
rules, regulations, all to assist us in safety with our 
pipelines. And as I mentioned to you just as part of my 
oversight, I had sent a letter to Cynthia Quarterman, again who 
is the Administrator of the Pipeline and Hazardous Material 
Safety Administration. This was on August 3rd. I am a Members 
of Congress and I am just saying I have not received any 
response at all. Now, I can understand they are not going to 
get it the next day, but we have received no response at all. 
They certainly have been aware that we are going to have this 
hearing. And I was again looking very forward to being able to 
question her today at the hearing. And I appreciate what the 
Chairman has clarified here. But that they--why she could not 
appear. But we do not have anybody from PHMSA here, and I know 
in the next panel I will have a chance to question a person 
from DOT. But does anyone, particularly the residents, have any 
comment when you learn that Cynthia Quarterman, who is the 
regulator, the Administrator, actually just before she came 
here, got this appointment to regulate pipeline safety, she was 
the attorney for Enbridge, representing Enbridge here? Just 
generally.
    Ms. BarlondSmith. The fact is whether it is EPA, DOT, 
PHMSA, they need to be out of the equation. They can't be 
involved with--the fact that she used to be an Enbridge 
attorney, she had to recuse herself? It is outrageous because 
unfortunately it makes the rest of the staff--I am sure he is a 
very nice gentleman--how do we know he is not getting pressure 
from his boss. Yes, she has recused herself. But how do we know 
that he is going to be able to do his job when she is standing 
over him as a boss. It cannot be--they must be kept separate. 
It must be as clean as possible that there is no possibility 
that a department, whether it is DOT, health department, 
whatever, is lying in bed with the company in question. There 
is ethics that need to be involved, And the ethics in this, to 
be very frank with you, are questionable. If you ask, you will 
find.
    Ms. Connolly. One question I have in reference to that as 
well is I believe the people from the Calhoun County Health 
Department along with CTEH that are doing the air quality 
testing, the control of all of this is Enbridge because I 
believe the director for the Calhoun County Health Department 
is on their payroll now for his overtime or he is getting 
reimbursed for all of his extra work. Whether or not that is 
true, I am not 100 percent certain, but I believe that is what 
we were told at the forum that night was that he is getting 
reimbursed by Enbridge. CTEH, who is monitoring the air, they 
have been contracted by Enbridge. So they are in control of the 
air monitoring. The EPA has now recused themselves because they 
claim that they can't post all of the air data. So now they 
gave that back to Enbridge. Enbridge is in control of posting 
all the air quality results and the water results, and I don't 
understand how if one government agency was supposed to be in 
charge, bit by bit it is going back to Enbridge. How can they 
be controlling their own data and their own testing? That is 
just--I just can't understand how they can be put in charge.
    Mrs. Miller of Michigan. Well, it does--some people say you 
might make an analogy, Jesse James guarding the train or 
something like that. But where does the buck stop? And if the 
buck should be stopping with PHMSA, with the Administrator, who 
was a former lawyer for Enbridge--I am not making any 
accusations. I am just pointing that out. It does strike--yes, 
Mr. Lee.
    Mr. Lee. Yeah. I was really unaware of that situation that 
you just brought to light to me. So obviously that is a huge 
conflict of interest. As far as getting truth and something 
done to legislate this company as far as rules and regulation, 
as far as the smaller agencies local, Calhoun County Health 
Department, I don't feel that they should be in charge of some 
of the important decisions, especially, in my opinion, the 
health--unfortunately they are the health department, but I 
don't feel that I think an emergency of this magnitude, they 
are not set up. Actually, Mr. Rutherford actually contradicted 
himself in one of those meetings saying that--and I believe Mr. 
Schauer had asked him are you--do you have everything you need, 
are you OK, fully staffed and he said yes. But another comment 
was made, I believe it was either that meeting or the meeting 
before, that he is overwhelmed, overworked, his 60--small 
little 60 employees just can't keep up. So there is a 
contradiction there and why doesn't he want another agency to 
come in there to help him is drawing speculation from me, 
raising eyebrows saying why don't they want other agencies to 
come in to help him, is there something being hidden. And that 
as a family from the community, if people are hiding truth 
about whether they are actually cleaning up, covering up this 
oil spill we need other agencies.
    There is checks and balances. We have got them in 
government, and that is what we need as far as when there is an 
emergency, we need the checks and balances.
    Thank you.
    Mrs. Miller of Michigan. Thank you. I know my time has 
expired. I would just again thank all of the Michiganians who 
have come here today to testify and others as well. Sometimes 
at our hearings we have very high profile witnesses testifying 
about various things, and I think all of us on this panel feel 
very confident in the state of America by being able to take 
advantage of the inherent good commonsense of everyday citizens 
who are impacted and give us suggestions on how we should 
proceed with our government. Thank you so much for coming.
    Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you. And I join you in thanking the 
witnesses.
    Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you 
especially also to my colleague from Michigan. I am not from 
Michigan. I am from Maryland, and why should it matter to me 
what happens in Michigan. Well, it matters because you are our 
communities and I just really want to thank you very much for 
your testimony, and I have to say in my short service on this 
Committee we have had on several occasions, Mr. Chairman, 
companies come before us who have done some wrong thing in some 
community, some accident where there are people who are 
affected and they try in so many creative ways to avoid their 
responsibility, to avoid accountability, to hoodwink, 
blackmail, however you want to name it, people in communities 
who have been victimized by their wrongdoing or by their 
accident, their--avoid liability and to people who come before 
us like Mr. Lee's wife who needs medical insurance and doesn't 
have it and so has to accept whatever it is that the company 
offers because you just want to be treated for somebody else's 
wrongdoing. And I just think if anybody asks why we need 
government, Mr. Chairman, this is why we need government. 
Because government has to be in a position, we have to be in a 
position as a Congress to look out for the little guy, look out 
for most of us who are in communities just trying to raise our 
families, take care of our families and do what is right. And 
then it turns out that just because we happen to live by a 
river in a community and a pipeline runs through it and there 
is a spill, that there is then no accountability. And I just 
think it is really not acceptable. And while this didn't happen 
in Maryland where I live, it could and it could in any kind 
instance. And I think we just have to really look out for our 
communities.
    I really appreciate your testimony. I don't have any 
questions for you today. I think we have to get to the bottom 
of this. There has to be accountability and you have to receive 
the kind of compensation to which you are entitled to make your 
lives whole again, all of your communities, and that is part of 
our responsibility and oversight. It is part of our--and 
whether it is the Congress making sure that our Federal 
agencies do right or it is those Federal agencies simply doing 
right and taking care of their responsibility in communities, 
it has to happen. And so I just want to say, you know, in 
conclusion, that there are so many questions raised all the 
time about whether government costs too much or whether it 
intervenes too much. We see over and over again there are times 
when we don't intervene enough and where we allow people to go 
without meeting their fullest responsibilities. And thank you 
very much to the advocacy folks at the National Wildlife 
Federation and others who are looking out for our people, for 
our communities and for our environment to make sure that there 
really is accountability. And this is not about stopping 
business from growing and doing business. But it is saying that 
in some instances, in all instances there has to be a balance 
that it is struck between protecting our community, protecting 
our families, protecting our environment and making a buck. And 
with that the buck stops with this Committee, it stops with the 
administration, it stops with our agencies. And someone is 
going to be held to account and you all are going to be made 
whole.
    And with that, Mr. Chairman, I am finished. Thank you.
    Mr. Oberstar. Thank you very much. The Chair recognizes Mr. 
Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. I thank all of you 
for being here. I just want to echo some of what my colleague 
from Maryland said. It is important--I am from Pennsylvania, 
but what happens in Michigan may happen in Pennsylvania or 
Maryland or some other State in this Union. So it is important 
for us to find out what happened, get to the bottom of it, and 
having you here today is extremely important. I know how 
difficult it is for you to be here because of what you have 
gone through, what you are going through. But we assure you 
that your testimony here today will be taken into consideration 
as we move down the road. And it is important for us to hear 
from everybody involved because that way we can step back and 
hopefully make wise decisions on whether it is further 
oversight hearings or passing new legislation that addresses 
some of the problems that we see or uncovered because of your 
situation.
    So again thank you very much for being here today.
    Mr. Oberstar. Thank you, Mr. Shuster. And Mrs. Miller and 
the members of the panel raised questions about the role of the 
Administrator of PHMSA. I am sure that Deputy Secretary Porcari 
will be responding to those questions raised. I saw him making 
notes and I am quite confident that he will respond to your 
concerns. If not, we will ask him about those. And I just did.
    Mr. Shuster. Will the gentleman yield for a second?
    Mr. Oberstar. Yes.
    Mr. Shuster. I would just comment, Mr. Chairman, he does 
not work for PHMSA. He is the Deputy Secretary of 
Transportation, which the Chairman pointed out that somebody 
still might be under the false assumption. She works for him. 
He doesn't work for her. So we are glad to have him here today.
    Mr. Oberstar. Finally, I just want to cite from section 
1002, the Oil Pollution Act of 1990, covered removal costs and 
damages; all removal costs incurred by the United States, a 
State or an Indian tribe are covered by Federal law. Enbridge 
is required to pay any removal--Section B, Subsection B, any 
removal costs incurred by any person for acts taken in response 
to an oil spill. They are liable. They are responsible under 
Federal law. You don't need a new law to hold them accountable 
and responsible. Natural resource damages, damage for injury 
to, destruction of, loss of, or loss of use of natural 
resources, including the reasonable costs of assessing the 
damage, which shall be recoverable by a United States trustee, 
a State trustee, an Indian tribe trustee. And I won't go on 
through all the other provisions. But there is very specific 
and very strict liability imposed on a company which has an oil 
spill covered by the provisions of OPA '90. And this Committee 
will ensure that Enbridge is held accountable, and we thank you 
very much for your extremely heartfelt testimony.
    The panel is dismissed, and now we will bring Panel 2.
    Mr. Oberstar. I ask members of the panel to rise. Raise 
your right hand. With regard to the testimony you provide to 
the Committee on Transportation and Infrastructure today and 
all subsequent communications regarding this hearing, do you 
solemnly swear to tell the truth, the whole truth, and nothing 
but the truth, so help you God?
    [Witnesses respond in the affirmative.]
    Mr. Oberstar. Thank you. We are now under some really 
severe time restraints because I have just received notice that 
we will have votes on the House floor a little after 2:00. So 
we will have to begin this hearing and hold ourselves to the 
strictest timelines and we will begin with the Chair of the 
National Transportation Safety Board, Deborah Hersman.

   TESTIMONY OF THE HON. DEBORAH HERSMAN, CHAIRMAN, NATIONAL 
 TRANSPORTATION SAFETY BOARD; THE HON. JOHN D. PORCARI, DEPUTY 
SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION; THE HON. LISA P. 
 JACKSON, ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
ACCOMPANIED BY SUSAN HEDMAN, ADMINISTRATOR FOR EPA'S REGION 5; 
    AND SCOTT MASTEN, SENIOR SCIENTIST, NATIONAL TOXICOLOGY 
 PROGRAM, NATIONAL INSTITUTE OF ENVIRONMENTAL HEALTH SCIENCES, 
                 NATIONAL INSTITUTES OF HEALTH

    Ms. Hersman. Good afternoon. Thank you for allowing me to 
be here today.
    Mr. Oberstar. We are not allowing you. We have asked you to 
be here.
    Ms. Hersman. Thank you for inviting me to be here today, 
Mr. Chairman.
    The accident pipeline, 6B, is owned and operated by 
Enbridge and was put into service in 1969. It is a portion of 
Enbridge's 1,900-mile Lakehead system with the operational 
control center in Edmonton, Alberta. Line 6B is a 30-inch 
diameter pipe extending approximately 300 miles from Griffith, 
Indiana, to Sarnia, Ontario, Canada.
    Two goals of our investigation will be to determine what 
happened and when it happened. We do know that events 
surrounding the rupture began on Sunday, July 25th. Enbridge 
scheduled a shutdown of the pipe at 6 p.m. Eastern Daylight 
Time on July 25th and planned to restart the pipeline at 4 a.m. 
on Monday July 26th. By 5:58 p.m., the control center stopped 
the pumps--and you can see it on the slides up here--from 
Griffith to Mendon. At the same time, an alarm triggering 
pressure drop in Marshall initiated an automatic shutdown of 
the pump station there. At 9:25 Sunday evening, Calhoun County 
received the first of four 911 calls. The four callers 
described natural gas, propane gas, and petroleum odors as well 
as a natural gas leak. Firefighters and a Michigan gas and 
electric utility technician went to the area, but they found no 
gas leak.
    Line 6B was restarted at about 4 a.m. on Monday, July 26th, 
setting off another series of alarms at the control center over 
the next hour. It was shut down at 5 a.m. and then restarted 
about 7 a.m., triggering multiple alarms again. By 8 a.m., the 
line was shut down for the final time. The control center in 
Canada contacted an Enbridge technician in Marshall to survey 
the pump station, but that technician did not discover a leak 
at the pump station.
    A Consumers Energy employee called Enbridge at 11:18 to 
report the spill which was visually confirmed by an Enbridge 
employee at about 11:45. An NTSB team arrived the following 
day. The section of ruptured pipeline was located in a swampy 
wetland area which was further saturated by the oil that had 
spilled. As a result, the process of excavating the ruptured 
pipeline took almost 2 weeks. However, the NTSB was ultimately 
able to transport two sections of pipe, each exceeding 20 feet 
in length, from the accident site to our training center in 
Ashburn, Virginia.
    We are still in the very early stages of our investigation. 
We have cleaned the exterior of the pipe as well as the rupture 
surface to have a better look at the fracture under our 
microscopes. Select areas of the pipe have been inspected using 
nondestructive testing methods to survey the surface for cracks 
and flaws. Also, five samples were taken from the pipe and 
transferred to our materials laboratory for closer examination. 
A detailed analysis will be carried out by our laboratory staff 
over the next 3 months.
    Although we have just begun our work on this investigation, 
we expect to focus on the following areas: supervisory control 
and data acquisition, or SCADA system operations; pipeline 
controller performance; operator notification and spill 
response; responses to 911 calls; inspection and maintenance 
history and; PHMSA oversight activities and actions.
    As you all know, last week we received reports of a crude 
oil leak in Romeoville, Illinois, along Enbridge's 6A line. 
This pipe is 34 inches in diameter, and we discovered a 2-1/2 
inch hole in the pipe. Our investigator in charge from the 
Marshall accident was in Romeoville and supervised the 
excavation and the shipment of that pipe back to our 
facilities.
    Finally, I would like to take a moment to mention the NTSB 
investigation of the fatal natural gas explosion in San Bruno, 
California. There are 11 members of our team on the ground, 
including our vice chairman. We have removed three pieces of 
that pipe and it is in transit to Washington, D.C. for testing.
    Like the Marshall accident, we are committed to finding the 
causes of these ruptures and making the appropriate 
recommendations to ensure that these tragedies do not occur 
again.
    Thank you, and I am ready to answer any questions.
    Mr. Oberstar. Thank you for a very succinct summary of a 
very extensive documentation on the spill at hand.
    Deputy Secretary Porcari, I welcome you to the hearing. 
Thank you for being here.
    Mr. Porcari. Thank you, Chairman Oberstar, Ranking Member 
Shuster, and Members of the Committee. I am John Porcari, 
Deputy Secretary of the U.S. Department of Transportation. If I 
may, let me first clear up any misconceptions about the 
reporting relationships as has been previously discussed.
    Administrator Quarterman is recused from these issues 
involving Enbridge. I would point out that the recusal is, in 
part, because as one of the first acts of this administration, 
President Obama doubled the recusal period for appointed 
officials to make sure that we are being held to a higher 
standard. That is obviously something that we all support.
    I would also point out that, as I have been before with 
safety issues regarding PHMSA, as Deputy Secretary, I am 
directly involved. Secretary LaHood and I take safety very 
seriously. There is no greater illustration of that than the 
personal involvement that the two of us have in safety issues. 
If you are thinking about distracted driving or the 
longstanding, 20-year long attempt to try to have flight safety 
and duty time improvements in aviation, it is the personal 
involvement of the Secretary and his senior team that actually 
drives those advancements. So it is something we take very 
seriously.
    Congresswoman Miller, you also pointed out that you had 
written to us on August 3rd asking questions regarding this 
incident. We did respond on August 18th. I will be happy to 
personally brief you either on the contents of that responsive 
letter or on any other questions that you have. It is a very 
important part of our job to be responsive and we take that 
very seriously. So thank you for your questions.
    I would also point out that I visited Marshall twice this 
summer since the incident. I have seen firsthand the 
devastating impact both on the ecosystem and on the community 
and its members and, above all, on the families that call this 
community home.
    Since the Obama administration took office, we have 
repeatedly warned Enbridge to focus on the safety and 
performance of its entire Lakehead pipeline system, of which 6B 
is a portion. This year alone, the Pipeline and Hazardous 
Materials Safety Administration conducted 11 inspections of 
Enbridge's Lakehead system and we initiated five enforcement 
actions. Last month PHMSA issued a final order assessing a $2.4 
million civil penalty against Enbridge in conjunction with an 
incident near Clearbrook, Minnesota where two workers died as a 
result of Enbridge's failure to follow safety regulations while 
repairing a pipeline.
    Let me assure you that DOT will continue to ensure that 
Enbridge and all pipeline operators are held fully accountable 
for the safety of their operations and that they understand 
there are serious consequences if they fail.
    As Secretary LaHood has stated from day one of this 
administration, safety is our Department's highest priority. So 
when Line 6B ruptured, releasing over 800,000 gallons of crude 
into the environments around Marshall, our response was swift. 
We immediately dispatched investigators to the scene. We were 
also quick to issue a corrective action order to Enbridge 
requiring the company to take specific steps to ensure the 
safety and integrity of Line 6B before its return to service. 
That corrective action order is still in force today.
    Let me also assure the Committee that our goal is to make 
sure that Line 6B is free of safety and environmental risks 
before granting Enbridge permission for a gradual restart.
    Now, fortunately, no lives were lost in the Enbridge oil 
spill, but sadly the same can't be said for the tragic and 
deadly PG&E gas line explosion in San Bruno, California, which 
killed several innocent victims and injured scores.
    Mr. Chairman, we are committed to working with you and 
Members of this Committee to ensure that accidents like this do 
not happen again. That is why our Department has launched a 
comprehensive review of the current pipeline safety regime so 
that we can identify potential legislative solutions and other 
actions we can take to ensure that all pipeline operators put 
safety first. To that end, Secretary LaHood this morning 
unveiled a legislative proposal to strengthen our regulatory 
authority and oversight capabilities on pipelines. This 
proposal would, among other things, raise the maximum penalty 
for the most serious violations from $1 million to $2.5 
million. It would authorize 40 additional inspection and 
enforcement experts over 4 years. It would also improve the 
prevention, detection, and remediation of safety problems in 
hazardous liquid pipelines before we have an incident.
    The legislative proposal will complement additional 
regulatory initiatives to improve pipeline safety. 
Specifically, we are going to be considering extending 
regulation to certain pipelines that are currently exempt from 
regulation, identifying additional areas along pipelines that 
should receive extra protection, and establishing standards and 
procedures for minimum leak detection requirements for all 
pipelines, among other initiatives.
    Finally, this week, the department issued a notice of 
proposed rulemaking proposing to expedite new standards for 
pipeline control-room management procedures and controller 
fatigue. We are proposing to move up the timeline for that from 
February 2013 to August 2011. We look forward to working with 
you and the Committee to make sure that the underground 
pipeline infrastructure that we rely on coast to coast is safe, 
reliable, and has the most stringent oversight possible.
    That concludes my remarks, and I look forward to answering 
any questions. Thank you.
    Mr. Oberstar. Thank you very much for those comments, and 
your full statement will be included in the record, as well as 
the complete statement of all other witnesses.
    And now Administrator Jackson. Thank you for being with us 
once again before this Committee.
    Ms. Jackson. Good afternoon. Good afternoon, Chairman 
Oberstar and Ranking Member Shuster, Congressman Schauer and 
other Members who are here with the Committee. Thanks for the 
opportunity to testify on EPA's response to the Enbridge 
pipeline oil spill near Marshall, Michigan.
    On July 26, at 1:33 p.m. Eastern Time, Enbridge notified 
the national response officer that a pipeline release totaling 
an estimated 819,000 gallons of oil had occurred near Marshall, 
Michigan. The oil entered Talmadge Creek, flowed into the 
Kalamazoo River, a Lake Michigan tributary. Heavy rains caused 
the river to overflow existing dams and carry oil 30 miles 
downstream. But now, thanks to the hard work of countless 
individuals, I am glad we have moved from the emergency 
response phase of this incident to the long-term cleanup phase 
of this incident.
    I am glad to be joined this morning--this afternoon--excuse 
me--by Susan Hedman, the Regional Administrator for EPA's 
Region 5, who personally spent 17 days on site during the 
response working around the clock with a dedicated team of 
responders. And 4 days after the spill, I visited Marshall, 
where I met with local and State officials and saw directly the 
major challenges that EPA as Federal lead for this type of oil 
spill response would face.
    The main goals of this operation were to contain the flow 
of oil and prevent its release into Lake Michigan, to directly 
communicate constant updates to the public and to Congress, and 
to ensure the protection of public health and the environment.
    To achieve these goals, EPA mobilized an incident 
management team made up of numerous Federal, State, and local 
agencies, including the Coast Guard, the State of Michigan and 
other local agencies to oversee all of Enbridge's plans and 
actions. EPA also immediately began specific activities to 
ensure that the company would fully comply with EPA directives. 
EPA quickly issued an order under Section 311(c) of the Clean 
Water Act forcing Enbridge to conduct specific response 
actions, including deployment of recovery and containment 
equipment and proper disposal of waste.
    EPA also began evaluating more than 30 miles of 
contaminated shoreline, floodplain and wetland areas through 
land, boat and air surveys to understand exactly where the oil 
was, where it might go and what it could contaminate. We began 
monitoring the air for harmful emissions and assessing water 
quality for contamination that could endanger public health.
    Throughout the response, data show that both air and water 
quality was within acceptable levels for human health. The 
data, once compiled and verified, were quickly posted on our 
Website and we made it a major priority to keep the public 
fully abreast of the work ahead and the challenges posed.
    In addition to constantly updating our Website with the 
most current information, we held three community meetings in 
Marshall, Battle Creek, and Kalamazoo to not only update 
residents on the overall status of the cleanup but, more 
importantly, to interact directly with community Members, to 
answer their questions and help assuage their fears. We also 
participated in other community meetings, including one hosted 
by Congressman Schauer. We also held daily calls for local and 
State elected officials and Members of Congress so they could 
respond to constituent concerns. Congressman Schauer in 
particular was a regular participant, and I commend you for 
your hands-on involvement in this response, sir.
    Over the first weeks of the spill, both EPA and Enbridge 
continued to add response personnel and equipment to contain 
the movement of oil and to remove contamination from affected 
areas. We observed dramatic changes during this time. In less 
than 1 week, response efforts reduced heavy oil to a sheen over 
the majority of the creek and parts of the river. After an 
additional week, the sheen was visible only intermittently 
along the waterway. On August 10, 2 weeks after arriving on the 
scene, the EPA declared the emergency response phase over, with 
the flow of oil contained 80 miles from Lake Michigan.
    Let me show a few pictures to illustrate some of the major 
challenges associated and still associated with the spill. This 
is where it all started. You can see the edge of the pipe when 
it was first uncovered. For a perspective, the pipe is about 2-
1/2 feet in diameter. Here is a picture showing oil covering 
the entire surface. It doesn't show too well in this light. But 
the entire surface of the Kalamazoo River is covered. That is 
near the leak site. You can see there is already some boom 
deployed there.
    Here, this picture shows oil covering the entire surface of 
the Kalamazoo River further downstream. This is taken the day 
after the spill.
    Note that the heavy flooding caused the water to overflow 
the dam. So we had oil coming through the dam but also 
overflowing due to the heavy rains that complicated the 
response effort.
    Oil not only covered the water, but also got trapped in 
vegetation in the waterway and in the shoreline, and I want to 
be clear that when we say we have been able to reduce a lot of 
the sheen on the water, we are fully aware that the effort is 
really just beginning in all this vegetation and the sediment 
along the shoreline and it is a continuing potential source as 
long as it is there for additional sheens and impacts to the 
water itself.
    The leak itself initially soaked five acres of wetlands 
with oil. We heard that in Ms. Hersman's testimony. Here is a 
glimpse of what it looked like after the contaminated pipeline 
was removed and the pipeline was exposed.
    And here are some EPA employees working on the response. 
Just to go through some numbers from the response to date. 85 
miles of absorbent boom, nearly 10 miles of containment boom 
have been deployed. 45,000 cubic yards of waste shift offsite 
to licensed landfill for disposal. More than 9-1/2 million 
gallons of oil and water mixture were collected from the spill 
creek--the spill site, the creek and the river. More than 200 
boats currently deployed on the river. Total personnel on site 
ranges from 1,300 to 1,800 workers. And to date, the cost that 
EPA has incurred to respond to the spill totals $17 million. 
While we expect that total to rise during the coming months, I 
assure you that we will work to recovery every penny of these 
costs from Enbridge.
    But let me be clear, we still have work to do to clean up 
the long-term damage from this spill, and we will not leave 
until the work is done.
    I thank the Committee for holding this hearing and look 
forward to taking any questions you may have.
    Mr. Oberstar. And we will have questions. Thank you very 
much, Administrator Jackson.
    Mr. Masten.
    Mr. Masten. Chairman Oberstar, Members of the Committee, 
thank you for the opportunity to provide information about the 
potential human health issues associated with oil spills.
    My name is Scott Masten, and I am a staff scientist at the 
National Institute of Environmental Health Sciences, an 
institute of the National Institutes of Health, which is part 
of the Department of Health and Human Services. My work 
supports the National Toxicology Program, an interagency 
program that is administratively housed at the NIEHS. I am 
testifying today on behalf of the NIH, and I shall present a 
brief overview of our current understanding of the possible 
human health effects of exposures related to oil spills, along 
with a preview of some of our research efforts aimed at 
increasing our understanding of adverse health impacts among 
oil spill response workers and exposed communities.
    Crude oil is a complex combination of chemicals consisting 
predominantly of carbon and hydrogen. These are collectively 
known as hydrocarbons. The chemical composition of crude oils 
can vary substantially from different geographic regions and 
even within a particular geologic formation. There are 
hundreds, if not thousands of chemicals present in crude oil, 
and we have incomplete knowledge of the toxicity of many of 
them.
    We are most concerned about a particular class of 
hydrocarbons known as aromatic hydrocarbons, as well as other 
volatile organic compounds such as benzene, naphthalene, and 
polycyclic aromatic hydrocarbons.
    Sulfur compounds such a hydrogen sulfide and heavy metals 
such as aluminum, lead, nickel, and vanadium can also be 
present to varying degrees in crude oil. These substances may 
also be of concern, depending on their level in the crude oil.
    From studies of these chemicals individually, we know quite 
a bit about their hazardous properties, and we believe these 
are some of the chemicals most likely to be encountered in air, 
sediment, or water subsequent to an oil spill. The composition 
of spilled oil changes over time, and the oil nearest the 
source of the spill contains higher levels of some of the more 
volatile hazardous components.
    Oil that has been exposed to air and water for a period of 
time, so-called weathered oil, has lost most of these volatile 
components. Nonetheless, this weathered oil still contains less 
volatile hazardous chemicals, and, therefore, skin contact 
should be limited. And if aerosolized by wind or physical 
disturbance, weathered oil could also be taken into the body 
through breathing.
    It is critically important to note that the specific risk 
of developing adverse health effects are dependent on many 
factors, but, most importantly, risks increase with prolonged 
exposures to higher concentrations of the chemicals. Protective 
equipment and other precautions can be effective at reducing 
exposures and thereby reducing risks.
    Given the chemicals present in crude oil, the potential for 
human health effects exist. However, understanding and 
quantifying these effects requires further study. There has 
been relatively little long-term research into the human health 
effects from oil spills. The few studies that have evaluated 
the human health consequences of oil spills have primarily 
focused on acute physical effects and psychological sequelae.
    A number of the studies reported respiratory symptoms, 
including cough, shortness of breath, decreased lung function. 
These were among workers involved in cleanup operations. Other 
commonly reported symptoms in these studies include itchy eyes, 
nausea, vomiting, dizziness, headaches, skin irritation, and 
dermatitis. Additionally, in several studies of one particular 
spill, the cleanup workers there found evidence of genetic and 
endocrine effects in exposed individuals.
    Regarding psychological consequences, generalized anxiety 
disorder, post-traumatic stress disorder, and depressive 
symptoms were reported among communities affected by the Exxon 
Valdez oil spill. Similar measures of decreased mental health 
were observed among communities near other oil spills.
    The NIH is using a variety of funding mechanisms and 
programs to carry out important research related to the human 
health impacts of oil spills. The NIEHS, through the National 
Toxicology Program, has completed important steps in 
identifying knowledge gaps for oil-spill-related exposures of 
concern. The NTP has reached out to key agency partners to 
assess ongoing research activities within the Federal 
Government and to begin compiling common toxicology research 
needs.
    Our initial research efforts are focused on chemical 
characterization of the oil and dispersant samples that were 
collected in the gulf region to gain a better understanding of 
the physical and chemical changes associated with weathering 
and biodegradation. The output from these various chemistry 
studies will guide the development and conduct of additional 
toxicological studies to identify important biological effects 
of the mixed exposures encountered during oil spills.
    In June, NIH Director Francis Collins announced that the 
NIH will devote at least $10 million to support these NTP 
studies in the initial stages of an NIH-led, large, prospective 
health study of oil spill cleanup workers and volunteers, 
termed the ``Gulf Worker Study.'' In addition, BP has 
contributed $10 million through its Gulf of Mexico Research 
Initiative to help fund the Gulf Worker Study.
    This study will focus on exposure to oil and potential 
health consequences, such as respiratory, neurobehavioral, 
carcinogenic, and immunological conditions. The study plan also 
includes evaluation of mental health concerns and other oil-
spill-related stressors, such as job loss, family disruption, 
and financial uncertainties. The study plan will be updated as 
comments and suggestions are received from the gulf communities 
and scientific experts via a series of NIEHS-sponsored 
meetings, community fora, and webinars.
    In addition, the NIEHS has a grants program for time-
sensitive research and community education that will include 
additional opportunities for research, including research on 
various health effects, to understand the unique risk of 
vulnerable populations, such as children, pregnant women, the 
elderly, and people with chronic health problems.
    Although the above-mentioned research activities are 
focused on the gulf region, our expectation is that these 
research results will have widespread applicability to future 
public health activities relating to oil spills.
    In conclusion, it is clear from our current and ongoing 
review of the available research studies regarding human health 
effects of spilled crude oil that there is a need for 
additional health monitoring and research. Follow-up of exposed 
people has only occurred for a handful of the oil tanker spill 
incidents from the past several decades. These incidents 
involved exposure to different types of crude oil and, in some 
cases, refined petroleum products.
    Historically, cleanup workers have experienced the highest 
exposures; although, for most of these studies, there is a lack 
of quantitative exposure information. And human health impacts 
are dependent on the scale of the release and on our ability to 
minimize exposure through proper safety precautions, training, 
and spill containment.
    Ongoing and planned research in the gulf by the NIH and 
others will increase our collective understanding and provide a 
better foundation for making public health decisions for future 
oil-related incidents.
    Thank you, and I am happy to answer any questions.
    Mr. Oberstar. Thank you very much for those observations. 
We appreciate your testimony.
    And we will now continue with Kelli Scott, administrator 
and controller and public information officer for Calhoun 
County.
    Ms. Scott. Thank you. Good afternoon, Chairman Oberstar, 
Ranking Member Shuster, Members of the Committee. I appreciate 
the opportunity to be here today.
    And thanks, also, to our local congressman, Mark Schauer, 
for your commitment to include local governments in the mix of 
panel members today.
    My brief testimony will be from the perspective of county 
government on the oil spill and its impacts on our community. 
Given the fact that, although we are out of the official crisis 
mode, the oil spill is not yet all cleaned up, we still have 
more questions than conclusions to offer.
    I am here today to frame briefly for you a picture of what 
Calhoun County, Michigan, was like before July 26th, what the 
county's involvement in the response effort has been to date, 
and what we believe the local concerns will be going forward.
    Before this crisis that started locally ends locally, it is 
important to our board chair and our county commissioners that 
we begin through various engagements, such as this, to plan 
long-term restoration strategies. If what you hear today offers 
any preliminary lessons learned for future reference or leads 
to any assistance in this recovery strategy, we will all be 
better off.
    As county administrator/controller, my position is that of 
the appointed county executive, reporting to a board of seven 
county commissioners. My main role in the oil spill response 
efforts has been that of public information officer. I have had 
some incident command structure training, but it paled in 
comparison to the real on-the-job experience I have had for the 
last month and a half with this major environmental disaster 
happening literally in the county's backyard. The oil spill 
site was less than a couple of miles from my office and from 
the county administration in Marshall.
    I was notified of the spill by county officials at about 
8:30 on Monday night, July 26th. And they informed me that I 
needed to get to the incident response and that we probably 
needed to declare a state of local disaster and emergency. At 
that point, I had never heard of Enbridge and was unaware that 
its pipelines traveled through our county.
    When I got to the site, there were many local, State, and 
Federal officials already there, and the effort was already 
under way to form the incident command and to deploy resources. 
Included in the mix of who was there were our public health 
officer, Jim Rutherford, emergency management services director 
Durk Dunham, the county sheriff, and others. And it became 
apparent, even though we had no clue what the magnitude of the 
spill was, that we were going to essentially have to clear our 
calendars of all of the other county initiatives, meetings, 
full schedules, and dedicate as much resources as were needed 
to assist in this process.
    So, the picture before July 26th: We are one of the larger 
counties in Michigan at about 136,000 in population. However, 
we have very much a small-town feel. Battle Creek, which is our 
largest city, is known as ``Cereal City, USA.'' When we get 
outside in the morning, we are used to smelling the sweet smell 
of cereal from Kellogg's and Post. We are happy now that that 
smell of cereal is back and not the smell of oil.
    Our Web site encourages people to visit, live, and do 
business in the county, proudly stating that we offer the 
serenity of country living and the cultural and recreational 
amenities offered in urban settings. The resources from our 
river are very much a part of the tourism strategy, and it is 
very unfortunate that we experienced this local tragedy that 
cut off recreational use of the river, which resulted in 
cancelled camping, fishing, canoeing trips, and other events 
that were already booked before the July 26th incident.
    From a county budget standpoint, property taxes provide 
nearly half of our operating revenues of $40 million. So, 
before July 26th, we were just ramping up our budget process 
for fiscal year 2011. We have a calendar year. We were 
projecting a budget deficit of $2 million, had been 
experiencing 2 or more years of property value declines just 
due to the State and national economic crisis, and tax 
foreclosures had experienced significant increases in our 
county.
    Also, our county ranks low compared with others when it 
comes to numerous key health indicators. So we were already 
challenged and had begun several local efforts to turn those 
health indicators around. And part of that strategy, again, was 
use of our environmental assets, such as the Kalamazoo River.
    So our response as county government, the first step we had 
to do was to declare the local state of emergency. And then 
State statute really requires us to look out for public health, 
public safety. And beyond that, we realized quickly that we 
didn't have the resources necessary and have had to rely on a 
lot of environmental experts to make the tough decisions about 
evacuations, about water quality safety and air quality safety.
    So the bottom line is, to date, the county of Calhoun has 
expended over $300,000, coming mostly from our public health, 
office of the sheriff, administration, but even other offices 
such as equalization, who created over 400 maps for Enbridge, 
and the Environmental Protection Agency for various uses. Our 
road commission estimates over half a million dollars of 
damages to roads that we still have to wait to assess until the 
heavy equipment is gone. And we haven't even looked at the 
damages to at least one of the county parks that is on the 
river and is being used as a staging area.
    My role, again, was as a public information officer and 
have been attending regular meetings--they were twice daily, 
initially--with all of the public information officers, 
including that from Enbridge. We tried to coordinate the media 
briefings. And communication throughout this process was one of 
the most difficult things, especially when we were dealing with 
evacuated residents and trying to communicate to them.
    One of the early stories that had been in the media and I 
understand is being investigated is the response time and the 
reporting of the oil spill. One statement that I would just 
make on that issue is that we didn't find any record from our 
consolidated dispatch authority, which I have to state is 
separately governed from that of the county, of Enbridge 
contacting the county or the consolidated dispatch to alert of 
any potential problems with the pipeline, which we understand 
could have been Sunday night, the night before the reported 
spill.
    Our understanding is that Enbridge was required to notify 
the National Response Center, but, there again, there was not 
notification from either Federal or State agencies directly to 
the county or consolidated dispatch. So there was some 
confusion there.
    Looking forward, I would summarize with the five questions 
that our county and our residents have communicated to us that 
they are very concerned with on the long term. How long will 
Enbridge be here in town, and what will we be left with once 
they are gone? We are concerned that the EPA's September 27 
deadline under their administrative order will be only an 
artificial end to the situation.
    Number two, when will the Kalamazoo River be open for 
recreational purposes again? Will it be 2011, 2012, or beyond? 
And we also have no sense of how long the county government 
will need to be involved in air and water quality monitoring 
and testing.
    Number three, how will this environmental disaster impact 
future economic development? How many businesses will avoid 
Calhoun County when contemplating start-up, expansion, or 
relocation?
    Number four, what will happen to our property values, which 
we thought were close to bottoming out before the spill but 
were expected to rebound in the next year or 2?
    And, finally, and maybe most importantly, are we safe? How 
can we be sure another pipeline failure doesn't happen in the 
near future? For vulnerable areas like ours where the pipelines 
run through populated areas, one spill is too many.
    And I would just add, from a local response, just so that 
you are aware, on August 5th the Calhoun County Board of 
Commissioners resolved to create a local task force that will 
include officials from State, Federal, and maybe even the 
private sector to look at long-term strategies for dealing with 
these types of tragic events. One premise that we will be 
discussing is whether there is a need to accelerate the 
development of environmental cleanup and restoration 
technologies. We expect to start meeting next month.
    And so, in closing, even though, again, the cereal smell is 
back and the river is much cleaner, submerged oil and residual 
oils in the flood plains and on vegetation and in sensitive 
areas still concerns the community. From my perspective, 
communication plans that begin from the responsible party and 
include early and direct notification to local emergency 
centers of potential issues with pipelines would streamline 
response efforts, if nothing else.
    And that concludes my remarks. Thank you.
    Mr. Oberstar. Thank you very much for your testimony. And 
the questions that you raise are very important ones that we 
will pursue as we continue our oversight of this situation.
    Chair Hersman, you have heard me say it many times that I 
hold the NTSB as the gold standard for accident investigation. 
Other countries in this modernized transportation world have 
developed or put in place accident investigation units modeled 
after the NTSB. And you are continuing to uphold those very 
highest standards.
    I know that there will be lessons to be learned after the 
metallurgical studies and evaluations of the pipeline segment. 
And when do you--I would like to ask you if you can just give 
us an off-the-top-of-the-table estimate of when that work would 
be concluded.
    Ms. Hersman. Mr. Chairman, are you talking about just the 
lab work, or are you talking about a final report?
    Mr. Oberstar. The lab work. No, not the complete 
investigation, but the lab work so that you will have some idea 
of the questions that I have. That is, this is a 39-year-old 
segment of pipe. It is three-quarter-inch steel, if I 
understand, if I recall rightly. And was it steel of a quality 
that would meet standards set today? Or are even today's 
standards adequate or inadequate? What pipeline pressure was it 
built to withstand? Were the pressures greater than the design 
spec of the pipe? And while it was operating at lower pressure 
levels, was that possibly a factor in the pipeline failure?
    Those are a number of questions I don't think you can 
answer yet because you don't have all the metallurgical 
analysis results.
    Ms. Hersman. You are right, I can't answer all of those 
questions. But we do know that this pipe has a maximum 
operating pressure of 624 psig. At the time of the rupture, 
they were under a restriction from PHMSA to operate at a lower 
pressure, 523 psi. The operating pressure just prior to the 
failure was something less than that, 440 to 475.
    We are still working through all the details, but that is 
some preliminary information.
    The pipe is carbon steel and one quarter-inch thick.
    Mr. Oberstar. Oh, it is quarter-inch. I thought it was 
three-quarter. OK.
    Ms. Hersman. One-quarter-inch thick. It was manufactured to 
meet the specifications existing at the time it was installed.
    You mentioned the Marshall pipeline was installed in 1969. 
The three events that I mentioned in my testimony, the other 
Enbridge pipe was installed on 6A in 1968. The San Bruno pipe 
that is involved in the California gas pipeline explosion, is 
from 1956. It is not uncommon for us to see pipe that is older.
    There are a number of things that our team in our lab will 
be doing over the next few weeks and months. They are going to 
reconvene with the parties to the investigation as they conduct 
some of this work so that PHMSA and Enbridge have an 
opportunity to see what we are doing. If we identify any 
concerns, the parties will have the ability to take action, 
too, as far as safety issues are concerned.
    Mr. Oberstar. Do you know whether cathodic protection was 
maintained on that line continuously throughout its operation?
    Ms. Hersman. That is certainly something that we will be 
looking at as part of our investigation. We know that it was 
coated with a polyethylene coating to provide some additional 
protection. We did document some issues in our initial 
examination of the pipe of corrosion on the pipe. We are 
certainly going to be looking at that as part of our 
investigation.
    Mr. Oberstar. Thank you.
    Deputy Secretary Porcari, I know that when the 
administration took office that PHMSA was a disaster of its 
own. It has been that way for a long time. And that you have 
taken steps to improve operations and upgrade the organization 
itself.
    And you have outlined the proposals for reauthorization of 
PHMSA. But from just a quick reading, I don't see any 
provisions on leak detection. I don't see any upgrade on 
integrity management. And I wonder if you could address--I 
would like you to address those two issues in particular.
    Mr. Porcari. Mr. Chairman, I think those are very good 
questions.
    The proposal that was submitted this morning, we believe, 
is a very good starting point and a significant advance over 
the previous requirements. From this incident, which we take 
very seriously, there are five issues, for example, that I am 
asking staff tp review and determine if we can update the 
proposal, as necessary.
    For example, for the integrity plans themselves, which are 
viewed prior to inspection, should copies of those be in 
PHMSA's possession, and should those be reviewed more 
aggressively before and outside of inspection cycles?
    The second broad issue is the operating control centers. In 
addition to the recent rule-making that we just did, the 
processes and procedures there, are there further improvements 
that we should have?
    Third, what is the threshold for damage repair? Is today's 
threshold adequate? Has technology advanced, has research 
advanced so that we can update that?
    The fourth broad area is leak-detection systems. Should 
there be performance standards? Redundancy? Is the state-of-
the-art different, and should those be requirements?
    And then finally, fifth and broader, what are we doing in 
our research program, going forward for future requirements? 
Are we actually funding the research that we need that will 
define the future requirements so that this doesn't happen 
again?
    And on all five of those, and likely more fronts, we will 
be moving forward.
    Mr. Oberstar. Thank you.
    I would like to proceed, although we have very limited 
legislative time remaining before the recess for elections, I 
would like to engage in a bipartisan conversation with you, 
your staff, and also with EPA Administrator Jackson to scrub 
this proposal that you have submitted, incorporate into it 
lessons from this hearing and also from the BP oil spill, and 
at least fashion a draft bill in the remaining 3 weeks that we 
would be able to consider in this Committee. And if we can get 
there, to take at least Subcommittee action. And if not, have a 
bill ready so that, after the election, we might be able to 
proceed on it. Because the authorization is expiring for PHMSA, 
and I would not want that to happen.
    Ms. Jackson, you have already, EPA has already issued 
Section 311 order authority on the Enbridge spill. What other 
authorities does EPA have to ensure cleanup and to hold the 
responsible parties accountable? And do you need additional 
action in light of this Enbridge experience?
    Ms. Jackson. So far, Mr. Chairman, I think that our general 
belief is that the authorities under the Clean Water Act, the 
Oil Pollution Act, are broad enough to enable us to pursue the 
response, to ensure reimbursement of response entities. There 
are opportunities for claims to be made from the fund if 
Enbridge does not live up to its responsibilities to the 
community or to individual folks.
    There is an enforcement case to be brought potentially at 
some point. And that investigation, from the standpoint of EPA 
only, not speaking at all about NTSB's ongoing investigation, 
will focus on potential violations of the Clean Water Act with 
respect to the spill itself.
    And, at this point, we have no reason to believe that there 
have been any authority issues. The law is quite broad.
    Mr. Oberstar. Very good.
    We know, those of us in the northern tier, that winter is 
en route. Although we have had one of the hottest summers on 
record, if not the hottest summer on record, we know in 
northern Minnesota and upper Michigan that the glacier is 
trying to reclaim its footprint.
    And there are lessons to be learned from the Exxon Valdez, 
that cleanup in cold water--that was cold saltwater; this is 
cold freshwater--are different from those experiences in the 
gulf with warm saltwater. We know and you testified very 
thoughtfully at our BP oil spill hearing--and I appreciate your 
testimony; I have referenced it many times in talks since 
then--bacteria may be devouring the oil in the gulf, but at the 
same time they are consuming oxygen in the water column and 
leaving behind a carbon footprint of the decayed bacteria 
matter.
    Think for a moment of the lessons to be learned from Exxon, 
from BP, and apply them to Enbridge and the river and the 
riparian lands.
    Ms. Jackson. Certainly, sir. You know, as you point out, 
very, very different environments, not just because it is 
marine versus freshwater. You know, it hasn't been spoken of 
much here, but this was a very beautiful recreational area, as 
I went over it. People hunt, they fish, there are kayakers. It 
is just a beautiful spot, especially in the summer. I am a 
southern girl, so the winter is a little less appealing to me, 
but I am sure people up there love it in the winter too.
    Mr. Oberstar. We love it up there.
    Ms. Jackson. But I think one of the hardest things about 
this cleanup going forward--and I want to be very careful not 
to make any excuses for Enbridge, who must clean this up--is we 
don't have some of the assets we might have where biological 
degradation is going to happen as quickly. But yet, we have 
such a very beautiful ecosystem. In many places, as you know, 
we didn't have roads to even get to these shorelines to access 
them. You know, we had to put in roads or temporary structures 
to get down there.
    So there will be a real process with the teams and, of 
course, with folks who are also trustees to try to determine 
where active removal, say, in the case of sediment, is really 
crucial to ensure that we get this source material out. But 
where, in some cases, the best thing we can do is allow the 
shoreline to recover over time, which will certainly impact 
people's ability to enjoy certain areas.
    So, there were no dispersants used or any agents, if you 
will, introduced into this environment--very different. This 
is, you know, freshwater close to land. We don't have anywhere 
near the dilution factor that would even indicate consideration 
of such a thing. And so, in some ways, we are more limited in 
our tools. And all of our tools for some of the remaining 
cleanup will have the unfortunate consequence of having, you 
know, potential real impacts to the ecosystem. So that will 
have to be weighed. And, certainly, the State and local 
officials, as well as Federal trustees, will weigh in on those 
issues.
    Mr. Oberstar. Thank you. Do you and Secretary Porcari 
concur with me that the provisions of Open 90 apply to the 
Enbridge spill?
    Ms. Jackson. Absolutely, sir. I believe that this is--it 
says if there is even a danger that it is going to hit 
waterways, we should respond. But we absolutely believe that.
    Mr. Porcari. Yes.
    Mr. Oberstar. We have a--I will conclude, but I was with my 
son and granddaughters on the edge of the Boundary Waters Canoe 
Area Wilderness in the first week of July, taking just a couple 
of days of respite. We hiked into and canoed into, portaged 
into the wilderness. And then in the evening we were sitting on 
the shore and observing a family of loons calling to each 
other, with a chick in the middle, and diving for food for 
their chick.
    And it just occurred to me that in 3 months they are going 
to be migrating to Louisiana, to the wetlands. And they are 
going to land in those oil-soaked marshes. And I thumbed 
through my provision, which I had brought with me, of Open 90. 
And BP is liable for every oil-soaked loon that comes from 
Minnesota, Wisconsin, or Michigan. And I am going to hold them 
to it.
    Ms. Miller?
    Mrs. Miller of Michigan. Thank you very much, Mr. Chairman. 
That is an interesting observation and frightening in its own 
way to think about the fly routes of migratory birds coming 
from your beautiful State and our beautiful State and going 
down to the gulf, et cetera.
    And I would just, not to keep belaboring this point about 
Ms. Quarterman, but I did want to mention one more thing. And 
you don't have to respond to this; I just want to make a 
comment on here.
    I will say that this administration, this President, said 
that they were not going to have lobbyists or folks from K 
Street, industry folks, coming in and regulating the agencies 
that they once either worked for or represented. That was a 
pledge that this administration said. And here is Ms. 
Quarterman, the PHMSA administrator, who, again, had to recuse 
herself from coming to talk at a congressional hearing because 
here she was, you know, a partner in the Washington, D.C. 
Office--I will leave out the name of the law firm. Her practice 
was focused on litigation and administrative law associated 
with pipeline safety, pipeline acquisitions, oil, gas, 
liquified natural gas facilities, et cetera, et cetera.
    So I appreciate that somebody has to recuse themselves from 
talking to a congressional panel hearing, Members of Congress 
trying to understand that if a regulatory agency has been able 
to do their job, and the administrator has to recuse herself 
because she formerly was an attorney who represented Enbridge, 
the company that we are talking about now.
    I am not asking for any comment. I make that statement.
    But I would like to ask a question of you, Secretary 
Porcari. And as has been mentioned here--and I have not seen 
your reauthorization proposal, because, as you mention, you 
just submitted it a couple of hours ago, even though the 
pipeline safety programs do expire in 15 days. In 15 days, it 
is going to expire.
    And I know you are still a relatively new administration, 
but, still, it would seem--I guess I would ask this question: 
Why did the administration take so long to transmit a proposal 
to the Congress? And if you just gave it to us this morning, 
some might think perhaps that is in response--that you have 
finally focused on this as you see what happened in Marshall, 
Michigan, as you see what happened in Illinois, as you saw what 
happened in California, as you saw what happened in Buffalo, 
New York.
    And I am not sure if you--you know, just understanding the 
process of Congress, it is highly unlikely that we will be able 
to have Committee hearings, take testimony on your 
reauthorization, pass something out of Subcommittee, Full 
Committee to the floor of the House in about 10 legislative 
days that is left. It is highly unlikely--maybe, maybe, but I 
don't think so.
    So I would just ask, what happened here?
    Mr. Porcari. Thank you, Congresswoman Miller. I will take 
the opportunity, if you don't mind, to first make a couple of 
points regarding Administrator Quarterman, because I think it 
is really important.
    We selected an administrator that has both public- and 
private-sector experience that is relevant. As I mentioned 
before, the President put a higher public standard, a higher 
ethical standard, in place by doubling the recusal period, 
which is, in part, why Administrator Quarterman is not here 
today.
    I would be here either way, given the severity of this 
event. As I mentioned before, both Secretary LaHood and I take 
these safety issues very seriously. You can only lead from the 
top levels of the Department if you want to change the culture.
    Mrs. Miller of Michigan. OK, I appreciate that. And I want 
to give you time to respond, but I have a limited amount of 
time. I appreciate your statement. Could you answer about the 
reauthorization?
    Mr. Porcari. I should also point out Administrator 
Quarterman is on the ground today in San Bruno with that very 
significant incident.
    On the legislation itself, we are moving forward on a 
number of safety fronts. We are trying to do all of these 
simultaneously. We are trying to make up for lost time in terms 
of what needs to be done. We are also trying to make sure that 
the highest safety priorities are addressed as quickly as 
possible. This is one of those. In an ideal world, we would 
have had more time with this legislative proposal. We also 
thought it was important to understand, at least preliminarily, 
some of the lessons learned from this incident in the 
reauthorization proposal.
    Mrs. Miller of Michigan. OK, I appreciate that.
    Now, the last reauthorization actually doubled, almost 
doubled, the number of Federal inspectors for the pipelines. 
And you are asking apparently--again, I have not read through 
this since we just got it--but for an additional 40 inspectors. 
Do you happen to know if you hired all of the inspectors that 
were authorized during the last reauthorization?
    Mr. Porcari. We currently have 137 authorized positions for 
our inspectors and enforcement personnel. We are continually 
hiring because of turnover. Those 110 of the 137 are currently 
filled. We have a very aggressive plan in place.
    Mrs. Miller of Michigan. So you did hire all that were 
authorized then?
    Mr. Porcari. No. We have 110 of the 137 authorized, 
currently.
    Mrs. Miller of Michigan. So you have not hired as many as 
you have been authorized for?
    Mr. Porcari. Yes.
    Mrs. Miller of Michigan. So you are running short on 
inspectors.
    Mr. Porcari. We are running short.
    Mrs. Miller of Michigan. OK. Let me ask you this, then. You 
also have initiated 24 enforcement cases against Enbridge's 
Lakehead system in the past several years, yet you are stating 
in your testimony that Enbridge techniques used to manage their 
pipelines have not changed.
    Do you have any comment on that? Even though you are--I 
mean, you don't think they should change their management 
techniques? What is your thought on that?
    Mr. Porcari. Absolutely, we have very substantial concerns, 
and expressed them well before this incident, about Enbridge's 
management and operation, including the extraordinary step of 
summoning the CEO to a meeting where we could recount these 
previous issues and incidents and very directly ask the most 
senior management what they are doing about it. We followed 
that up with a meeting in the Kansas City regional office with 
the Enbridge senior officials, as well.
    I think it is fair to say that that kind of action is 
atypical, and it is part of what we want to do and are going to 
do to make sure that this is a safer system. We saw problems, 
and are moving to act on them.
    Mrs. Miller of Michigan. Thank you.
    And I would just have one further question then. I know I 
am running out of time here.
    In regards to the dent in the pipeline in the St. Clair 
River that I have been so focused on here, Enbridge actually 
has told us, told me at a meeting that they think that this 
dent might have been in there since the construction of the 
pipeline. I am not sure what your thought is on that.
    But in August of 2009 when they discovered it, some 40 
years after the pipeline was installed, apparently the dent 
meets the Federal regulatory requirements for a 60-day repair 
condition. And I have been told that you were apprised. I am 
not sure if it was you; somebody in your agency that understood 
this, informed about the dent.
    Do you have any comment on--I mean, obviously the 60-day 
rule did not happen here.
    Mr. Porcari. Yes, and thank you for asking that. My 
understanding is, first of all, inline inspection has revealed 
this for about 30 years, this dent. It is something we take 
very seriously. Enbridge has until September 26th to present a 
plan for how they are going to remediate that problem. That is 
when the 60-day clock will apply. We will hold them to the 
highest standard on that.
    I would also point out, however, that because it is work in 
the St. Clair River, the Corps of Engineers' and other 
permitting requirements will most likely apply. They will have 
to go through a permitting process.
    Mrs. Miller of Michigan. Depending on which one of the 
remediation--and I am going to discuss that when the Enbridge 
fellow comes here.
    Mr. Porcari. Correct.
    Mrs. Miller of Michigan. Three different--I met with them, 
and I will say that his story was different than yours, in 
regards to how long they knew about this dent.
    But I appreciate your--and thank you, Mr. Chairman.
    Mr. Oberstar. Thank you very much.
    Any additional material may be submitted by the witnesses.
    Now, the Deputy Secretary and Administrator Jackson both 
are due in the other body to testify. We have called to the 
Senate Committee and asked for a few minutes extra time. So I 
am going to ask Mr. Schauer and Mr. Garamendi to combine their 
time and be succinct. And then I would like to, before they go 
on with other witnesses, to then turn to Mr. Shuster, who may 
have some questions.
    So we would like to compress this time. We gave the local 
witnesses an enormous amount of time to express themselves, 
which I think is appropriate, but that also now cuts into----
    Mr. Shuster. I just want to remind my colleagues, this is 
the House. We are quicker, faster, briefer than the Senate.
    Mr. Oberstar. Better.
    Mr. Shuster. Exactly.
    Mr. Oberstar. Now, Mr. Schauer and Mr. Garamendi.
    Mr. Schauer. Thank you, Mr. Chairman. This is a very 
important panel. I will go right to Secretary Porcari and 
Administrator Jackson.
    I would like to thank you both for being present, very 
present in my district. To your respective staffs, it is good 
to see some of them in the room that have been fixtures in 
Calhoun County.
    This is an important panel because it will--we do play an 
oversight function, and this will help us make changes to the 
law that will hopefully prevent this from happening again.
    Secretary Porcari, I look forward to reviewing your 
legislation. I think that is ultimately the product of where we 
are headed with this.
    I am concerned, Mr. Secretary, about stalling from 
Enbridge. I will try to paraphrase, but they relied on a 
consultant at least to analyze an inline inspection, I believe 
from 2007. It took a year of back and forth between the 
consultant and the company to finalize that report. Enbridge 
knew of defects as a result of that inspection, but the 
question really goes to, what is the date of discovery?
    But here is how it applies here. At that point of 
discovery, the company requested a year to operate under 
reduced pressure. So there was a year of back and forth between 
the consultant and the company. Discovery was delayed. Then 
there was an additional year granted by PHMSA for them to 
operate under reduced pressure and decide what to do about all 
of those defects.
    I wonder if you can talk about that relationship discovery 
and even the reliance in your oversight of some of those 
consultants.
    Mr. Porcari. Congressman Schauer, that is a very important 
point because, from my vantage point, this has taken entirely 
too long. It is clear that twhen he year that Enbridge was 
entitled to under the law, the year of reduced pressure, was 
followed by a request, on July 15th, to extend that up to two 
and a half additional years it was a real source of concern to 
us. I should point out that we have formally notified Enbridge 
that we will not extend that.
    But this gets to the heart of how enforcement works with 
PHMSA. Given the staff that we have, we rely on our State 
partners, in most States, and we also rely on the inspection 
and recordkeeping that is done by the private-sector owners of 
the pipeline.
    It is clear that there are some lessons learned from this 
incident. We know that better recordkeeping, quicker 
understanding of the types of anomalies that can exist out 
there in the pipelines, and quicker action on that may or may 
not have made a difference here, but it certainly makes sense 
to push that as hard as we can.
    We know also that there are a number of aging pipelines 
like this throughout the country. We are trying to make sure 
that, whatever broader conclusions we can draw from this 
extended time period, we are applying them to other sections 
and pipelines as well, so that we can move as aggressively as 
possible.
    But hindsight is 20/20. It is clear that reduced pressure 
for an extended period of time is not a strategy.
    Mr. Schauer. Mr. Secretary, does PHMSA have too much 
discretion under current law or in its regulations in allowing 
companies to choose to operate under reduced pressure and, in 
some cases, for extended periods of times, rather than make 
repairs?
    Mr. Porcari. Congressman, one of the five steps that I have 
on my personal list on this, that I mentioned earlier, is the 
threshold for damage repair, which should inform the discussion 
and help drive us on that. Whether the current threshold is 
adequate or not really is an important question, because that 
would get to your question, which is how much time we would 
permit a pipeline company to have.
    Mr. Schauer. I am going to keep us going, since we are in 
lightning round. But I would assert that the current threshold 
is not adequate, where the company knew that there was a 
problem at this mile post where the accident occurred and was 
not required by your threshold to repair it.
    Finally, it is a comment and question. Thank you for the 
tough corrective action order within days of the incident. One 
of the statements that you made, which is telling, about your 
decision on the restart plan is that, ``The immediate--the 
corrective action was required because failure to order that 
would result in likely serious harm to life, property, and the 
environment.''
    My editorial comment is, it is a little late. But I would 
ask you to forecast for us where you are headed with the 
restart plan.
    Mr. Oberstar. Briefly.
    Mr. Porcari. Briefly, the restart plan, which is currently 
under consideration, is much more comprehensive than the 
original one that we rejected. We are adding the extraordinary 
step of requiring a third-party that is reporting directly to 
PHMSA to come in and provide technical expertise, oversight, 
and essentially look over Enbridge's shoulder throughout this 
process.
    We are also going through the extraordinary step of making 
this as transparent as possible for the community's benefit. We 
want to put on the web site as much information as possible, 
including the restart plan. It is not yet approved. Assuming 
that a restart plan is approved, there would be a gradual 
restart, not a light switch, but a restart if you will, where 
it would be restarted in phases.
    Mr. Oberstar. I am going to interrupt at this point. I had 
intended to have Mr. Garamendi and Mr. Schauer share time, but 
Mr. Shuster has a couple of points that he wants to raise. We 
will ask him to do that. Mr. Garamendi for a brief comment.
    We will then recess for these votes and resume after the 9/
11 ceremony to take testimony from Enbridge.
    Mr. Shuster. Thank you, Mr. Chairman.
    Just two letters that I want to direct to the Department of 
Transportation. One to Ms. Quarterman and Mr. Secretary, it is 
from my colleague in Pennsylvania, Glenn Thompson, who 
represents the northern tier, a town of Warren, Pennsylvania.
    He has a facility up there, United, that that pipeline 
directly feeds it. They are cut in half with the production in 
that facility. And there are 4,000 people employed there. He is 
urging PHMSA to do its review, obviously make sure all the 
safety is in place, but to restart that line as soon as 
possible because there are 4,000 people in that part of 
Pennsylvania whose livelihoods depend on it, and I am sure 
there are thousands across that line.
    So I will submit that letter on his behalf.
    Mr. Oberstar. Without objection, the letter will be 
included in the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8236.025
    
    Mr. Shuster. And also, to Secretary LaHood, Mrs. Biggert 
from Illinois, where the other spill occurred, she sent a 
letter on Friday and wanted to get as quick as possible a 
response from DOT with a number of questions. Here is a list of 
reported accidents, inspection reports, things like that.
    So we would hope that DOT could get Mrs. Biggert that 
letter, you know, in the next 24 to 48 hours. It looks like it 
is pretty straight-up information that she is requesting. So if 
you could do that, we certainly would appreciate it.
    And I appreciate the Chairman's consideration.
    Mr. Oberstar. The letter from Mrs. Biggert will be included 
in the record, without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8236.026
    
    Mr. Shuster. Thank you.
    Mr. Oberstar. She is a very dear friend and colleague. And 
I invited her to participate in the hearing, either as a 
witness or to sit with us. She is unfortunately not a Member of 
the Committee and not able to ask questions.
    Mr. Garamendi, do you have a question?
    Mr. Garamendi. I will be very, very quick with this.
    To Ms. Hersman, thank you for your testimony thus far.
    I understand investigations are under way. There will 
undoubtedly be lessons and information along the way that would 
inform us about the other high-risk pipelines in the area. I 
would hope that you would make that information available to 
California regulators, as well as to the utility companies, so 
they can immediately address any concerns that you find in your 
investigation and not wait for the final report.
    Ms. Hersman. Absolutely. California PUC is a party to our 
investigation, so they have access to all of the information we 
are discovering in our investigation.
    Mr. Garamendi. And the next question: Mr. Porcari, thank 
you very much for your work for bringing forth a proposed piece 
of legislation. I have asked the Chairman for a field hearing 
in California. We have enough pipe in California to keep us 
busy for a long time.
    Specifically, at that hearing, I would like to hear a--or 
maybe at the October 6th hearing--a full discussion about the 
role of the Federal Government in setting standards and the 
implementation of those roles by the various State agencies 
across the Nation.
    And, finally, I think we need to deal with urbanization. It 
is a major issue. It certainly was the situation in San Bruno. 
I know it is a situation in other parts of California. Do we 
need regulations for setback and protecting the public from 
urbanization over these pipelines?
    We are out of time. You can comment in writing and at the 
next hearing, which I understand may be October the 6th.
    Mr. Oberstar. Mr. Schauer has a 30-second intervention.
    Mr. Schauer. Administrator Jackson, please explain what the 
September 27nd cleanup deadline means. I am very concerned 
about that deadline being met and the additional residue and 
oil that will need to be cleaned beyond that.
    Ms. Jackson. Sure, Congressman. The September 27th deadline 
was in the original administrative order to Enbridge, and it 
says that all oil and residue must be removed from the creek 
and the Kalamazoo River. That would include areas like 
sediment--you know, oil that has entered into the sediments or 
vegetation.
    Obviously, that deadline is in front of us. And I will not 
speculate because it is an administrative enforceable order 
that the government has issued to the company. It was done, you 
know, because we felt it was important to put deadlines in, so 
people would understand that we were pushing this company to 
move as quickly as possible.
    That being said, they have already passed one deadline, 
which was the August 27th deadline that all oil be remediated 
at the site of the actual rupture and leak. And EPA has yet to 
make a finding as to whether they have completely complied with 
that. So the determination on whether they are in compliance 
with that enforceable order is outstanding on both of those 
counts.
    Mr. Oberstar. I would ask Mr. Masten and Ms. Scott, do you 
have any time limitations? Would you be able to return after, I 
would think it would be after 3:30, around 3:30? Are you 
available?
    Mr. Masten. Perhaps I could be. Just an airplane.
    Mr. Oberstar. What time is your flight?
    Mr. Masten. 3:45.
    Mr. Oberstar. Then you are not available.
    Ms. Scott?
    Ms. Scott. I could be if needed.
    Mr. Oberstar. We will ask you to return at 3:30.
    The Committee will stand in recess until after the 9/11 
ceremony and resume at 3:30 or as soon thereafter as possible.
    [Recess.]
    Mr. Oberstar. The Subcommittee will resume its sitting when 
we recessed for the votes and the 9/11 observance. I asked Ms. 
Scott to remain behind because Members have questions for her. 
And we will turn to Mrs. Miller, who was next in line.
    Mrs. Miller of Michigan. Thank you very much, Mr. Chairman.
    And, again, Ms. Scott, we certainly appreciate you coming. 
And I listened to your testimony when you said you became an 
expert in an issue that you weren't previously an expert in 
probably, with the horrific thing that happened in Calhoun 
County therein. I am well familiar with Calhoun County, even 
though I don't have the pleasure of representing it in 
Congress. As you know, being the former Secretary of State, 
been there many, many times. I was through Marshall during the 
time that this incident was being attended to, et cetera, and 
had an opportunity to talk to a number of people downtown and 
around. And I certainly am appreciative of you coming.
    You mentioned, though, about the emergency response and 
whether or not Enbridge--how they didn't contact the county or 
the consolidated dispatch, that they only were required to 
notify the National Response Center after the pipeline spill. 
And I am just wondering if you could flesh that out a bit for 
me on how you think that could be improved.
    I don't know if you heard my comments. During August when 
we were home, I had an opportunity to meet with the Enbridge 
officials. And that was one of my biggest concerns, was the 
communication loop with counties, with the county, with first 
responders, with emergency management in some of my counties, 
because I am concerned about the dent in the pipeline under the 
St. Clair River. And I am going to talk about that when we have 
an opportunity in the next panel with the fellow from Enbridge.
    But, as somebody on the local level, front lines, what was 
your thought about how the notification process and the 
notification protocols that are required were followed?
    Ms. Scott. Sure. I guess our thought is that the county was 
actually--consolidated dispatch authority, which, again, is 
separately governed from what I would be responsible at the 
county. But they indicate that they were notified really only 
because the individual from Consumers Energy called 911 and 
reported that they did actually find oil leaking on the morning 
of July 26th.
    And so, our thought process is, you know, if there was any 
potential for Enbridge or anyone else who may have been 
notified sooner to call the county directly, possibly the 
process of notifying other local officials and/or dispatching 
the appropriate HAZMAT response and other teams could have 
started sooner. And/or when we started to get the 911 calls 
from local residents with the odor complaints that possibly if 
there would have been any sort of heads-up that there had been, 
you know, any concerns with pipelines, even though there was no 
confirmation of a leak, that they may have been able to put two 
and two together.
    And some of that is just hindsight is 20/20.
    Mrs. Miller of Michigan. Right. You know, in my meeting 
with Enbridge, I asked them for, you know, the kinds of safety 
information that they put out. And I have a couple of 
brochures, which I will share with the Committee. And this is 
for emergency responders, local public officials. I said, what 
do you actually send to the first responders? And they were 
giving me some of this information. And then I said, in my 
case, who do you talk to, and had them give me a list of all 
the first responders in my district that, you know, would be 
interested in the pipeline and who the contact was, et cetera.
    But it is interesting, in light of what has happened in 
Marshall and the attention that has been given even to the dent 
in the St. Clair River portion of it, that my first responders 
don't seem to know who to call from Enbridge. And I don't know 
if that is what happened in your case. But, you know, you are 
wondering about people, whether or not--who is notifying whom. 
It is very important that the first responders would have an 
immediate contact person at Enbridge. And perhaps they did, 
although I am finding that I don't think that was as clear as 
it could be to the local first responders.
    And I did mention subsequent to that now in 2 or 3 weeks we 
are putting together a meeting in my district with all of the 
first responders along the affected area, both on the U.S. Side 
and the Canadian side. Thank God we haven't had an incident 
yet. We don't want to have an incident. We are going to be 
talking about what is going to happen with that dent. But 
whether this or anything, quite frankly--I mean, you are not 
going to have enough boom to respond immediately and probably 
shouldn't have all of that. But you need to know where to get 
it immediately and have, as I say, the notification protocol, 
et cetera.
    So I would just, sort of, mention that to you. I don't know 
what your thought is. I mean, are you familiar with getting all 
these kinds of brochures? I am sure they sent the same brochure 
to everybody.
    Ms. Scott. I would think so. And, again, you know, in 
hindsight, we know now that all of the pipeline owner 
information is readily available online, the pipeline maps. 
There are regular--and I don't know how regular--meetings with 
first responders that specifically meet with pipeline owners.
    I think it has more to do with, you know, direct 
notification and whether it should come from the company or 
what you are referring to, which is, do we know who to call? I 
think they are two different questions.
    Mrs. Miller of Michigan. Uh-huh.
    Ms. Scott. And I think, from the local perspective, it 
would be better to get a direct heads-up from the company and/
or, if they call the National Response Center, could they then 
notify the locals. Because, honestly, we were notified through 
the 911 call from Consumers Energy.
    Mrs. Miller of Michigan. Thank you very much, Mr. Chairman. 
I appreciate it.
    And I thank you again for coming to Washington. And we 
appreciate all of the work that you have done on the front 
lines and appreciate your testimony here to the Committee.
    Ms. Scott. You are welcome.
    Mr. Oberstar. Thank you.
    And now the Chair recognizes Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman.
    Kelli, thanks for hanging around. I appreciate it.
    Kelli, you live in the community too. And we have bumped 
into each other at official functions, at even things like high 
school graduation open houses. And I know you care very much 
about the county that you serve, and you do it very well.
    I want to publicly thank you and all of those who are part 
of Calhoun County government that have been a part of the 
response in the overall effort, from the sheriff's department, 
the emergency response coordinator, the health department, the 
road commission, and others that I am sure I am forgetting. You 
are under-resourced and certainly struggling during a tough 
budget time--you noted that earlier--of declining property 
values. And the unimaginable happened. And your people have 
been working almost 24/7, and I want to publicly acknowledge 
that and thank you for that. And I hope you will take that back 
from this Committee and from me.
    I did want to ask you a couple of questions, sort of, 
following on what my colleague from Michigan was asking about, 
was, sort of, do you know who to call?
    And my observation was, you know, the 911 calls were 
starting 9:26 p.m. Sunday night, and then subsequently there 
were--there are two natural gas pipelines in that area, and 
they were both out there at different times. There was a 
mysterious truck that some thought was Enbridge. It was 
actually Michigan-Indiana Gas, I think, is the company. And 
then, of course, Consumers Energy was out there.
    Do folks locally within coordinated dispatch and so forth, 
do emergency responders know that--or did they know prior to 
Sunday July 25th that that Enbridge oil pipeline was there?
    Ms. Scott. I am told that the consolidated dispatch does 
have pipeline maps, albeit they were not online on their GIS 
system. They did have paper information and information about 
the pipelines.
    I guess one point to note is that our consolidated dispatch 
center did not start operating until March or April of this 
year. So it is fairly new in consolidation, and so the dispatch 
operators came from other local communities. I mean, there is 
that dynamic, as well.
    But they did have pipeline maps and definitely dispatched 
the proper fire response from the local units. And they did go 
check out and they did, on the record, have conversations 
about, well, it is not natural gas, it does smell like crude 
oil, petroleum, something; simply were unable to locating 
anything. And, again, it was 10:11 p.m. Before they were out 
there.
    Mr. Schauer. And I am not finding fault at all with our 
local responders, but--and this may be, Mr. Chairman, something 
we have to look at in the law, as far as the local role, that 
first responders, dispatchers know exactly what that 
underground infrastructure is and have that emergency contact 
information. Because, apparently, Enbridge wasn't called until 
11:18 the following morning by an official from Consumers 
Energy. So I think that is something we have to learn from.
    I want to just ask you--this is really the big question. 
You talked about Calhoun County's assets, its recreational 
assets. And you, I think, asked the question rhetorically 
yourself, can this community ever be made whole at a time where 
there are declining property values?
    And one thing I want to mention is that people who are 
being offered the purchase of their home are required to have 
an appraisal done. That is fair, sounds fair. It is a down 
market. So if someone's property has been contaminated or they 
are fearful, legitimately, that they would never be able to 
sell their home in the future--there are disclosure 
requirements in terms of selling your home, right? You have to 
disclose any contamination. So, essentially, they are being 
forced to sell their home in a down market, a very, very 
difficult prospect.
    Here is my question: Can you even try to estimate the 
overall economic impact on our community and, you know, whether 
the company could ever really make the community whole, 
economically?
    Ms. Scott. I think I started in my opening statement by 
saying, at this point, we have more questions than answers. And 
that is the big question. I think that is precisely why our 
county commission voted to establish this local task force or 
authority, where we can garner some expertise from those 
involved in economic development, we can talk to the 
economists, we can start to build a baseline for what our 
economy is right now, some of the indicators that will need to 
be measured. Because, as you noted, the real estate appraisals 
are being done according to normal real estate practices and 
appraisal practices, and the sales are being recorded 
accordingly.
    The county's role in that is, from an equalization 
standpoint, when we go to equalize property values county-wide, 
we have to look at sales studies. And so it may not be for, you 
know, 1 to several years before some of the affected properties 
get sold and we figure out or we try to estimate what they may 
have been sold at if there were no oil spill versus what they 
are really being sold at. If we start to see evidence that 
businesses are choosing not to come to town, that will be 
factored in.
    But I think we are really committed to a data-based 
approach to this, where we actually create a baseline, start to 
measure, and then the cause and effect will still be difficult 
to calculate. We have about a $4 billion tax base in the 
county. Some of the properties that were affected were not just 
residences but businesses, as was noted earlier, including at 
least one golf course that is right on the river that is 
currently for sale.
    So, honestly, it is tough to say. And we still have faith 
that whatever can be documented and measured as far as economic 
impact will be made whole by Enbridge.
    Mr. Schauer. I do have another question. We understand that 
Enbridge provided the county with a material safety data sheet 
on heavy oil that provides direct guidance and emergency 
response and evacuation--or direct guidance for the purposes of 
emergency response and evacuation. Unfortunately, it is not the 
real material safety data sheet of what was in the line at that 
time. The real one, which we obtained, is much more descriptive 
of emergency response and recommends an immediate, mandatory 
1,000-foot evacuation.
    Does that concern you, that the county that is responsible 
for public health wasn't provided that real material safety 
data sheet? It was provided to the EPA later, but not to the 
county.
    Ms. Scott. I do know that what is on our Web site and what 
we obtained from Enbridge is what was considered more of a 
generic materials safety data sheet, and that we, from a county 
health standpoint, we didn't work alone in the decisions to 
evacuate, that we had the State's assistance, with their 
toxicologists, the department of community health. And so it is 
hard to say that, if we would have had different information 
earlier, you know, would the evacuation process have been 
different. And, again, that was a very difficult decision, 
whether to mandate evacuations or to make them voluntary.
    That is one lesson learned that we will probably continue 
to reflect on. I think we did the best with what we had to work 
with.
    Mr. Schauer. Well, I am going to answer my own question. It 
is a concern to me. And it would help you and people like Jim 
Rutherford, the county health officer, make decisions much more 
quickly. To have a generic material safety data sheet is not 
helpful.
    This was--I am trying to find the--this is Cold Lake blend 
heavy oil, including naphthalene as a diluent. The material 
safety data sheet--and we have it there; that is the real one, 
as opposed to the generic one--requires mandatory evacuation 
for anyone within 1,000 feet.
    So I think a disservice was done to Calhoun County and a 
disservice was done to the people that were affected. And that 
200 feet that was derived around, you know, safe wells and safe 
drinking water seems to also be used for the purposes of this 
company to determine who should be compensated and who should 
not be.
    Ms. Scott. I can't argue with that.
    I would want to clarify on the issue of the 200-foot 
buffer, that was specifically only for the water quality issue 
and the drinking wells, and was strictly precautionary, that 
there were no drinking water quality issues found by any of the 
environmental experts.
    In effect, the larger red zone that was referred to, which 
was used for purposes of the voluntary evacuation, was much 
larger than 200 feet from the river and could have been--and I 
don't think we have the measurements yet, but it was closer, if 
not more than, the 1,000 feet.
    So I think that will all need to get clarified. But it is 
my understanding that the red zone that was developed may 
actually be in compliance with the one--although it wasn't 
mandatory.
    Mr. Schauer. It was voluntary. And that, I think, came 4 
days later. Again, I am not finding you or the county at fault 
at all. You didn't have the information.
    So, Kelli, thank you so much. I hope you and your husband 
get to enjoy Washington a little bit before you fly home.
    Ms. Scott. Thank you.
    Mr. Oberstar. Thank you very much, Ms. Scott, for your 
testimony and your patience all throughout this, waiting 
throughout this long day.
    Ms. Scott. Thank you.
    Mr. Oberstar. Our next witness and final witness of the 
hearing is Mr. Patrick D. Daniel, president and chief executive 
officer, Enbridge, Incorporated.
    Welcome, Mr. Daniel. Thank you again for waiting throughout 
this day. I will now administer the oath.
    With regard to the testimony that you will provide to the 
Committee on Transportation and Infrastructure today and all 
subsequent Committee communications concerning this hearing, do 
you solemnly swear to tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Daniel. I do.
    Mr. Oberstar. Thank you. You are sworn in. And we look 
forward to your testimony. If submit any additional material 
for the Committee record, it will be received for our hearing 
purposes. And you may begin.

 TESTIMONY OF PATRICK D. DANIEL, PRESIDENT AND CHIEF EXECUTIVE 
                    OFFICER, ENBRIDGE, INC.

    Mr. Daniel. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to discuss the rupture of Line 6B near 
Marshall, Michigan.
    Mr. Chairman, from day one, I have personally apologized 
for the mess that we made in Marshall and Battle Creek. Since 
July 26th, I have made it my personal mission to take full 
responsibility for cleaning up the spill and addressing all 
impacts on the environment and on individuals and businesses in 
Marshall, Battle Creek, and the surrounding area.
    For the past 7 weeks, I have met with hundreds of 
residents, first responders, and government officials. I have 
participated in numerous public meetings, talked to residents 
on the street, and visited in living rooms with the families 
most affected.
    The people of Marshall and Battle Creek have been open, 
they have been understanding, and they have been warm, despite 
very difficult circumstances. They have offered encouragement. 
They have shared their thoughts on how we can improve. And even 
some of our most vocal critics have been willing to sit down 
with me to work out solutions. They have treated Enbridge and 
our cleanup crews as neighbors, and we are doing everything 
possible to be a good neighbor in return. But nothing short of 
restoring the area to the satisfaction of regulators and to the 
community will be enough.
    Thanks to the dedication of emergency crews and the 500 
Michigan residents that we put to work, the spill was quickly 
contained and we are now well on our way to remediating it. 
Throughout, we have worked with local mayors and sheriffs and 
State and Federal officials. And I thank them very much for 
working cooperatively with us.
    Mr. Chairman, for Enbridge no spill is acceptable. We are 
committed to upholding the highest standards for pipeline 
safety and integrity, and we will continue to invest heavily in 
safety.
    I am proud to say that we have approximately 2,200 
employees in the United States. We deliver approximately 12 
percent of the total daily imports of crude oil into the United 
States. That is more than Venezuela, Saudi Arabia, or any other 
country.
    Even though we built our business in the oil and gas 
industry, we are also investing heavily in green energy, 
including seven wind farms and North America's largest 
photovoltaic solar facility.
    Now to Line 6B. Upon confirmation of the release of oil, 
the pipeline was isolated. Crews began installing containment 
boom that is stored in Marshall, Michigan. Teams from our 
regional offices throughout North America arrived that day, and 
I arrived that night. We mobilized as quickly as we could so 
that anyone affected would have housing and medical care at our 
expense. We provided direct assistance for prepaid hotel stays, 
equipment, and services. We reimbursed individuals for cost-of-
living and other expenses. And we established a home purchase 
program.
    In doing so, we sought to establish a fair, reasonable, and 
efficient process with as little bureaucracy as possible. Even 
though we believe the process that we put in place was fair, we 
recently engaged former Michigan Supreme Court Justice Dennis 
Archer to evaluate the claims process and to make 
recommendations.
    Before closing, I would like to talk about the recent spill 
on Line A in Romeoville, Illinois, and then about an issue of 
particular interest to Representative Miller.
    On September 8, a leak was discovered on our Line 6A in 
Romeoville. We also understand there was a leak in an adjacent 
water main. Our line was immediately shut down and the oil 
contained. Nearly all of the oil has now been recovered. The 
cause of that line break is under investigation by the NTSB.
    With respect to the St. Clair River dent, an internal 
inspection in August of 2009 indicated the existence of a dent 
in Line 6B where it crosses under the river. Because that site 
is very difficult to access, we immediately lowered the 
operating pressure to 50 percent of maximum allowed pressure to 
be conservative while we completed a comprehensive engineering 
assessment.
    The likelihood that that dent will cause a leak is very 
remote. It is smooth, without evidence of corrosion or 
cracking. The pipe at that point is twice as thick as normal 
and is protected by concrete and engineered gravel. 
Nonetheless, Enbridge is committed to replacing or repairing 
that segment of pipe, and we will submit our proposed plan to 
the regulator by the end of this month for doing that.
    In conclusion, Mr. Chairman, let me reiterate that for 
Enbridge no spill is acceptable. We understand that we must 
hold ourselves to the highest standards of openness and care in 
the communities where we operate. We have been serving 
America's energy needs for 60 years, and we intend to be a good 
neighbor for decades to come.
    Thanks again for the opportunity to share our perspective.
    Mr. Oberstar. Again, thank you for being with us. I know it 
is in your best interest to be here and to be open and 
accountable.
    And you have noted the very considerable efforts made 
locally to make people whole, but you also heard the testimony 
earlier today by the families and the victims of the aromatic 
hydrocarbons, benzene and other vapors that caused illness, 
caused disorientation, severe problems for residents; the 
business owner whose assortment of carpeting was so infected by 
the spill vapors that they had to shut the business, couldn't 
sell product.
    You have a huge hill to climb to make communities whole 
again, to make individuals whole again. And your statement 
makes it clear that the company will do so. And I took special 
note of your comment, no spill is acceptable.
    And yet, when we took testimony prior to this tragedy, Mr. 
Adams, Richard Adams, vice president of U.S. operations for 
Enbridge, testified, quote, ``Our response time from our 
control center can be almost instantaneous, and our large leaks 
are typically detected by our control center personnel. They 
can view that there is a change in the operating system, and 
there are provisions that, if there is uncertainty, they have 
to shut down within a period of time, and that would include 
the closing of automatic valves.''
    And yet this spill went undetected for, or unresponded to, 
a very long period of time. That is a serious departure from 
the testimony that was given by Mr. Adams. And it is something 
that should have been acted on, as he said, almost 
instantaneously.
    I gave the example of the spill in the Koch oil pipeline in 
my district, in Little Falls, just outside of Little Falls, 
where within half an hour the line was shut down. And within 
minutes of seeing the anomaly on the screen in their 
headquarters in Oklahoma, the company was beginning to take 
action. They got a call from the sheriff's department. They 
didn't wait hours or days.
    Why did it take so long to shut off that pipeline? Why were 
there not proximate shutoff valves both up- and downstream of 
this spill to prevent this huge loss of product and its 
consequential environmental as well as human effects?
    Mr. Daniel. Mr. Chairman, as I indicated, absolutely no 
spill is acceptable, and this is, by far, the worst spill we 
have had in the history of our company. We are currently 
working very closely with the NTSB, as indicated earlier, to 
find out exactly the cause, to go through the timeline to find 
out what the cause of the leak was. We have our own independent 
investigation under way, as well. We are working as a 
participating party with the NTSB. As you know, they have the 
pipe in their lab.
    We want to find out more than anyone else why that pipe 
failed and all of the circumstances leading up to it. So we are 
working very hard on doing that.
    Mr. Oberstar. But you didn't answer my question. Why was 
that--where is the nearest shutoff valve?
    Mr. Daniel. The nearest shutoff valve is just upstream at 
Marshall station. So, as soon as we were notified of the leak, 
the shutoff valves were closed.
    Mr. Oberstar. How were you notified, though? Don't you have 
your own internal company monitoring systems to detect a drop 
in flow?
    Mr. Daniel. The leak was first brought to our attention, as 
indicated by NTSB earlier, at 11:16. We shut the system down, 
and we had confirmed by 11:45 that that leak had occurred.
    Mr. Oberstar. But you didn't have an internal control 
system to tell you that it had failed?
    Mr. Daniel. Chairman, the pipeline was shut down overnight, 
and that was part of normal operating practice. It was not 
operating. And it was when they tried to start the pipeline up 
that the leak was notified.
    Mr. Oberstar. Now, you were notified of and reported 
defects that total up to 329 defects in this segment of 
pipeline, but asked the agency, PHMSA, for time to reduce the 
pressure, rather than immediately act to cure those defects. 
Why did the company take that decision?
    Mr. Daniel. Mr. Chairman, the normal process that is used 
in inspecting a pipeline, as you know, is to run internal 
inspection tools through the line looking for corrosion, 
looking for cracks, or looking for geometric deficiencies in 
the pipeline.
    Even a brand-new pipeline will have a certain number of 
anomalies in the pipeline or effects. And then what you 
normally would do would be to track those over time. And, as a 
result, we have a very extensive program for doing that inline 
inspection and tracking of those. It doesn't mean that every 
anomaly would require repair. They do over time. And we were in 
full compliance with that repair criteria.
    Mr. Oberstar. But your supervisory control data acquisition 
report in response to the questions, did your SCADA, your 
control and data acquisition report, did its information, such 
as alarms, alerts, events, and volume calculations, assist with 
detection of the accident? And the company's response was 
``no.'' So you are saying that your own internal operational 
control systems were not supportive, were not operational.
    Mr. Daniel. Well, that is all part of our investigation in 
conjunction with the NTSB as to the exact cause and the timing 
of events that led up to the incident.
    Mr. Oberstar. In August of last year, an internal 
inspection showed that a dent existed in the pipe where it 
crosses the St. Clair River, something Mrs. Miller is very 
concerned about. But your company analysis report that we have, 
the Committee, had likely been there for 40 years. Why it was 
not discovered prior to that time? Why was it not inspected? 
Why haven't you done something about it?
    These kinds of incidents, that the numbers of defects that 
are discovered in the line and on which action is not taken, 
are serious failures in safety management.
    Mr. Daniel. And, Mr. Chairman, with regard to the dent 
under the river, as you are indicating, it was confirmed in 
August of 2009, and it was confirmed to be a smooth dent. And 
the reason why it was detected and confirmed in 2009 was as a 
result of the progression in technology for inline inspection 
that has occurred over the years.
    And the analogy that I have used with many people is that 
we have gone through a similar progression as the medical 
profession has, from X-Ray to CT to MRI. Our technology keeps 
getting better. And in 2009 the nature of this feature was 
identified as a smooth dent with non-injurious indications.
    We immediately did a full engineering assessment, with both 
crack and corrosion detection, to make sure there were no 
injurious impacts on that smooth dent. But even at that, we 
reduced the pressure to 50 percent to be extra cautious while 
we put the repair replacement program in place.
    Mr. Oberstar. For how long a time would you retain reduced 
line pressure?
    Mr. Daniel. We will remain at reduced line pressure until 
that line is either repaired or replaced. And we will have the 
repair replacement program filed by the end of this month with 
the regulator.
    Mr. Oberstar. Thank you.
    I will now turn to Mrs. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. And I am 
just going to follow right up on what you were just asking 
about, in regards to the reduction of the pressure because of 
the dent.
    Now, I am not going to ask you, Mr. Daniel, any questions 
about the Marshall, Michigan, spill because my colleague, Mr. 
Schauer, is well prepared to do that. But I am going to focus 
on the dent, since it is my district and I am very interested 
in that. And I would appreciate the staff putting up the 
overhead so everyone can see again why I have such a big 
interest in what the dent means.
    But just in the previous panel we had Deputy Secretary 
Porcari, who testified that--he said PHMSA knew about the 
anomaly, the dent, since 1978, is what he said. And now you are 
indicating you didn't know about it until August of 2009. What 
is the discrepancy there?
    Mr. Daniel. Congresswoman, my understanding is that--and I 
believe last week when our people met with you, they indicated 
that anomaly most likely has been there since the line was 
installed, as indicated earlier. It wasn't clearly identified 
as to what the nature of the anomaly was until August 2009 when 
we filed that with the regulator.
    Mrs. Miller of Michigan. Now, in regards to the flow and 
the reduction by 50 percent in an abundance of caution, I 
suppose, additionally you were asking for a 2-1/2-year waiver 
to continue that flow; is that correct, at 50 percent?
    Mr. Daniel. I must admit I don't know whether there was a 
2-1/2-year request on that. But I do know we will be filing by 
the end of this month with a plan to repair or replace it.
    Mrs. Miller of Michigan. Could you talk a little bit about 
the possible remediations for that dent?
    And when you file your plan at the end of this month, 
again, as we are looking at that pipeline, which is the red for 
those that are looking at the overhead there, and the dent, 
which is identified close to the U.S. side, about 300 feet 
offshore there, that is about maybe 30, 32 foot of water, 
depending on the water levels, I suppose. And the pipe is 15 
feet below the riverbed, as I understand it. And then it is, as 
you mentioned, encased in concrete, pea gravel, whatever your 
construction techniques were all those many years ago. And the 
pipe, if I am not mistaken, is 30 inches, and it is a half-an-
inch thick. So it is thicker than you would normally have.
    Mr. Daniel. Yes.
    Mrs. Miller of Michigan. And the dent is 12 inches long and 
almost 7 inches wide. So however the dent got there, it is very 
difficult for us to understand how could you have had a dent 
after the construction of the pipe. So perhaps it did happen 
during the actual construction. I mean, the freighters going 
through, even if they were dragging an anchor, how are they 
going to dent a pipe that is under concrete, et cetera? It 
doesn't make sense. So, I appreciate that.
    Now, your fellows, your staff was telling me that you have 
got three different possible remediation plans. And one of them 
would be to--and I guess I am asking you to correct me if--I am 
trying to understand what you might be suggesting at the end of 
this month.
    One of them would be to drill under the river there and 
replace that section of the pipe. And I mention that that would 
immediately set off a lot of alarms, I think, just because, 
from an environmental standpoint, I mean, everybody in the 
Great Lakes Basin is just up in arms about any kind of drilling 
under the Great Lakes for gas or oil, although that is not what 
you would be doing here.
    Mr. Daniel. Right.
    Mrs. Miller of Michigan. Still, you can think about the 
public's concern about that. I am not quite sure how long the 
permitting process would--I mean, just the public hearings on 
that alone. But I am sure there would be a lot of debate about 
that.
    And, secondly, that you would, as I say, replace that 
portion of the pipe, as was explained to me, which would 
necessity possibly actually closing the shipping lane there. 
And the Chairman is well aware of what a critical component the 
shipping is of not just Michigan but the entire basin. And so 
there would be, obviously, a lot of hesitancy about that.
    And then again, with this 30-inch pipe, it was indicated to 
me that one of your remediation plans and possibly what you 
would be recommending would be that you would actually insert 
then a different, maybe a 21-, 22-inch, I forget, pipe inside 
that section, which would seem to me, as a layman, to be the 
easiest.
    Now, I don't know if that is what you are going to be 
recommending. I don't know, if you do recommend that, what that 
means to you monetarily. I don't know what the psi is there 
with that, as opposed to the 30-inch. I don't know how much 
you--can you pump enough oil to continue to do what you need to 
do for your company? I am not sure.
    I guess those are my questions. I know you are going to be 
answering us in a couple of weeks, but can you tell us a little 
bit about some of these things as you are going through your 
decision-making process?
    Mr. Daniel. Yes. Well, I can briefly outline that, 
Congresswoman. And, again, I have been so focused in Marshall 
over the last 7 weeks, myself, that I have not been through 
those three engineering alternatives in detail.
    But you are right, those are the three different 
alternatives. And we will be assessing every part of each one 
of those, as you indicated.
    The total replacement of the line involves boring under the 
river. And you are absolutely right that the permitting process 
is probably the biggest challenge there, because it is a very 
congested area and it will take time to get permitting and room 
in order to be able to do that.
    Mr. Daniel. So that option is being evaluated.
    The one of pulling the smaller pipe through is certainly 
one that, on the surface, seems to work very well. It sometimes 
creates challenges with regard to cathodic protection of a 
pipeline, when you have a pipe within a pipe. So we are 
assessing that, as to whether that will lead to further 
problems down the road.
    But those are the three alternatives that we will work our 
way through, and we will put forward at the end of the month 
the recommended one with the other two alternatives. And, 
believe me, our interest is in the safety of the line, and the 
cost is not relevant. We will do whatever is right.
    Mrs. Miller of Michigan. With the Chairman's indulgence, if 
I could just ask one final question.
    Mr. Oberstar. We will continue for another couple of 
minutes, and then I will call on Mr. Schauer, and then we will 
come back to you after that.
    Mrs. Miller of Michigan. OK. I will just ask one final 
question.
    Mr. Daniel, one of the things that we have in that 
immediate locale, although you can't see it from the overhead, 
but slightly upstream from that is the largest concentration of 
petrochemical plants in our hemisphere, I think, perhaps next 
to New Jersey. So we have had a lot of incidents, 
unfortunately, with chemical spills over many, many decades.
    And, as a result of that, in the last several years, we 
have installed now a real-time water quality monitoring system, 
which has been located now--there are seven water intake pipes 
along the St. Clair River. One of them is just a football field 
from that dent, in Marysville. And then we have now extended 
that through Lake St. Clair, all the way down the Detroit River 
into Lake Erie.
    And I mention this because notification has been a big 
topic of concern today. And by having this system, we have all 
the water plants sampling every 15 minutes. And they are 
sampling for 28 different types of whatever, whether they are 
sewage contaminants, various types of things, you know, 
polymers, whatever might come out of there.
    And it is interesting, since we have put these in place, I 
don't know if it is serendipity, coincidence, now that all the 
chemical plants know that we are going to know when it happened 
and where it came from, guess what? Almost no more chemical 
spills. It is really been a wonderful thing.
    However, I was just notified today, the Macomb County--
which is right downstream from there--Water Quality Board 
apparently had a meeting last night. And your company was 
represented there. And they were asked by the County Water 
Quality Board to participate in a public-private partnership, 
financially. They asked you for some financial assistance to 
continue this monitoring system.
    And I would just urge you to consider the request that came 
from the Macomb County Water Quality Board because it is a 
very, very important thing. And notification is absolutely 
optimal. And it would seem to me almost in your best interest, 
as well.
    Mr. Daniel. Yes.
    Mrs. Miller of Michigan. So I just ask that, as well.
    And, Mr. Chairman, I thank you very much for your 
indulgence and time. Thank you.
    Mr. Oberstar. It is a very, very important subject 
nationally and especially for Michigan, where the tragedy has 
occurred.
    I will now call on Mr. Schauer, but ask the gentleman to 
take the Chair while I step out for some other Committee 
business.
    Mr. Schauer. [presiding.] Thank you, Mr. Daniel.
    This gives me no joy, to go through this process. I would 
much rather be spending time helping businesses create jobs, 
helping communities grow and be healthy. But I remember when we 
first met--I am sure you do, too--was at the cafeteria at 
Marshall High School, and you asked me to hold you to the 
highest possible standard. And that is what I am doing.
    I want to touch a little bit more on the question of 329 
known defects. And I want to add to that--well, these are 
additional known defects on top of the 329 that were 
unrepaired, such as that at milepost 608 in Marshall, south of 
Marshall. That didn't meet PHMSA's threshold.
    We know that you had been operating under reduced pressure 
for a year while considering what to do about them. And we know 
that, 10 days before the incident occurred, your company had 
asked for an additional 2-1/2 years to consider what to do. 
That doesn't give me great confidence.
    And I hear your statements about safety being the number-
one priority, but here is the question: When are you going to 
repair these defects?
    Mr. Daniel. Congressman Schauer, the repairs areunder way. 
And we have had a very active dig and repair program through 
the summer this year. As a matter of fact, there were dig and 
repair work programs under way in the Marshall vicinity at the 
time of the leak.
    So we established with PHMSA those defects that did require 
inspection. We are in the process of going in, digging up each 
location to determine whether there was a defect. If no defect 
was present, then we didn't do anything. If there was a defect 
that met the repair threshold, then those repairs were made.
    So that program was under way at the time and continues to 
this day.
    Mr. Schauer. Now, for all 329 identified and unrepaired 
defects within Line 6B, you are telling me that all 329 were 
under the process of repair or inspection to determine if 
repair was necessary?
    Mr. Daniel. No. Sorry if I misled. Not all simultaneously. 
We started a program of going in and inspecting those defects 
in the line and doing the repairs in an orderly fashion. But, 
no, obviously, not all simultaneously. I didn't intend to say 
that.
    Mr. Schauer. So when will they all be repaired?
    Mr. Daniel. Well, that is something that we are working on 
with PHMSA on exactly what the timeline needs to be for the 
repairs. As you know, we reduced the pressure in the line while 
we were going through the repair program and as a result of 
just having done the hydro test on one section of the pipeline. 
Then we will start up at further reduced pressure going 
forward.
    Mr. Schauer. Well, I am sure you know that I have asked 
PHMSA and the Department of Transportation to make sure that 
every inch of that pipeline is inspected and every defect is 
repaired. I have said it at the community meeting in Marshall, 
with you present, that I have no confidence that Enbridge can 
operate this pipeline safely, certainly not until all of those 
defects are taken care of.
    I want to talk to you about, you know, a vendor you have 
used for inspections back to the 2007 inline inspection. And I 
mentioned this earlier to Secretary Porcari about a vendor 
reported back to you in April of 2008, and a revised report 
was--in which it indicated a number of these defects. A revised 
report was issued in September of 2008, a third revision in 
December of 2008, and a fourth revision to the report in May of 
2009.
    Why did this occur? This goes directly to discovery and to 
decisions that need to be made about these defects. That seems 
to be a game where the can is kicked down the road. That was a 
year's time that delayed the possibility of any repairs.
    Mr. Daniel. Congressman, my understanding is that, as a 
result of running the inline inspection tools through the line, 
there is a very large volume of data generated because it does 
a millimeter-by-millimeter analysis of the wall thickness and 
any defects in the pipeline.
    And I believe, if I am understanding your question 
correctly, that the delay was with the vendor as a result of 
the time taken in order to inspect all of the data, the huge 
volume of data that they get back from these runs.
    Mr. Schauer. Can you explain why your company asked for an 
additional 2-1/2 years on top of the 1 year you were operating 
under reduced pressure? If safety is your number-one priority, 
why were you not committed to making repairs rather than 
operating for another 2-1/2 years on Line 6B under reduced 
pressure?
    Mr. Daniel. Well, the program was one that was agreed to 
with the regulator. And by reducing the operating pressure, 
reducing the likelihood of any failure in the pipeline while it 
was undertaken as a result of the disruption associated with 
the digging program. But that was with the regulator.
    Mr. Schauer. I want to be clear. You are not saying that 
the regulator had approved an additional 2-1/2 years, are you?
    Mr. Daniel. I am sorry, I can't answer that. I don't know.
    Mr. Schauer. No, they had not. They had not. That was a 
request that was made 10 days before the spill occurred. It was 
July 15th.
    I also want to ask about--you know, you sent a worker to 
the site about 9:41 in the morning on Monday, July 26th. Drove 
around, I am not sure he got out of his car; he said he could 
smell nothing. Everyone in the area stated that there was a 
very strong smell, almost stifling.
    What was your person doing out there?
    Mr. Daniel. Well, the individual, I believe, was part of 
the normal operating crew. We have, I believe, 8 or 10 people 
at the Marshall station. But I can't speak to the specifics 
around any action he was taking at that time. He obviously 
conducted the inspection as requested.
    Mr. Schauer. Just one more note on the operating under--
your pipeline was operating at 80 percent of pressure. That is 
a pressure reduction. It had been for a year. And, again, there 
was a 2-1/2-year extension requested that had not been 
approved.
    This accident, this--I don't know if you saw the pipe 
yourself. I did. It is a 6-1/2-foot-long rupture. The pipe tore 
open. Why should the people of Calhoun County or the people of 
Michigan have any confidence that your policy of operating 
under reduced pressure, including under the St. Clair River, 
actually is safe?
    Mr. Daniel. That is exactly what we want to find out from 
the NTSB investigation. And it is very important--in fact, more 
important to me than anyone else--that we find out, as a result 
of the metallurgical work that is being done with that pipe now 
in lab, as to exactly why it failed. And we are party to that 
investigation. We will also be conducting our own 
investigation.
    But it is very important that we find out why it failed. 
And, at this point, as indicated by the NTSB earlier, we don't 
know why it failed.
    Mr. Schauer. Well, I want to again remind you that there 
were 329 defects, plus this one, that hadn't met the threshold. 
The preliminary data--I didn't get a chance to ask Chairman 
Hersman to talk about it--was there were signs of corrosion in 
that line.
    Chairman Oberstar talked extensively and asked you about 
your control room. You say you have trained people. I have 
talked to the NTSB about their findings. They have been there. 
There were alarms going off for 13 hours, all different 
varieties. Why couldn't they figure it out?
    Mr. Daniel. That, once again, is part of the investigation 
with the NTSB. And as they indicated earlier, we are in a 
preliminary stage of that. But, believe me, we want to know 
more than anyone. And we are conducting our own internal 
investigation, as well.
    Mr. Schauer. I mean, can you understand why 10 days after 
that Vice President of U.S. Operations Richard Adams quote that 
Chairman Oberstar read to you about the control center and the 
ability to defect the smallest of leaks, why I don't have very 
much confidence?
    Mr. Daniel. I certainly want to understand the cause, and 
more so than anyone else. And it is very important for us to 
get to the bottom as to why that piece of pipe failed. So, yes.
    Mr. Schauer. I want to talk about claims for a minute. Has 
Enbridge established levels of compensation for certain claims? 
We have heard of inconvenience claims. Does Enbridge have some 
sort of set amount that they offer people for inconvenience of 
harming them due to the pipeline rupture? For example, in this 
kind of situation, this person would get this much, and in this 
kind of situation, they would get that much.
    Do the amounts $210 and $105 mean anything to you?
    Mr. Daniel. With regard to the latter part of your 
question, no.
    But with regard to the first part, yes. Depending on the 
level of impact, if someone was in the direct impact area along 
Talmadge Creek, for example, where their property backs onto 
the creek or onto the river and therefore they had the cleanup 
crews and trucks often working through the night, their level 
of inconvenience payment and impact would be quite different 
from somebody who was maybe miles away but was inconvenienced 
because of roadblocks and traffic. Still both were 
inconvenienced, but at different levels.
    Mr. Schauer. I will have you look at this quote from your 
spokesperson, Terri Larson. She has been in the newspapers a 
lot. ``Enbridge was encouraging people most affected by the 
spill in the red zone to sign the full and final settlement 
release for $210 dollars per adult in the household and $105 
per child.''
    I wonder if can you comment on her statement. That seems to 
be new information to you. Do you have knowledge of this?
    Mr. Daniel. I am not aware of the level of those 
settlements, no.
    Mr. Schauer. So do you think $210 per adult and $105 for a 
child is fair compensation?
    Mr. Daniel. I don't think it would be fair for me to 
comment, not knowing the circumstance.
    We have established what we think to be a very fair process 
with regard to claims. And it is very important, as you know, 
Congressman, as I have indicated before, that Enbridge feels 
that it should not be necessary to sue Enbridge to recover 
costs. And we want to be able to settle with everyone involved 
in this incident.
    In order to make sure that our process is fair and 
perceived to be fair, we have arranged to have the former mayor 
of Detroit and a member of the Supreme Court of Michigan, 
Dennis Archer, come in to do a review of our claims process to 
ensure that it does meet those requirements.
    Mr. Schauer. Now, a representative of your company, someone 
named Meredith, was contacting witnesses leading up to this 
hearing. I mentioned that earlier. Some of them mentioned that, 
as well. And I hope that, after their testimony, your company 
plans to live up to those commitments that were made to them.
    Mr. Daniel. Any commitments that we have made we will live 
up to. Obviously, we--by the way, as you know, I have met with 
many of the individuals that were on the panel earlier. I met 
recently with them in Ceresco. And we continue to work with 
them to ensure that we address their needs.
    Mr. Schauer. I want to ask about the medical release forms. 
I think we have that that we are going to pull up on the 
screen.
    Now, Mr. Daniel, is Enbridge a health care provider?
    Mr. Daniel. No, we are not.
    Mr. Schauer. OK. How about a health care plan, health 
insurance plan, a health care plan?
    Mr. Daniel. Well, we have health care for our employees, a 
health care plan for our employees, but----
    Mr. Schauer. OK. Or a health care clearinghouse or involved 
in the health care business in any way?
    Mr. Daniel. No.
    Mr. Schauer. OK. The reason I am asking is because those 
three entities are the ones that are subject to HIPAA, not 
Enbridge. It is not only an infringement on people's rights, 
but it is borderline fraudulent. The top line alone of your 
form--it is very hard to read here--says, quote, 
``Authorization for release of medical records pursuant to 45 
Code of Federal regulations (HIPAA),'' end quote, leading 
people to believe that this is somehow required by Federal law. 
Every person we interviewed told us they thought they had to 
sign it--we have heard that here--in order to obtain care.
    Now, what are you doing about this form and about the forms 
that were already signed?
    Mr. Daniel. Congressman, once again, we set up a process 
that we felt that was very fair and reasonable with regard to 
medical claims and care, very similar to the claims process 
that I mentioned earlier. It was very important to us that, for 
those that could afford to go to their primary care provider, 
that they do that and that we would then reimburse them. In the 
cases of those who could not afford to go and prepay, we then 
made arrangements with a family health center such that they 
could bill us. And, therefore, those individuals seeking health 
care didn't have to go through us.
    The health claims--we made it known to all individuals they 
would have to take their health records with them to get 
service with the health care provider.
    Mr. Schauer. But do you understand what this form does? I 
am not sure that you do. This is a blanket form. And, 
typically, health care providers--physicians, doctors, health 
insurance companies--offer it to patients to sign. They are not 
required to sign it. And what it does is it provides for 
confidentiality of sharing of medical records for medical 
purposes.
    This form gives you access, your company and oil pipeline 
company, to one of these individuals, a person who has no 
health insurance--that is why they are coming to your person 
and getting screened and authorized by a non-medical person in 
one of your claims offices--this gives your company access to 
all of their medical records. Do you think that is appropriate?
    Mr. Daniel. We have no need or interest in the medical 
records of individuals, Congressman. I can assure you of that. 
All we have tried to do from the outset was to set up a system 
that was very responsive to the health care needs of the 
individuals. And that is one of the reasons why we have asked 
Dennis Archer to come in to review it, to make sure that the 
process is very fair and acceptable.
    Mr. Schauer. So have you stopped the use of this form?
    Mr. Daniel. I don't know that offhand. I can get back to 
you and confirm that.
    Mr. Schauer. Well, and I also request--and I think I 
requested this in writing--that you rescind all of those that 
have been signed. Would you agree to do that?
    Mr. Daniel. Yes.
    Mr. Schauer. Thank you.
    Just a couple of other questions. I am very concerned about 
the report of illegal aliens, undocumented workers, working on 
the site. Now, your testimony talked about--this was page 5 of 
your written testimony: ``Our contractors are continually 
required to comply with all laws, and that includes that their 
workers are fully documented and qualified.''
    Now, if it was a newspaper report, maybe it is true, maybe 
it is not true. Even an online publication, maybe it is true, 
maybe it is not true. But there were reports of one of your 
subcontractors, Hallmark Industries, that works for one of your 
contractors, Garner, that, first of all, bused workers from 
Texas. And I will remind you the unemployment rate in Michigan 
is 13 percent. And we have HAZMAT-trained workers and those 
that are prepared quickly to go through HAZWOPER certification.
    So the first question--you can answer or not--is why your 
subcontractors are busing people up from Texas. And there are 
questions whether they actually were certified to do this work 
and whether they were provided to do the proper safety 
equipment.
    But they fled back to Texas, loaded their busses, went 
back. You claim the contractor subsequently decided to 
terminate the contractor. These buses were raided by a sheriff 
in Texas, and, of those who ran, a number of them were caught. 
Forty-two of them were illegal aliens, undocumented workers.
    So, you know, you are under oath. Is your written statement 
accurate? Your spokesman, Terri Larson, has said that is what 
you do. You obviously don't. It is of grave concern to me.
    Mr. Daniel. Contractors, Congressman, are bound to 
represent to us that they have complied with all laws. And when 
we heard of this--and I heard of it probably the same way you 
did, through the media--we approached our contractor, and they 
terminated the subcontractor. We had not hired the 
subcontractor directly; we had hired the contractor.
    Mr. Schauer. Would you admit that you are responsible for 
all contractors working for you, contractors and 
subcontractors? Isn't that your obligation?
    Mr. Daniel. We do require that all contractors represent to 
us that they have complied with all of our rules and 
regulations.
    Mr. Schauer. It didn't work out very well. I contend you 
have an obligation, and you have an obligation to actually do 
it.
    I want to go to the other release form that Chairman 
Oberstar and I wrote to you about and wrote the U.S. Attorney 
General. It is this release/full and final settlement form.
    The first one I want to show you actually is signed by your 
vice president of finance, Mark Maki. It has been redacted. 
They were paid $206.40. And then at the bottom, note their 
addition. It says, ``They''--I am assuming that means your 
company--``will not give me my money back. No longer in motel. 
Returning home without me doing this settlement. I don't agree 
with this.''
    So they don't agree with this form. This, apparently, is a 
requirement for them to receive payment apparently for a hotel. 
Can you comment on this practice by your company?
    Mr. Daniel. Congressman, the intent of our claims process 
was never to cause people to sign releases for expenses 
incurred. And we have gone back through our records, have found 
out that, with the hundreds of claims processed, there were, I 
believe, 36 where that was the case. We have contacted all, and 
we have indicated that we will relieve them of the release that 
was signed. That should not have been done. That was not our 
intent.
    Mr. Schauer. So you have changed your policy. So this 
person will have this form rescinded, then?
    Mr. Daniel. If that was for expense only, yes, that would 
be the case.
    Mr. Schauer. OK. And similarly for this person with the 
$40--not sure. It says, ``Plus air purifier.'' They were 
apparently given $40 for something, then got an air purifier.
    So that one would be destroyed or rescinded, as well?
    Mr. Daniel. I am sure, again, if that was expense only, 
that it will. And I understand, Congressman, that there was one 
case where someone signed a release for an air purifier, and, 
again, that was inappropriate. For expense or something like an 
air purifier, there was no intent in the original design of 
this claims process for a release to be signed.
    Mr. Schauer. My concern about this form is that it 
releases--and I am not an attorney--but it releases yourcompany 
from all liability--``from and against all liability, claims, 
action, causes of action, costs and expenses, including without 
limitation claims for personal injuries, property damage that 
claimants ever had, has, or may have against the Enbridge 
Released Parties, whether known or unknown, related to the 
event.''
    So you are using this under some circumstances, or are you 
completely ceasing use of that form?
    Mr. Daniel. The medical release portion of that we have 
discontinued using.
    Mr. Schauer. Now, both of these forms I have been talking 
about, this release of medical records and this liability 
waiver, have they been used for other accidents, other Enbridge 
spills?
    Mr. Daniel. Not that I am aware of.
    Mr. Schauer. OK. So you have 83 alone in the Lakehead 
system in the last 8 years. So you are saying that this is new 
to Calhoun County.
    Mr. Daniel. Congressman, this is by far the worst spill we 
have had in the history of this company, and, hence, it is 
unprecedented in our history.
    Mr. Schauer. My concern is, you seem like a very nice 
person, but your words and your sentiments and the actions of 
your company just haven't matched up, from the July 15th 
testimony of your vice president about the impeccability of 
your leak-detection system, of your decisions about how to 
operate and maintain the pipeline itself, to how you have 
treated some of my constituents. These are my neighbors. These 
are my neighbors.
    What was your company--and I am not a corporate lawyer, an 
expert on corporate structures. But for the entirety of your 
Enbridge businesses, what were your company's profits last 
year?
    Mr. Daniel. Enbridge, in total, had profits in the range of 
$800 million. That is Canadian dollars.
    Mr. Schauer. $800 million.
    Mr. Daniel. Yes.
    Mr. Schauer. And you have in your testimony talked about 
the amount of money you have actually spent in maintaining your 
pipeline. It just gives me pause.
    I appreciate you coming. I am sure this is difficult. But 
this Committee has a job to do, and not just to learn from this 
but, as Chairman Oberstar said, to hold your company 
accountable for what happened, its actions.
    You know it, you have been meeting with people, you heard 
them here: This is a community that has been turned inside out. 
You have spread some good will in the community. I acknowledge 
that.
    But I will ask this as a question. How can you keep your 
promise? I am giving you the benefit of the doubt. I think you 
mean it. But how can you keep your promise to make sure that 
this community is made whole?
    Mr. Daniel. Congressman, as you know, I have been primarily 
in Marshall, with the exception of 2 or 3 days, since the 26th 
of July. I am personally committed and our company is committed 
to doing everything that we can to make up to the people in 
Marshall and Battle Creek for the mess that we made. We are 
working very diligently to meet the September 27th deadline for 
cleanup of the spill, in conjunction with the EPA and all of 
the coordinating agencies.
    But we are going to be there long after that. We have been 
in the community for 41 years, and these are our neighbors as 
well. And they will be our neighbors for decades to come. And 
you have my commitment that we will be there to make your 
constituents happy that we have done the right job.
    Mr. Schauer. Well, I think there will have to be along-term 
relationship, because, as I said to Calhoun County 
Administrator Kelli Scott, I don't know how we calculate a 
further reduction in property values, a loss of recreational 
use of the Kalamazoo River. It is a very vibrant river. People 
canoe, fish. And believe it or not, in my community--and it is 
somewhat economically distressed--there are people that fish 
and feed themselves from that river. I don't know what kind of 
accountant we would need to find to calculate the real 
financial cost.
    I think all of us wished that we had not met, because that 
would have meant that your pipeline had never ruptured. But I 
want to remind everyone here that this should never have 
happened. And the result was a million gallons of heavy, heavy 
crude oil spilled into the Talmadge Creek and Kalamazoo River.
    To put that into perspective--this is your business, so I 
am sure you can relate to this. As our Nation watched the BP 
spill, weeks and weeks and months and months, it was 200 
million gallons of oil. This is about one-two-hundredth. Think 
about that. One-two-hundredth the amount of oil dumped into the 
Kalamazoo River as was spilled into the Gulf of Mexico, one-
two-hundredth.
    I will conclude by asking for a commitment from you. In 
good conscience, I am not confident in your pipeline,pipeline 
6B. The evidence will not allow me to be confident or have 
faith that you can safely operate your pipeline. I am asking 
for your assurance that you will not restart this pipeline 
until it is absolutely safe. Will you make this commitment to 
this Committee?
    Mr. Daniel. Congressman, we will not restart thispipeline 
until, not only do we deem it to be safe, but also the 
regulator deems it to be safe. And you have my commitment.
    Mr. Schauer. Thank you.
    I don't think I have any further questions. Mr. Daniel, you 
are excused. Thank you.
    Members of this Committee will have 14 days to revise and 
extend their remarks.
    And the Committee hearing is now adjourned.
    [Whereupon, at 5:07 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8236.027
    
    [GRAPHIC] [TIFF OMITTED] T8236.028
    
    [GRAPHIC] [TIFF OMITTED] T8236.029
    
    [GRAPHIC] [TIFF OMITTED] T8236.030
    
    [GRAPHIC] [TIFF OMITTED] T8236.031
    
    [GRAPHIC] [TIFF OMITTED] T8236.032
    
    [GRAPHIC] [TIFF OMITTED] T8236.033
    
    [GRAPHIC] [TIFF OMITTED] T8236.034
    
    [GRAPHIC] [TIFF OMITTED] T8236.035
    
    [GRAPHIC] [TIFF OMITTED] T8236.036
    
    [GRAPHIC] [TIFF OMITTED] T8236.037
    
    [GRAPHIC] [TIFF OMITTED] T8236.038
    
    [GRAPHIC] [TIFF OMITTED] T8236.039
    
    [GRAPHIC] [TIFF OMITTED] T8236.040
    
    [GRAPHIC] [TIFF OMITTED] T8236.041
    
    [GRAPHIC] [TIFF OMITTED] T8236.042
    
    [GRAPHIC] [TIFF OMITTED] T8236.043
    
    [GRAPHIC] [TIFF OMITTED] T8236.044
    
    [GRAPHIC] [TIFF OMITTED] T8236.045
    
    [GRAPHIC] [TIFF OMITTED] T8236.046
    
    [GRAPHIC] [TIFF OMITTED] T8236.047
    
    [GRAPHIC] [TIFF OMITTED] T8236.048
    
    [GRAPHIC] [TIFF OMITTED] T8236.049
    
    [GRAPHIC] [TIFF OMITTED] T8236.050
    
    [GRAPHIC] [TIFF OMITTED] T8236.051
    
    [GRAPHIC] [TIFF OMITTED] T8236.052
    
    [GRAPHIC] [TIFF OMITTED] T8236.053
    
    [GRAPHIC] [TIFF OMITTED] T8236.054
    
    [GRAPHIC] [TIFF OMITTED] T8236.055
    
    [GRAPHIC] [TIFF OMITTED] T8236.056
    
    [GRAPHIC] [TIFF OMITTED] T8236.057
    
    [GRAPHIC] [TIFF OMITTED] T8236.058
    
    [GRAPHIC] [TIFF OMITTED] T8236.059
    
    [GRAPHIC] [TIFF OMITTED] T8236.060
    
    [GRAPHIC] [TIFF OMITTED] T8236.061
    
    [GRAPHIC] [TIFF OMITTED] T8236.062
    
    [GRAPHIC] [TIFF OMITTED] T8236.063
    
    [GRAPHIC] [TIFF OMITTED] T8236.064
    
    [GRAPHIC] [TIFF OMITTED] T8236.065
    
    [GRAPHIC] [TIFF OMITTED] T8236.066
    
    [GRAPHIC] [TIFF OMITTED] T8236.067
    
    [GRAPHIC] [TIFF OMITTED] T8236.068
    
    [GRAPHIC] [TIFF OMITTED] T8236.069
    
    [GRAPHIC] [TIFF OMITTED] T8236.070
    
    [GRAPHIC] [TIFF OMITTED] T8236.071
    
    [GRAPHIC] [TIFF OMITTED] T8236.072
    
    [GRAPHIC] [TIFF OMITTED] T8236.073
    
    [GRAPHIC] [TIFF OMITTED] T8236.074
    
    [GRAPHIC] [TIFF OMITTED] T8236.075
    
    [GRAPHIC] [TIFF OMITTED] T8236.076
    
    [GRAPHIC] [TIFF OMITTED] T8236.077
    
    [GRAPHIC] [TIFF OMITTED] T8236.078
    
    [GRAPHIC] [TIFF OMITTED] T8236.079
    
    [GRAPHIC] [TIFF OMITTED] T8236.080
    
    [GRAPHIC] [TIFF OMITTED] T8236.081
    
    [GRAPHIC] [TIFF OMITTED] T8236.082
    
    [GRAPHIC] [TIFF OMITTED] T8236.083
    
    [GRAPHIC] [TIFF OMITTED] T8236.084
    
    [GRAPHIC] [TIFF OMITTED] T8236.085
    
    [GRAPHIC] [TIFF OMITTED] T8236.086
    
    [GRAPHIC] [TIFF OMITTED] T8236.087
    
    [GRAPHIC] [TIFF OMITTED] T8236.088
    
    [GRAPHIC] [TIFF OMITTED] T8236.089
    
    [GRAPHIC] [TIFF OMITTED] T8236.090
    
    [GRAPHIC] [TIFF OMITTED] T8236.091
    
    [GRAPHIC] [TIFF OMITTED] T8236.092
    
    [GRAPHIC] [TIFF OMITTED] T8236.093
    
    [GRAPHIC] [TIFF OMITTED] T8236.094
    
    [GRAPHIC] [TIFF OMITTED] T8236.095
    
    [GRAPHIC] [TIFF OMITTED] T8236.096
    
    [GRAPHIC] [TIFF OMITTED] T8236.097
    
    [GRAPHIC] [TIFF OMITTED] T8236.098
    
    [GRAPHIC] [TIFF OMITTED] T8236.099
    
    [GRAPHIC] [TIFF OMITTED] T8236.100
    
    [GRAPHIC] [TIFF OMITTED] T8236.101
    
    [GRAPHIC] [TIFF OMITTED] T8236.102
    
    [GRAPHIC] [TIFF OMITTED] T8236.103
    
    [GRAPHIC] [TIFF OMITTED] T8236.104
    
    [GRAPHIC] [TIFF OMITTED] T8236.105
    
    [GRAPHIC] [TIFF OMITTED] T8236.106
    
    [GRAPHIC] [TIFF OMITTED] T8236.107
    
    [GRAPHIC] [TIFF OMITTED] T8236.108
    
    [GRAPHIC] [TIFF OMITTED] T8236.109
    
    [GRAPHIC] [TIFF OMITTED] T8236.110
    
    [GRAPHIC] [TIFF OMITTED] T8236.111
    
    [GRAPHIC] [TIFF OMITTED] T8236.112
    
    [GRAPHIC] [TIFF OMITTED] T8236.113
    
    [GRAPHIC] [TIFF OMITTED] T8236.114
    
    [GRAPHIC] [TIFF OMITTED] T8236.115
    
    [GRAPHIC] [TIFF OMITTED] T8236.116
    
    [GRAPHIC] [TIFF OMITTED] T8236.117
    
    [GRAPHIC] [TIFF OMITTED] T8236.118
    
    [GRAPHIC] [TIFF OMITTED] T8236.119
    
    [GRAPHIC] [TIFF OMITTED] T8236.120
    
    [GRAPHIC] [TIFF OMITTED] T8236.121
    
    [GRAPHIC] [TIFF OMITTED] T8236.122
    
    [GRAPHIC] [TIFF OMITTED] T8236.123
    
    [GRAPHIC] [TIFF OMITTED] T8236.124
    
    [GRAPHIC] [TIFF OMITTED] T8236.125
    
    [GRAPHIC] [TIFF OMITTED] T8236.126
    
    [GRAPHIC] [TIFF OMITTED] T8236.127
    
    [GRAPHIC] [TIFF OMITTED] T8236.128
    
    [GRAPHIC] [TIFF OMITTED] T8236.129
    
    [GRAPHIC] [TIFF OMITTED] T8236.130
    
    [GRAPHIC] [TIFF OMITTED] T8236.131
    
    [GRAPHIC] [TIFF OMITTED] T8236.132
    
    [GRAPHIC] [TIFF OMITTED] T8236.133
    
    [GRAPHIC] [TIFF OMITTED] T8236.134
    
    [GRAPHIC] [TIFF OMITTED] T8236.135
    
    [GRAPHIC] [TIFF OMITTED] T8236.136
    
    [GRAPHIC] [TIFF OMITTED] T8236.137
    
    [GRAPHIC] [TIFF OMITTED] T8236.138
    
    [GRAPHIC] [TIFF OMITTED] T8236.139
    
    [GRAPHIC] [TIFF OMITTED] T8236.140
    
    [GRAPHIC] [TIFF OMITTED] T8236.141
    
    [GRAPHIC] [TIFF OMITTED] T8236.142
    
    [GRAPHIC] [TIFF OMITTED] T8236.143
    
    [GRAPHIC] [TIFF OMITTED] T8236.144
    
    [GRAPHIC] [TIFF OMITTED] T8236.145
    
    [GRAPHIC] [TIFF OMITTED] T8236.146
    
    [GRAPHIC] [TIFF OMITTED] T8236.147
    
    [GRAPHIC] [TIFF OMITTED] T8236.148
    
    [GRAPHIC] [TIFF OMITTED] T8236.149
    
    [GRAPHIC] [TIFF OMITTED] T8236.150
    
    [GRAPHIC] [TIFF OMITTED] T8236.151
    
    [GRAPHIC] [TIFF OMITTED] T8236.152
    
    [GRAPHIC] [TIFF OMITTED] T8236.153
    
    [GRAPHIC] [TIFF OMITTED] T8236.154
    
    [GRAPHIC] [TIFF OMITTED] T8236.155
    
    [GRAPHIC] [TIFF OMITTED] T8236.156
    
    [GRAPHIC] [TIFF OMITTED] T8236.157
    
    [GRAPHIC] [TIFF OMITTED] T8236.158
    
    [GRAPHIC] [TIFF OMITTED] T8236.159
    
    [GRAPHIC] [TIFF OMITTED] T8236.160
    
    [GRAPHIC] [TIFF OMITTED] T8236.161
    
    [GRAPHIC] [TIFF OMITTED] T8236.162
    
    [GRAPHIC] [TIFF OMITTED] T8236.163
    
    [GRAPHIC] [TIFF OMITTED] T8236.164
    
    [GRAPHIC] [TIFF OMITTED] T8236.165
    
    [GRAPHIC] [TIFF OMITTED] T8236.166
    
    [GRAPHIC] [TIFF OMITTED] T8236.167
    
    [GRAPHIC] [TIFF OMITTED] T8236.168
    
    [GRAPHIC] [TIFF OMITTED] T8236.169
    
    [GRAPHIC] [TIFF OMITTED] T8236.170
    
    [GRAPHIC] [TIFF OMITTED] T8236.171
    
    [GRAPHIC] [TIFF OMITTED] T8236.172
    
    [GRAPHIC] [TIFF OMITTED] T8236.173
    
    [GRAPHIC] [TIFF OMITTED] T8236.174
    
    [GRAPHIC] [TIFF OMITTED] T8236.175
    
    [GRAPHIC] [TIFF OMITTED] T8236.176
    
    [GRAPHIC] [TIFF OMITTED] T8236.177
    
    [GRAPHIC] [TIFF OMITTED] T8236.178
    
    [GRAPHIC] [TIFF OMITTED] T8236.179
    
    [GRAPHIC] [TIFF OMITTED] T8236.180
    
    [GRAPHIC] [TIFF OMITTED] T8236.181
    
    [GRAPHIC] [TIFF OMITTED] T8236.182
    
    [GRAPHIC] [TIFF OMITTED] T8236.183
    
    [GRAPHIC] [TIFF OMITTED] T8236.184
    
    [GRAPHIC] [TIFF OMITTED] T8236.185
    
    [GRAPHIC] [TIFF OMITTED] T8236.186
    
    [GRAPHIC] [TIFF OMITTED] T8236.187
    
    [GRAPHIC] [TIFF OMITTED] T8236.188
    
    [GRAPHIC] [TIFF OMITTED] T8236.189
    
    [GRAPHIC] [TIFF OMITTED] T8236.190
    
    [GRAPHIC] [TIFF OMITTED] T8236.191
    
    [GRAPHIC] [TIFF OMITTED] T8236.192
    
    [GRAPHIC] [TIFF OMITTED] T8236.193
    
    [GRAPHIC] [TIFF OMITTED] T8236.194
    
    [GRAPHIC] [TIFF OMITTED] T8236.195
    
    [GRAPHIC] [TIFF OMITTED] T8236.196
    
    [GRAPHIC] [TIFF OMITTED] T8236.197
    
    [GRAPHIC] [TIFF OMITTED] T8236.198
    
    [GRAPHIC] [TIFF OMITTED] T8236.199
    
    [GRAPHIC] [TIFF OMITTED] T8236.200
    
    [GRAPHIC] [TIFF OMITTED] T8236.201
    
    [GRAPHIC] [TIFF OMITTED] T8236.202
    
    [GRAPHIC] [TIFF OMITTED] T8236.203
    
    [GRAPHIC] [TIFF OMITTED] T8236.204
    
    [GRAPHIC] [TIFF OMITTED] T8236.205
    
    [GRAPHIC] [TIFF OMITTED] T8236.206
    
    [GRAPHIC] [TIFF OMITTED] T8236.207
    
    [GRAPHIC] [TIFF OMITTED] T8236.208
    
    [GRAPHIC] [TIFF OMITTED] T8236.209
    
    [GRAPHIC] [TIFF OMITTED] T8236.210
    
    [GRAPHIC] [TIFF OMITTED] T8236.211
    
    [GRAPHIC] [TIFF OMITTED] T8236.212
    
    [GRAPHIC] [TIFF OMITTED] T8236.213
    
    [GRAPHIC] [TIFF OMITTED] T8236.214
    
    [GRAPHIC] [TIFF OMITTED] T8236.215
    
    [GRAPHIC] [TIFF OMITTED] T8236.216
    
    [GRAPHIC] [TIFF OMITTED] T8236.217
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
